1a
APPENDIX A – ORDER DENYING
APPLICATION FOR REARGUMENT,
SUPREME COURT OF PENNSYLVANIA,
WESTERN DISTRICT, FILED MARCH 11, 2021
[J-23-2020]
IN THE SUPREME COURT OF
PENNSYLVANIA WESTERN DISTRICT
No. 41 WAP 2019
PBS COALS, INC. AND PENN POCAHONTAS
COAL, CO.,
APPELLEES,
v.
COMMONWEALTH OF PENNSYLVANIA,
DEPARTMENT OF TRANSPORTATION,
APPELLANT
ORDER
PER CURIAM
AND NOW, this 11th day of March, 2021,
the Applications for Reargument are hereby
DENIED.
A True Copy Patricia Nicola
As Of 03/11/2021
Attest: /s/ Patricia Nicola
Chief Clerk
Supreme Court of Pennsylvania

2a
APPENDIX B – APPLICATIONS FOR
REARGUMENT, PBS COALS AND PENN
POCAHONTAS COAL, CO.,
FILED JANUARY 29, 2021
IN THE SUPREME COURT OF
PENNSYLVANIA
WESTERN DISTRICT
________________________________________________
No. 41 WAP 2019
PBS COALS, INC. and PENN POCAHONTAS
COAL, CO.,
Appellees
v.
COMMONWEALTH OF PENNSYLVANIA
DEPARTMENT OF TRANSPORTATION,
Appellant
________________________________________________
APPELLEE PBS COALS, INC.’S APPLICATION
FOR REARGUMENT
_________________________________________________
Opinion of Supreme Court Decided: January 20, 2021
_________________________________________________
Vincent J. Barbera, Esquire
I.D. No. 34441
Barbera, Melvin, & Svonavec, LLC
146 West Main Street, PO Box 775
Somerset, PA 15501
Phone: (814) 443-4681
Counsel for Appellee, PBS Coals, Inc.

3a
INTENTIONALLY LEFT OUT TABLE OF
CONTENTS AND TABLE OF CITATIONS
APPLICATION FOR REARGUMENT
TO
THE
HONORABLE
JUSTICES
AND
PROTHONOTARY OF THE SUPREME COURT OF
PENNSYLVANIA:
AND NOW COMES the Appellee, PBS Coals,
Inc., by and through its attorney, Vincent J. Barbera,
Esq. and respectfully moves this Honorable Court to
grant the Appellees reargument in the above
captioned case pursuant to Pa.R.A.P. 2541-2544 for
the reasons that follow:
I.

THE
PENNSYLVANIA
SUPREME
COURT
MISAPPREHENDED
OR
OVERLOOKED CONTROLLING U.S.
SUPREME COURT AUTHORITY AS TO
WHAT CONSTITUTES A “TAKING” OF
PROPERTY
FOR
WHICH
JUST
COMPENSATION IS DUE UNDER THE
5TH AND 14TH AMENDMENTS TO
THE U.S. CONSTITUTION

The Court overlooked or misapprehended the
long line of United States Supreme Court cases which
are described and followed in Loretto v. Teleprompter
Manhattan CATV Corp., 458 U.S. 419, 102 S.Ct. 3164,
73 L.Ed.2d 868 (1982), which held that a permanent
physical occupation of even a small part of an owner’s
property authorized by government constitutes a
“taking” of property for which just compensation is
due under the 5th and 14th Amendments to the
Constitution. In the Loretto case, New York law

4a
authorized Appellee cable company’s small boxes and
cables to occupy a portion of the roof and side of the
Appellant’s building without Appellant’s consent. The
United States Supreme Court in Kaiser Aetna v.
United States, 444 U.S. 164, 100 S.Ct. 383, 62 L.Ed.2d
332 (1979) held that “even if the government
physically invades only an easement in property, it
must nonetheless pay just compensation”. 444 U.S. at
180. Similarly, in this case, PennDOT has invaded
and permanently occupied the right-of-way portion of
the coal property and mining rights owned by PBS.
PBS owned the right-of-way by virtue of its lease of
the surface for mining which included the right to any
part of the property needed to mine and remove the
coal, which necessarily included the right-of-way from
Parcel 55 across Parcels 54 and 50 to the public road.
(RR 15c-18c, 229c-240c, 114c-115c, 118c-119c, 214c,
358c) PennDOT built the highway on PBS’ right-ofway, thereby permanently occupying and rendering it
useless. (RR19c, 214c)
In addition, Penn Pocahontas Coal Company,
which owned the coal estate and leased the coal to
PBS on Parcel 55, also owned both the surface and the
coal on the adjacent Parcel 50. Parcel 50 provided
access from Parcel 55 through Parcel 50 to the Garrett
Shortcut Road prior to the condemnation by
PennDOT. (RR 114c-119c, 214c, 357c-358c) While the
taking of Parcel 50 surface and coal to the depth of 100
feet was a de jure condemnation as to Penn
Pocahontas as to Parcel 50, it constituted a de facto
taking as to both PBS and Penn Pocahontas through
the permanent physical occupation of the access from
Parcel 55 to the Garrett Short Cut Road.
The U.S. Supreme Court in Loretto explained
that “we have long considered a physical intrusion by
government to be a property restriction of an

5a
unusually serious character for purposes of the
Takings Clause. Our cases further establish that
when the physical intrusion reaches the extreme form
of a permanent physical occupation, a taking has
occurred.” Id at 426. The Court further pointed out
“When faced with a constitutional challenge to a
permanent physical occupation of real property, this
Court has invariably found a taking.” Id at 427. The
Court pointed to the case of Pumpelly v. Green Bay
Co., 80 U.S. 166, 20 L.Ed. 557 (1872), where the U.S.
Supreme Court held that the Defendant’s
construction, pursuant to State authority, of a dam
which permanently flooded the Plaintiff’s property
constituted a taking. The U.S. Supreme Court in both
U.S. v. Welch, 217 U.S. 333, 30 S.Ct. 527, 54 L.Ed. 787
(1910) and U.S. v. Grizzard, 219 U.S. 180, 31 S.Ct.
162, 55 L.Ed. 165 (1911), determined that government
action of flooding and thereby physically taking a part
of a landowner’s property which thereby cut off access
to a public road for the rest of the property was a
taking worthy of Constitutional protection without
any prerequisite of the establishment of a use or value
of the property which was impacted by the loss of
access.
The Loretto Court went on to explain that
“Later cases, relying on the character of a physical
occupation, clearly establish that permanent
occupations of land by such installations as telegraph
and telephone lines, rails, and underground pipes or
wires are takings even if they occupy only relatively
insubstantial amounts of space and do not seriously
interfere with the landowner’s use of the rest of his
land.” Id at 430. Quoting United States v. Causby,
328 U.S. 256, 265-266, 66 S.Ct. 1062, 90 L.Ed. 1206
(1946), the Loretto Court stated, “The Court concluded
that the damages to the respondents ‘were not merely

6a
consequential. They were the product of a direct
invasion of respondents’ domain.’” Loretto, 458 U.S. at
431. The Loretto Court explained that “Property
rights in a physical thing have been described as the
rights ‘to possess, use and dispose of it.’” Id at 435,
citing United States v. General Motors Corp., 323 U.S.
373, 65 S.Ct. 357, 89 L.Ed. 311 (1945). “To the extent
that the government permanently occupies physical
property, it effectively destroys each of these rights.”
Loretto, 458 U.S. at 435. The Loretto Court concludes
“Finally, whether a permanent physical occupation
has occurred presents relatively few problems of proof.
The placement of a fixed structure on land or real
property is an obvious fact that will rarely be subject
to dispute. Once the fact of occupation is shown, of
course, a court should consider the extent of the
occupation as one relevant factor in determining the
compensation due.” Id at 437. In the case at hand, the
taking of the right-of-way by PennDOT, including the
construction of Route 219, running through that rightof-way, constitutes a taking under “the traditional
rule that a permanent physical occupation of property
is a taking”. Id at 441. The extent of the occupation
and its impact on the remainder of the property, as
the U.S. Supreme Court held in Loretto, is “one
relevant factor in determining the compensation due.”
Id at 437. The Pennsylvania Supreme Court should
recognize and follow the United States Supreme Court
precedent and acknowledge that PennDOT has de
facto taken property owned by PBS and PPCC for
which damages must be awarded.
II.

THE COURT MISAPPREHENDED THE
KEY FACT THAT MINE PERMITTING
IS NOT AN ALL-OR-NOTHING
PROPOSITION

7a

The Court mistakenly failed to realize that
a coal mining permit in Pennsylvania is not an all-ornothing proposition. The permit applicant and the
Pennsylvania
Department
of
Environmental
Protection (“DEP”) work together to address the
issues, modify mining plans and modify permit
applications to resolve environmental concerns. (RR
29c, 74c-75c) As District Mining Manager, Daniel
Sammarco, testified, the process begins with a
preapplication and then a field review, followed by a
comment letter from DEP which can take up to a year
of back and forth before a permit application is filed.
(RR 74c-75c) Potential issues of concern such as the
existence of streams and wetlands can be dealt with
in a number of ways to satisfy environmental
concerns. As both mining engineers Robert Kudlawiec
and Daniel Sammarco testified, the streams and
wetlands can be mined through and replaced, or coal
can be recovered without affecting them through
highwall mining or auger mining below them, or the
streams and wetlands can be avoided altogether. (RR
80c, 107c) Overburden issues can be dealt with by
special handling of the overburden, alkaline addition
can be added to neutralize and turn the overburden
alkaline or another option is to have less surface
mining and more highwall and auger mining which
does not disturb the overburden. (RR 27c-28c, 80c,
38c) In fact prior to the date of taking, PBS had
conducted surface mine planning in the area of Parcel
55 using a single surface mining pit and then
conducting highwall mining from the pit, known as
Job 27A reserve. (RR 108c) Thus different mining
plans on the same property could significantly differ
in their effect upon not only surface streams and
wetlands but also the overburden in order to address

8a
DEP concerns during the permitting process, all of
which increases the likelihood of a permit of some
nature being issued by DEP.
But the Court
misapprehended these facts and instead treated it as
an all or nothing matter and determined that the
single plan which involved mining almost the entire
property by surface mining was not reasonably likely
to be issued, therefore erroneously concluding that
there was no chance of any coal mining permit being
issued for the property.
Only a short distance away from Parcel 55,
the A Seam Deep Mine was planned and a permit
applied for in the same year as the access to Parcel 55
was cut off, 2010, and a permit was issued by DEP in
2013. (RR 23c) The permitted mining involves surface
mining through the same overburden as on Parcel 55
down to the A Seam for a large four acre pit from
which the deep mine would commence. (RR 34c, 45c46c) While this is less area than proposed for surface
mining for Parcel 55, if DEP said to the applicant on
Parcel 55: Satisfy us that you will not create
environmental issues by initially only making a four
acre pit and then highwall and auger mine from that
pit, which is like deep mining, then a permit would be
highly likely to have been issued for Parcel 55 as long
as the applicant had public road access. But now with
no public road access, a permit cannot be issued. Thus
it is reasonably likely that a permit of some size or
some form for some degree of surface mining would
have been issued for Parcel 55 while access existed to
it. At the very least, permit issuance was a reasonable
possibility, something worthy of Constitutional
protection from a taking by the public.
III.

THE COURT MISAPPREHENDED
THE CORRECT LEGAL STANDARD

9a
AND PLACED AN IMPOSSIBLE
BURDEN ON THE COAL OWNERS
It is respectfully submitted that the Trial Court
and this Court applied the wrong legal standard for
the determination of what property interest is worthy
of Constitutional protection. The U.S. Supreme Court
in Pennsylvania Coal Company v. Mahon, 260 U.S.
393, 415, 43 S.Ct. 158, 67 L.Ed. 322 (1922), followed
by the Pennsylvania Supreme Court in Belden &
Blake Corp. v. Com., Dept. of Conservation and Nat.
Resources, 600 Pa. 559, 566, 969 A.2d 528 (2009), held
that “A grant or reservation of minerals and the right
to mine them constitute property rights, which the
law recognizes, and which may not be taken for public
use without compensation.” Both of those cases, like
the present case, did not involve the physical taking of
the mineral property but rather the prevention of
mining the mineral. Neither the U.S. Supreme Court
in Mahon nor the Pennsylvania Supreme Court in
Belden & Blake placed any caveat on the mineral
ownership in order for it to constitute a property right
worthy of Constitutional protection. Neither Court
said what this Court said here, which is that even
though PennDOT physically took your access to your
coal property, if you cannot prove that you are
reasonably likely to obtain a permit now to mine the
mineral, then the government took nothing. The
Court in this case erroneously says that the only use
for a coal property is to mine it. To the contrary, a coal
property also is an investment. (RR 12c-13c) But if the
owner loses access to the coal property, then the
property loses its value. Thus the taking of the access
to the coal property has a negative affect on value
which is worthy of protection under the U.S.
Constitution and the Pennsylvania Constitution.

10a
As the U.S. Supreme Court pointed out in
Mississippi & Rum River Boom Co. v. Patterson, 98
U.S. at 408 (1878), “Property is not to be deemed
worthless because the owner allows it to go to waste,
or to be regarded as valueless because he is unable to
put it to any use. Others may be able to use it, and
make it subserve the necessities or conveniences of
life. Its capability of being made thus available gives
it a market value which can be readily estimated.” In
this case, if as the Court states, it has concerns about
whether PBS could get a permit for Parcel 55 because
of its old Job 21 experience, the coal property with
access still had value to “a willing buyer” who could
have then obtained a mining permit from DEP. Thus
the Court was wrong in effectively ruling out any
possibility of obtaining a mining permit.
By equating the ability to obtain a mining
permit with the ability to have any use of the coal
property, both the Trial Court and the Supreme Court
then placed the bar far higher than proper under the
U.S. Constitution and the Pennsylvania Constitution
and placed an impossible burden on the owners of the
coal and mining rights. Even though this Court stated
that “the “highest and best use’ inquiry includes
consideration of whether the proffered use is
reasonably possible,” (emphasis added) this Court,
like the Trial Court, inconsistently then holds that
unless the issuance of a permit is reasonably likely,
the property interest is not worthy of Constitutional
protection. (Opinion at 19 and 37) The MerriamWebster Dictionary defines “likely” as “promising – in
all probability – probably.” The same dictionary
defines “possible” as “being within the limits of ability,
capacity, or realization - being something that may or
may not occur.” In this case, the trial judge found and
as Justice Mundy pointed out in dissent: “PennDOT

11a
did not offer any testimony or reports to the effect that
the coal reserves underlying Parcel 55 could not be
mined or permitted by DEP.” (Trial Ct. Mem. 1/23/18
at ¶ 82, Justice Mundy Dissenting Opinion page 5).
To the contrary, both experts for the Plaintiffs
testified that in their professional opinion the permit
issuance was reasonably certain and between these
experts more than 82 mining permits had been
applied for, all had been issued and none had been
denied. (RR 29c, 45c) PennDOT’s expert, the DEP
representative Mr. Sammarco, testified that he could
not state that he would deny the permit but rather he
would need to see the completed permit application to
make a determination one way or the other, i.e., it is
possible. (RR 76c, 78c, 80c). In addition, the nearby A
Seam Deep Mine with a surface mine component had
successfully been permitted by the same mining
company. (RR 23c) On the immediately adjacent
parcels, Parcels 54 and 56 as well as Parcels 58 and
59, PennDOT had successfully obtained permits to
excavate through streams and wetlands, excavate
over 11 Million cubic yards of overburden and had
been permitted to remove all of the trees despite the
existence of the Indiana bats. (RR 65c, 70c-71c, 113c)
Sammarco admitted that from an environmental
standpoint, PennDOT would have been required to
meet the same standards for a permit as a coal
company. (RR 81c) Hence, PBS could do the same.
Also, on the adjacent Parcel 54 and 50, the closed and
reclaimed Black Mountain A Seam Mine, (which the
Majority Opinion mistakenly states on page 39 was a
PBS Job “which resulted in serious pollution to water
supplies” when in fact it was permitted and mined by
an unrelated coal company and did not result in any
pollution to any water supplies,) did not have any
noncomplying discharges, was similar in surface area

12a
affected as Parcel 55, and therefore was positive
evidence for PBS that mining there would not cause
pollution. (RR 34c, 42c) Sammarco admitted that the
fact that the Black Mountain Mine was closed very
near in the adjacent parcel to parcel 55 and it did not
have an acid mine discharge would be a consideration
in whether a permit would be issued to mine parcel
55. (RR 80c) But the Trial Court and this Court held
that since environmental concerns existed, “The coal
companies failed to establish that a permit was
reasonably likely to issue and accordingly any taking
was purely speculative and conjectural.” Opinion
page 37. In short, what this Court is saying is that
the owner of the minerals only has a Constitutionally
protected property interest if a permit has been issued
or at least an application has been prepared and DEP
determines that a permit would be issued. As applied
to this factual scenario, this Court would require PBS
to spend significant sums to prepare a permit
application, only to have it denied by DEP because
PBS could not show access to that coal property due to
the placement of Route 219 across PBS’ only access,
its right-of-way. In summary, this Court has put an
impossible burden on coal owners.
Furthermore, as the Commonwealth Court
accurately stated, “Under the trial court and
PennDOT’s logic, [and this Court’s logic] the owners of
a coal estate would never be able to demonstrate a de
facto taking, at the preliminary objections stage,
unless they were able to prove that they were likely to
obtain a mining permit. However, such a result would
place a higher burden of proof on owners of coal
estates than owners of surface properties and would
effectively relegate owners of coal estates to second
class property owner status. . . . unlike Surface
property owners who do not face any similar

13a
requirement to demonstrate a de facto taking at the
preliminary objections stage, even if their property is
relatively valueless or useless.” Page 34.
This
treatment by the Trial Court and by this Court
violates both the Equal Protection Clause of the
United States Constitution and the Takings Clauses
of both the United States Constitution and the
Pennsylvania Constitution.
PBS Coals, Inc.,
respectfully requests this Court to reconsider its
decision of January 20, 2021 and hold that PennDOT’s
actions have constituted a de facto taking of the Coal
Companies’ property for which damages are due.
Respectfully submitted,
BARBERA, MELVIN, & SVONAVEC, LLP
By:__/s/ Vincent J. Barbera________________
Vincent J. Barbera, Esq.
Court Adm. Cert. No.: 34441
Attorney for Appellee PBS Coals, Inc.
Dated: January 29, 2021

14a
IN THE SUPREME COURT OF
PENNSYLVANIA
WESTERN DISTRICT
________________________________________________
No. 41 WAP 2019
PBS COALS, INC. and PENN POCAHONTAS
COAL, CO.,
Appellees
v.
COMMONWEALTH OF PENNSYLVANIA
DEPARTMENT OF TRANSPORTATION,
Appellant
________________________________________________
PENN POCAHONTAS COAL, CO.’S
APPLICATION FOR REARGUMENT
_________________________________________________
Opinion of Supreme Court Decided: January 20, 2021
_________________________________________________
Robert P. Lightcap, Esquire
I.D. No. 05787
1004 Ligonier Street
Latrobe, PA 15650
Phone: (724) 539-3511
Email: rlightcap@lch-attorneys.com
Attorney for Penn Pocahontas Coal, Co.

15a
APPLICATION FOR REARGUMENT
TO THE HONORABLE JUSTICES AND
PROTHONOTARY OF THE SUPREME COURT OF
PENNSYLVANIA:
Penn Pocahontas Coal, Co. (“PPC”) through its
undersigned counsel, submits this request for
reargument in the above-captioned case pursuant Pa.
R.A.P. 2541-2544 because the Supreme Court has
overlooked and misapprehended various facts of
record material to the outcome of the case in its
Opinion and Order issued on January 20, 2021, as
follows:
The Court overlooked
and
misapprehended
various facts of record
material to the outcome
of the case.
Initially, PPC agrees with the Court’s
determination that “[d]etermining whether a taking
has occurred almost always turns on the facts…”
(Opinion, pg. 18). Notwithstanding, in its factual
conclusions from the evidence upon which the Court
rendered its ultimate decision (Opinion, pp. 38 & 39),
the Court both misapprehended the testimony that
was introduced at the time of hearing and omitted
various facts which were material to the outcome of
this case, as follows:
1. Sammarco Testimony – The statement on
page 39 that Sammarco testified that the Coal
Companies did not conduct “any stream or wetland
or impacts studies or an overburdening analysis” is

16a
not correct. Rather than the recited text, Sammarco’s
testimony was limited to the fact that his office had
not received any permit applications to surface mine
Parcel 55 (Sammarco. N.T., 2/15/2017 at 2.109);
therefore, he would not have been made aware of any
studies which had been undertaken for and on behalf
of the Coal Companies. In fact, expert witness Pierce
testified for PPC and PBS Coals, Inc. (“PBS,” with
PPC and PBS being together the Coal Companies”)
that although the appropriate “Modules” required for
that part of the PaDEP permit had not been
submitted to PaDEP, that the drilling and
overburden sample and analysis required for the
Modules had been prepared. (Pierce Testimony.
N.T., 2/14/2017 at 1.70-1.92 with the overburden
analysis being included in Exhibit 15, Attachment
10).
2. Kudlawiec Testimony – On page 39, the
Court repeated its statement from page 10 of the
Opinion that Kudlawiec was “not even aware of the
existence of an intermittent stream running through
the area until the time of his testimony…” The
referred to intermittent stream testified to by
PennDOT engineer Vitez was not shown on the
Official USGS Topographic Maps which were
previously examined by both Kudlawiec and Pierce.
(Pierce Testimony at 1.83). The only evidence of the
stream’s existence was on PennDOT Exhibit 23,
which was admitted by the trial court over the Coal
Companies’ objection. The PennDOT witness (Vitez)
who offered the exhibit had never observed the
intermittent stream on Parcel 55. (Vitez Testimony.
N.T., 2/16/2017 at 2.87).
As a result, it is
questionable whether or not there even was an
intermittent stream on Parcel 55.
It is also
submitted that the testimony concerning both the

17a
intermittent stream and the wetlands were both “red
herrings” and should not have been considered
important or relied upon by the Court; for it was
admitted by PennDOT that it had been able to obtain
a PaDEP permit to mitigate the impact of not merely
intermittent streams, but also various active streams
on other properties involved in the Route 219 Project.
(Vitez Testimony at 2.85-2.86).
3. Sammarco Statement on Wetlands and
Streams – The Court emphasized that the failure to
study stream and wetlands impacts by Coal
Companies was “particularly concerning to Mr.
Sammarco…” This is not a correct statement. In fact,
Sammarco admitted that the presence of
intermittent streams and wetlands could be
mitigated and need not create a problem as to the
issuance of a mining permit. (Sammarco Testimony
at 2.123). Likewise, PennDOT admitted that there
was a very small (.3 acres) wetland on Parcel 55
(Vitez Testimony at 2.60) and which wetland was
substantially less than the wetlands PennDOT had
to mitigate as part of the Route 219 Project which was
permitted by PaDEP. (Vitez Testimony at 2.86-2.87).
4. The Reference to the Black Mountain Mine
- On page 39, the Court stated that Sammarco was
particularly concerned about “two previous mining
operations by PBS Coals in the same area (Job 21 and
the Black Mountain Mine site)” resulting in serious
pollution to water supplies. With regard to the Black
Mountain Mine, the Court’s conclusion that the mine
resulted in “serious pollution” is not supported by any
evidence in the record. On page 11 of the Opinion,
the Court emphasized that problems with the Black
Mountain Mine were divulged by Kudlawiec citing
the engineer’s report (PBS Exhibit 15, at page 4).
Rather, on page 4 of the engineer’s report, Kudlawiec

18a
stated that the Black Mountain Mine which was
within 600 feet of Parcel 55 was “unsuccessful from
an economic standpoint because of roof and water
conditions;” however, at no point did he refer to any
environmental problems which caused “serious
pollution” to water supplies.
In Sammarco’s
testimony, at no point did he refer to any
environmental problems with the Black Mountain
Mine. In fact, Sammarco acknowledged that the
Black Mountain Mine was closed in a manner
satisfactory to PaDEP, and did not have any mine
acid discharge, which confirmed the prior testimony
of Pierce and Kudlawiec. (Pierce Testimony at 1.108;
Kudlawiec Testimony at 1.138). Further, Sammarco
acknowledged that the closing of the Black Mountain
Mine without any mine acid discharge would be a
positive consideration as to whether or not PaDEP
would issue a permit for Parcel 55. (Sammarco
Testimony at 2.125).
5. Job 21 - Job 21 admittedly resulted in
serious pollution to water supplies. (Sammarco
Testimony at 2.112). In making this statement, the
Court overlooked the testimony that the Job 21 Mine
permit was issued in 1975, and that the use of special
handling and alkaline additive in the intervening 35
years from that date until 2010 made it highly
unlikely that the condition would be repeated using
modern mining methods. (Pierce Testimony at 1.801.81).
6. The 2005 Note – It is submitted that the
2005 note referred to on page 39 of the Court’s
Opinion should have been disregarded. Initially, the
Court’s statement that the note dealt with “coal
reserves at the location at issue” is not correct in that
the note pertained to an attempt by PBS to
reinstitute mining in Job 21, not Parcel 55.

19a
(Sammarco Testimony at 2.120). Sammarco also
testified that the mining operation on Job 21 was not
in close proximity to Parcel 55, and in fact, it wasn’t
even on the “same map.” (Sammarco Testimony at
2.111). Further, although this note was introduced
as part of the Sammarco testimony, Sammarco did
not have his current position in 2005 when the note
was made and the only justification for the
admissibility of the note would have been under the
“Business Records as Evidence Act,”
42 Pa. C.S.
§6108. Finally, it is important that the note was
prepared by a person who did not testify at the time
of hearing, as a result of which neither the contents
of the note nor the individual who authored the note
was subject to cross examination. While Sammarco
testified generally as to what the note contained, he
never opined on the note, and Sammarco’s testimony
called the contents of the note into question because
Sammarco testified that “none of the information
that had been presented to him by PennDOT, PBS or
PPC in this case would prevent a permit for the
surface mining of the applicable seams under Parcel
55.” (January 19, 2018 Memorandum and Order of
Trial Court [“Memorandum”], Finding of Fact 69
[RR-211c]).
7. The Existence of the Endangered Species –
On page 39 of its Opinion, the Court stated that the
existence of an endangered species (the “Indiana
Bat”) would be another impediment to the issuance
of a mining permit. Again, this is not borne out by
the testimony. In actuality, the Indiana Bat wasn’t
an issue as described by Coal Companies’ expert
Kudlawiec. (Kudlawiec Testimony at 3.48–3.51). Of
even more importance than Kudlawiec’s opinion is
the fact that PaDEP issued a permit to PennDOT to
construct Route 219 which incorporated a much

20a
larger area involving the bats’ habitat. (Vitez
Testimony at 2.62).
8. Use of Excess Alkaline – On page 39, the
Court emphasized in its factual conclusions on the
Kudlawiec testimony and the engineering report that
PBS would use 7,000 tons of the alkaline solution in
order to neutralize the potential acid in the mining
process and cited the Sammarco testimony that this
would add an additional level of concern in reviewing
the permit application. Absent from the Court’s
discussion is the uncontested fact that the only
reason that Pierce and Kudlawiec plugged that
number into the mining plan contained within the
engineering report was that 7,000 tons/acre was
exactly the amount that PaDEP insisted upon as a
condition to the issuance of the mining permit for the
A-Seam Mine on a neighboring property, which was
applied for by PBS the same year as the alleged
condemnation in 2010, and which was issued by
PaDEP in 2013.
(Pierce Testimony at 1.82,
Kudlawiec Testimony at 1.153). In other words, the
number stated by Kudlawiec was not of his doing; but
rather, was the amount that he felt that PaDEP
would insist upon in the event that a permit
application was submitted. Although Sammarco did
in fact say that this would be of concern, it has to be
acknowledged that PaDEP had already developed a
track record for approving this amount. Finally, the
Court in its Opinion overlooks the testimony of Pierce
that the amount of alkaline material stated by
Kudlawiec was a “worst case scenario;” again based
on the amount of alkaline material that PaDEP had
insisted upon as a condition of approving the permit
for the A-Seam Deep Mine. In actuality, Pierce had
performed calculations in accomplishing the
overburden analysis which were included in the

21a
engineering report (Coal Companies Exhibit 15,
Attachment 10 wrongfully referred to in Transcript
as Exhibit 10A) which revealed that 2,200 tons/acres
would be sufficient to satisfy PaDEP guidelines
(Pierce Testimony at 1.81-1.82).
The amount
calculated by Pierce was acknowledged by Sammarco
to be appropriate for mining the seams of coal in
question. (Sammarco Testimony at 2.129).
In addition to the factual conclusions set forth
on page 39 of its Opinion and discussed heretofore,
the Court also misapprehended and overlooked facts
which were material to the outcome of the case in
other parts of its Opinion, at least in the following:
1. On page 2 of the Opinion, the Court
misapprehended the facts in stating that Parcel 55
was only accessible via “options to construct private
rights of way.” Rather, the existing rights of way
granted to PBS by the surface owners of Parcel 54
and others gave PBS the right to traverse inter alia
Parcel 54 and Parcel 50 and were not merely the
grant of an option to construct the right of way. In
addition to PBS holding a right of way over Parcel 50,
PPC as the owner of both the coal and the surface of
Parcel 50 had direct access to Parcel 55 from Garrett
Shortcut Road, and which access was sufficient to
satisfy state requirements. Therefore, as determined
by the trial court, the access enjoyed by the Coal
Companies was sufficient to permit the surface
mining of Parcel 55. (See Rule 1925 Opinion).
2. To the extent that the Court relied upon the
PennDOT argument cited in the Opinion at page 6 to
the effect that the 14 foot wide right of way (actually
16 feet wide) across Parcel 50 referred to in the grant
of the easements cited in paragraph 1 above was not
wide enough to accommodate mining operations, it is
averred that since PPC owned fee simple title to the

22a
surface of Parcel 50, and which parcel had more than
adequate frontage on both Garrett Shortcut Road on
the east and Parcel 55 on the west, that the access to
and from the mining operations for Parcel 55 was
more than sufficient to meet PennDOT regulations,
as a result of which, any perceived deficiency in the
rights of way as granted is irrelevant to the
proceedings. Finally, as a result of the above-listed
leases and the finding that there was adequate access
between Parcel 55 and Garrett Shortcut Road, prior
to the alleged condemnation, PBS had satisfied all
legal requirements to mine the coal underlying
Parcel 55 other than obtaining the PaDEP permit.
3. Throughout the Opinion, the Court in its
verbiage appears to place great emphasis on the fact
that no PaDEP permit had been applied for at the
time of alleged condemnation in 2010. This is
technically a correct statement; however, the
testimony was that the lease between PPC and PBS
permitting mining of PPC’s coal estate was dated in
February of 2007, and the lease between PBS and the
owner of the surface of Parcel 55 which granted PBS
the right to surface mine the coal underlying Parcel
55 was dated May of 2006. Any attempt by PBS to
file an application for a PaDEP permit prior to those
dates would have been rejected by PaDEP because of
the deficiency testified to by Sammarco that the lack
of surface rights would be considered an
administrative deficiency in the event that an
application had been filed. (Sammarco Testimony at
2.105).
It would appear there was less than an 11
month window between the date of the issuance of the
coal lease by PPC, in February of 2007 and January of
2008 when PennDOT held one or more meetings with
PBS to make PBS aware of the highway plans which

23a
would necessarily disrupt the PBS mining plans,
which included the mining of Parcel 55. (Vitez
Testimony,
2.32-2.36). In other words, the time
between when PBS had satisfied the PaDEP
requirement to have its leases and surface rights
agreement in place and the time that PBS became
aware that its mining plan would no longer be possible
by reason of the construction of the highway was less
than 11 months, certainly not sufficient time to
prepare a PaDEP surface mining permit application
which required 27 separate Modules, many of which
required field work. (Sammarco Testimony at 2.972.106).
4. Absent from the Court’s Opinion is any
reference to the fact that PennDOT did not present
any expert testimony to the effect that a mining
permit from PaDEP could not be obtained
(Memorandum, Finding of Fact 82 [RR-213c]); this,
despite the fact that Coal Companies produced two
separate experts who had extensive experience in the
issuance of permits, and both of whom testified that
in their professional opinion “with a reasonable degree
of certainty,” that if applications had been submitted
to PaDEP, that the permits would have been issued.
In its Opinion, the Court referred to Sammarco’s
testimony that he “could not state to a reasonable
degree of professional certainty that his office would
grant a permit…” (Opinion, pg. 10). Omitted from
the Court’s analysis, however, is the Sammarco
testimony to the effect that until a completed
application was submitted, that he would not be able
to opine one way or another as to whether a permit
would be issued. (Sammarco Testimony at 2.122). It
is interesting to note that throughout the hearing, the
trial judge refused to hear any evidence concerning
the economic mineability of the coal. During an

24a
exchange, in answer to PBS counsel’s statement that
because of the quality of the coal, the Coal Companies
would be able to justify spending additional sums to
satisfy any questions that PaDEP had concerning
whether or not a surface mining permit should be
issued, the trial judge responded that PennDOT’s
position is that PennDOT will be presenting evidence
that the permit “would not be reasonably foreseeable
at any cost,” to which PennDOT’s counsel replied in
the affirmative. (N.T. 2/16/2017 at 2.05). Despite
PennDOT counsel’s statement, no such evidence was
produced. (January, 2017 Memorandum, Finding of
Fact 82).
5. On page 16 of its Opinion, the Court cited a
line of cases concerning the standard of review of the
Appellate Court in an alleged de facto situation, and
in doing so stated the following:
Appellate review in a case where
the trial court has sustained
preliminary objections to a
petition for an appointment of
viewers is directed to consider
whether the common pleas
court’s findings are supported by
substantial evidence of record,
and whether the court abused its
discretion or committed an error
of law. See Sienkiewicz I, 584
Pa. at 279, 883 A.2d at 500
(citing Denes, 547 Pa. at 156, 689
A.2d at 222 (1997); In re
Condemnation by Municipality
of Penn Hills, 870 A.2d 400, 404
(Pa. Cmwlth. 2005).

25a
It is submitted that at the time of hearing, not
only did the trial court not have substantial evidence
of record to make the determination which it did, but
rather, there was substantial evidence to the effect
that if a PaDEP application had been submitted prior
to the alleged date of condemnation, there was a
reasonable likelihood that PaDEP would have issued
the permit.
It is requested that this Court should accept
this Application for Reargument based on Pa. R.A.P.
2543(2)
since
this
Court
overlooked
and
misapprehended various facts material to the outcome
of the case as otherwise recited herein, reconsider the
Opinion previously issued on January 20, 2021 and reissue an Opinion holding that the Coal Companies
have met their respective burdens of proof in
determining that a de facto taking has occurred as a
result of PennDOT’s actions.
Respectfully submitted,
/s/ Robert P. Lightcap________________
Robert P. Lightcap, Esquire
I.D. No. 05787
Attorney for Penn Pocahontas Coal, Co.
Dated: January 29, 2021

26a
APPENDIX C – OPINION AND DISSENT,
SUPREME COURT OF PENNSYLVANIA,
WESTERN DISTRICT,
FILED JANUARY 20, 2021
[J-23-2020]
IN THE SUPREME COURT OF
PENNSYLVANIA WESTERN DISTRICT
SAYLOR, C.J., BAER, TODD,
DONOHUE, DOUGHERTY, WECHT,
MUNDY, JJ.
No. 41 WAP 2019
Appeal from the Order of the Commonwealth
Court entered March 28, 2019 at No. 140 CD
2018, reversing the Order of the Court of
Common Pleas of Somerset County entered
January 23, 2018 at No. 98 Civil 2015 and
remanding
SUBMITTED: April 16, 2020
PBS Coals, Inc. and Penn Pocahontas Coal Co.,
Appellees,
v.
Commonwealth of Pennsylvania, Department of
Transportation
Appellant
OPINION
JUSTICE DONOHUE
DECIDED: JANUARY 20, 2021

27a

We granted the Commonwealth of
Pennsylvania, Department of Transportation
("PennDOT")'s petition seeking review of the
Commonwealth Court's holding that a de facto
taking of an unmined coal estate, owned by Penn
Pocahontas and leased to PBS Coals, Inc.
(collectively "the Coal Companies"), occurred
under the Eminent Domain Code, 26 Pa.C.S. §§
101-1106
("Code"),
when
PennDOT's
construction of Highway 219 on an adjoining
parcel destroyed options for constructing rightsof-ways to the coal estate's surface. In reaching
that conclusion, the Commonwealth Court held
that the feasibility of mining the coal, as measured
by the probability of obtaining a legally required
permit from the Department of Environmental
Protection ("DEP"), was relevant only to
damages. We reverse the Commonwealth Court's
decision, as we agree with PennDOT that the
legality of extracting the coal goes directly to the
trial court's duty to determine whether a taking
occurred.
We
further
find
that
the
Commonwealth Court erred by failing to remand
the case for consideration
of whether
consequential damages are available to the Coal
Companies. We therefore reverse and remand to
the Commonwealth Court with instructions to
remand to the trial court with respect to the Coal
Companies' consequential damages claim.
I.

Factual and Procedural History

In the 1970s, condemnee Penn Pocahontas
Coal Company acquired approximately 25,000

28a
acres of land situated in Somerset County
spanning roughly 250 properties. Penn
Pocahontas does not mine the coal but instead
leases those rights to companies such as cocondemnee PBS Coals, Inc. and receives royalties
from the sales. The precise parcel involved in this
case is an unmined seventy-three-acre tract of
land referred to as Parcel 55. Its mineral rights
were severed from the surface rights in June of
1971. N.T., 2/14/2017, at 1.31. Today, Penn
Pocahontas owns the coal rights while the
surface rights are retained by private citizens.
Two seams of coal sit beneath Parcel 55, the
rights to which were leased to PBS Coals in
2006.
Prior to construction of Highway 219,
Parcel 55 lacked frontage and was only
accessible via options to construct private rights
of way. The surface owners of Parcel 55 retained
the right to construct a fifty-foot-wide private
route across Parcel 54, which bounded Parcel 55
on the east, continuing through a sixteen-foot-wide
right of way across Parcel 50 onto Garrett
Shortcut Road and the highway system. The
specifics were to be determined by the surface
owners.
The Coal Companies averred that this
potential route was destroyed when PennDOT
acquired a north-south strip of land on Parcel
54 by a deed in lieu of condemnation dated
June 14, 2010. The construction cut off the
possibility of west-to- east access from Parcel
55 and thereby precluded development of the
unimproved
private
trails.
The
Coal
Companies thereafter filed a petition under
Section 502(c) of the Code alleging a de facto

29a
taking, which "occurs when the entity clothed
with
the
power
of eminent
domain
substantially deprives an owner of the use and
enjoyment of his property." Conroy-Prugh Glass
Co. v. PennDOT, 321 A.2d 598, 599 (Pa. 1974)
(citation omitted). Accord McElwee v. SEPTA,
948 A.2d 762, 764 (Pa. 2008) (same).
There is no dispute that PennDOT is
clothed with the power of eminent domain.
The point of contention here is whether the
highway
construction
on
Parcel
55
substantially deprived the Coal Companies of
the use and enjoyment of the coal estate. "An
owner of a property interest who asserts that
the owner's property interest has been
condemned without the filing of a declaration
of taking may file a petition for the
appointment of viewers." 26 Pa.C.S. §
502(c)(1). The viewers "shall view the
premises, hold hearings and file a report." 26
Pa.C.S. § 504(a)(1). The condemner may file
preliminary objections to the appointment and
if issues of fact are raised the court must
receive evidence. Once an issue of fact is
raised, the viewers cannot take evidence on
this issue. 26 Pa.C.S. § 504(d). The trial court
"shall determine whether a condemnation has
occurred, and ... the condemnation date and
the extent and nature of any property interest
condemned." 26 Pa.C.S. § 502(c)(2). The court
"shall enter an order specifying any property
interest which has been condemned and the date
of the condemnation." 26 Pa.C.S. § 502(c)(3).
At the evidentiary hearing, the Coal
Companies identified three issues: whether
there was a taking; if so, the extent of the taking;

30a
and the date of the taking. The Coal Companies
alleged that under the prior version of the Code,
effective through August 31, 2006, the latter two
issues "were thought to be ... within the province
of the board of viewers[.]" N.T., 2/14/2017, at
1.11. In contrast, the 2006 amendments "clearly
established that it's this [c]ourt's duty to make
those determinations[.]" Id. at 1.12.1 The Coal
Companies argued that PennDOT's preliminary
objections were relevant only to the value of the
property and hence an issue of damages to be
decided by the board of viewers.
The Coal Companies' petition pied two
counts. At count one, the Coal Companies argued
that the coal "underlying [Parcel 55] is no longer
accessible," due to highway construction on
Parcel 54. In this respect the petition treated the
Coal Companies' surface estate rights and
mineral estate rights identically, i.e. the right to
transport the coal off Parcel 55 presented the
same legal issues as the further inability to
The current Code was enacted in 2006, largely in response
to Keio v. City of New London, 545 U.S. 469 (2005) (holding
that economic development by private enterprises can justify
taking of property as a "public use" under the Fifth
Amendment). See Alpha Fin. Mortg., Inc. v. Redevelopment
Auth. of Fayette Cty., 152 A.3d 375, 380 (Pa. Commw. 2016)
(explaining that the repeal of the former Eminent Domain Code
and its replacement "sought to counteract Keio and expand
protections for condemnees by limiting the ability of
governments to take private property for private use,
reinforcing that a taking must be for a valid public use."). In
McMaster v. Twp. of Bensalem, 161 A.3d 1031, 1036 (Pa.
Commw. 2017), the Commonwealth Court stated that "there is
no difference between the former Eminent Domain Code and the
current Eminent Domain Code on the issues in this appeal of de
facto taking and consequential damages."
1

31a
access the parcel for purposes of extracting and
transporting the coal. "As a result of the
PennDOT Deed in Lieu of Condemnation, the coal
under [Parcel 55] is now isolated and not capable
of being mined." Petition, 2/19/2015, at 4.
At count two, the Coal Companies sought
consequential damages pursuant to 26 Pa.C.S. §
714.
"All
condemners,
including
the
Commonwealth, shall be liable for damages to
property abutting the area of an improvement
resulting from change of grade of a road or
highway, permanent interference with access or
injury to surface support, whether or not any
property is taken." That count incorporated the
foregoing complaints and argued that the coal
"has been permanently isolated by PennDOT ...
[by] taking the only access PBS and Penn
Pocahontas had to and from [Parcel 55] from a
public road." Petition, 2/19/2015, at 7.
PennDOT filed preliminary objections
asserting that no de facto taking occurred
because the Coal Companies "have not been
deprived of the beneficial use and enjoyment of
their
property,"
Preliminary
Objections,
4/16/2015, at 1. PennDOT noted that the Coal
Companies "had not applied for any mining
permits for Parcel 55," and any damages "are
mere speculation" not compensable under the
Code. Id. at 2. PennDOT requested dismissal of
the petition or, in the alternative, an evidentiary
hearing.
The Coal Companies replied and, in
relevant part, argued that the loss of access is
itself a taking, which directly caused the loss of
the coal. "Loss of access caused by a governmental
entity in and of itself is compensable as an inverse

32a
or de facto taking. Since the tract of coal
containing 73 acres is no longer accessible by
reason of the action of [PennDOT], the same
should be deemed [i]solated [c]oal. ...." Answer,
5/4/2015, at 2. The Coal Companies requested an
evidentiary hearing.
The trial court held a three-day hearing,
with testimony taken on the history of the various
deeds and conveyances to determine whether the
Coal Companies had rights of way to Garrett
Shortcut Road or whether those rights were
exclusively held by surface owners. The parties
also presented evidence regarding the likelihood of
the Coal Companies obtaining a mining permit
from DEP. With respect to this latter point,
PennDOT stated that the "ability to obtain a
permit had to have been reasonably certain; that it
cannot be speculation and conjecture." N.T.,
2/14/2017, at 1.15. Following the hearing both
parties submitted proposed findings of fact and
law. PennDOT urged the court to find that no
taking occurred because access through Parcel 54
was illusory for one of three reasons: (a) the
fourteen-foot right of way on Parcel 50 was not wide
enough to accommodate mining operations; (b) the
connecting right of way on Parcel 55 to Parcel 50 was
reserved only to the surface owners; and/or (c) a
necessary highway occupancy permit would not be
issued on Parcel 50. Alternatively, PennDOT
argued that another route existed through other
parcels of land on which the Coal Companies had
mining rights, i.e. a route to Mud Pike Road. 2

PennDOT also alleged that the Coal Companies waived their
right to contest the loss of the right of way through Parcel 54
2

33a
PennDOT further argued that no taking occurred
because the Coal Companies could not establish a
reasonable likelihood that a DEP permit would be
issued for various environmental reasons.
PennDOT claimed that any mining operation was
speculative in nature and the Coal Companies
therefore failed to establish that a de facto taking
occurred.
As to access, PennDOT attempted to
introduce evidence that a temporary bridge could
be constructed. In its opening argument before the
evidentiary hearing, PennDOT's counsel stated,
"We have a cost to cure. PennDOT is willing to
finance a bridge over the new road, a temporary
bridge to allow PBS to extract the coal from Parcel
55." Id. at 1.13. Following conclusion of the
opening remarks, the trial court asked if the
possibility of a bridge had been discussed before the
hearing. Id. at 1.17. Counsel for PBS replied, "the
first time we heard of it was last week[.]" Id. The
Coal Companies later argued that post- taking
remedies are legally irrelevant. N.T., 2/15/2017, at
2.11. In its proposed findings of fact and law,
PennDOT cited the testimony of its witness John
A. Vitez, the chief highway engineer and project
manager for Highway 219, who testified that a
temporary bridge capable of handling mining
operations could be built at a cost of
approximately $2.3 million. Id. at 2.70.
The trial court sustained PennDOT's
preliminary objections and issued a memorandum
setting forth its findings of fact and conclusions of
law. The court disagreed with PennDOT's assertion
because they failed to file preliminary objections at the Parcel
54 proceedings. That argument is no longer at issue.

34a
that Garrett Shortcut Road was inaccessible and
found that the Coal Companies had rights of way
that were severed, causing Parcel 55 to become
landlocked. Conversely, the court agreed with
PennDOT that alternative access to highways
existed via the Mud Pike Road route because the
relevant leases for the other properties
contemplated a proposed haul road and an
"affected area" encompassing multiple surface
mine pits. As a result, the trial court concluded
that no taking had occurred.
The trial court further addressed the issue
of whether the Coal Companies had demonstrated
that they could obtain the necessary permits to
mine the coal in the coal estate. The Coal
Companies called two expert witnesses, Louis T.
Pierce, a registered professional geologist, and
Robert Kudlawiec, a licensed engineer, both of
whom opined with a reasonable degree of certainty
that a surface mining permit could be obtained if an
application was submitted. Mr. Pierce testified
that any on-site streams and the small area of
present wetlands could be mitigated. N.T.,
2/14/2017, at 1.84. Mr. Kudlawiec agreed,
indicating that replacement wetlands could be
established elsewhere on the property. Id. at
1.137. As such, both experts testified that the
present streams and wetlands would not pose an
insurmountable hurdle to obtaining a DEP
permit. In this regard, the experts offered testimony
regarding the coal seams. The first seam is known
as the Clarion Rider seam and the second seam is
referred to as Brookville A seam. The average depth
from the surface of the Brookville A seam was eightyseven feet, while the Clarion Rider was

35a
approximately forty to fifty-five feet from the
surface. Id. at 1.75-1.76. These numbers were
relevant to the overburden analysis, which is the
material that must be removed to mine the coal. Id.
at 1.79. Mining has the potential to produce acid
discharge, and anyone submitting a mining
permit application must demonstrate "that there
is no presumptive evidence of potential pollution
to the water of the Commonwealth." 25 Pa. Code
§86.37(a)(3).3
To counter acid discharge, Mr.
Pierce testified that miners "use special handling
plans and alkaline addition," N.T., 2/14/2017, at
1.80, opining that the overburden on these sites
could be neutralized with 2,220 tons per acre of an
alkaline solution. Id. at 1.81. Mr. Kudlawiec
testified that while Mr. Pierce had provided an
"initial quantity" of 2,200 tons of alkaline per acre,
they would in fact use 7,000 tons per acre to
neutralize the acid on these sites. Id. at 1.153.
These experts acknowledged that an
endangered species of bat was on Parcel 55, thus
requiring compliance with the Federal Endangered
Species Act. Both Mr. Pierce and Mr. Kudlawiec,
however, expressed confidence that its habitation
could be mitigated. N.T., 2/16/2017, at 3.48.
On cross-examination, Mr. Pierce was asked
if "modules" six, seven, and eight had been
prepared. "Modules" are large studies, including
Both experts noted that PennDOT had obtained permits to
mitigate the wetlands and streams on nearby parcels,
including Parcel 54, which were required to construct
Highway 219. Mr. Kudlawiec admitted, however, that the
highway overburden extraction only went down to fifty or fiftyfive feet, considerably less than the eighty-seven feet that the
Brookville A mining operation would require. N.T., 2/16/2017,
at 3.53.
3

36a
those assessing environmental impacts, that
must be submitted with a DEP surface mining
permit application.4
Module six involves
investigating water sources and conducting
sampling. Id. at 1.89. Number seven is the
geology module and "requires the geologist to
drill the site and obtain ... overburden samples
and analysis of that overburn to determine the
chemistry of the rocks." Id. at 1.61. Module eight
is the "write-up portion of the hydrogeology and
the hydrology, difference between the surface
water and ground water." Id. at 1.60-1.61. Mr.
Pierce confirmed that none of these studies had
been performed for the mining of coal on the
Clarion Rider and Brookville A seams on Parcel
55. Id. at 1.91.5
4

Mr. Pierce stated that he believed the total number of
modules required was eighteen. N.T., 2/14/2017, at 1.94.
Mr. Kudlawiec testified there are "twenty-two or twentythree modules as part of the application, but some are not
utilized in every application." Id. at1.150.
5

There is no dispute that the Coal Companies never applied
for a mining permit. Timothy Williams, the president of
Penn Pocahontas, testified on cross-examination:
Q.

Can you tell us why you never mined
that coal in the 1970s, '80s, '90s, into
the early 2000s?

A.

There's a lot of coal reserves in the
United States. They're not all
mineable at the same time. There's a
hierarchy you use when you mine coal
and when you don't. A function of
market, function of engineering,

37a
PennDOT called Daniel Sammarco as an
expert witness. Mr. Sammarco is employed by
the DEP's Cambria District Mining Office as its
District Mining Manager, a position he has held
for five years. It is his responsibility to ensure
that the permitting process complies with the
Surface Mine Reclamation Act. N.T., 2/15/2017,
at 2.94. He testified in detail about the extensive
pre-application and application processes to be
followed by an operator seeking a surface mining
permit. The permit application itself consists of
twenty-seven modules, some of which are
required in every instance and others more
selectively. Id. at 2.96.
Mr. Sammarco testified that he could not state
to a reasonable degree of professional certainty
that his office would grant a permit to the Coal
Companies to surface mine the Clarion Rider or
Brookville A seams on Parcel 55. Id. at 2.119. He
first testified that he is not aware of any evidence
that the Coal Companies have conducted any
function of whether you are mining
somewhere else.
***
Q.

A.

Have you or any of the operators that
you have -- including PBS -- that you
may have leased parcel 55 to, have you
ever sought a mining permit?
Penn Pocahontas has never filed
mining permitfor that parcel.

N.T., 2/14/2017, at 1.23-1.24.

38a
stream and wetland impacts studies or
performed an over-burden analysis. Indeed, Mr.
Kudlawiec was not aware of the existence of an
intermittent stream on the property until he
appeared in court. N.T., 2/16/2017, at 3.41 - 3.42.
Addressing the on-site streams and wetlands, those
would require separate permits from DEP as well
as a federal permit under the Federal Clean
Water Act (in addition to necessary permits
from federal agencies that protect endangered
animal species). Once all these hurdles are cleared,
the Coal Companies would still need to
demonstrate to DEP that the acid mine drainage
will be sufficiently neutralized so that waters will
not be polluted. Mr. Sammarco testified that 7,000
tons of alkaline per acre "would provide a level of
concern in reviewing the application," whereas the
2,200 tons per acre number was a more standard
number for permits. N.T., 2/15/2017, at2.129.
Mr. Sammarco also identified two prior
experiences with PBS Coals that would constitute
serious impediments to the issuance of a surface
mining permit. The first was "Job 21." A permit was
issued in the mid-1970s for the Brookville A seam
of coal at a location near Parcel 55. Post-mine
discharges developed and negatively affected the
water supply of the Borough of Garrett. Id. at
2.112. At the hearing before the trial court, Mr.
Sammarco testified that PBS Coals failed to bring
forth documents or substantive testimony on their
continuing activity at the Job 21 site to
demonstrate that the problems there are unlikely to
be exacerbated by more surface mining on Parcel
No. 55. Mr. Sammarco testified that the Project 21
debacle would be a relevant consideration if an

39a
application to surface mine Parcel 55 at the location
in question were filed. Id. at 2.115.
Second, PBS Coals failed to address
adequately the potential impact of surface mining
Parcel 55 on the Black Mountain Mine site. Mr.
Kudlawiec disclosed that the Black Mountain Mine
was on a nearby property and that, among other
problems, adverse geologic and water conditions were
encountered. PBS Coals' Exhibit 15, at 4. According
to Mr. Sammarco, this omission raised further
questions regarding a finding of permitability.
Finally, Mr. Sammarco testified to the existence
of a note authored by another DEP employee
regarding a 2005 meeting with PBS Coals'
representatives concerning the possibility of mining
one of the two seams underneath Parcel 55. The note
reflected a belief that "the potential for successfully
permitting the targeted reserves is low, because, given
currently known facts, the potential for generating
additional pollution is high." N.T., 2/15/2017, at 2.121.
After review and consideration of the
evidence, the trial court concluded that the "ability to
obtain a surface mining permit from the Cambria
District Mining Office for Parcel 55 is speculative and
uncertain and, accordingly, incapable of supporting
a claim of a taking of a property right....". Order and
Memorandum, 1/29/2018, at 18.6 The trial court

6

The trial court's initial findings of fact stated that "[t]here
was no testimony that the Petitioner's experts have, to this
point, studied stream and wetland impacts or performed an
over-burden analysis, which matters are essential elements
of the permit process." Order and Memorandum, 1/29/2018,
at 14. In its trial court opinion, the court acknowledged that
this was partially incorrect:

40a
analogized the present facts to cases where "the
condemnee's burden was to prove that the property
was ripe for development, that they had taken
meaningful steps toward development, and there
was 'virtually no conjecture as to the reasonable
certainty' of the development." Id. at 17. While
acknowledging that the legal principles applied in
those cases pertained to valuations, the court
referenced its factual findings and reaffirmed its
conclusion that the "ability to obtain a surface
mining permit ... is speculative and uncertain and,
accordingly, incapable of supporting a claim of a
taking of a property right[.]" Id. at 18.
The Coal Companies appealed to the
Commonwealth Court, which reversed and
remanded for further proceedings in a published
opinion. PBS Coals, Inc. v. PennDOT, 206 A.3d
1201, 1223 (Pa. Commw. 2019), appeal granted in
part, 218 A.3d 373 (Pa. 2019). The companies
raised three arguments. The first challenged the
conclusion that alternative access to Parcel 55 was

The court acknowledges its statement as overly
broad, and therefore erroneous. The approval
of the surface componentfor the A Seam Deep
Mine is, however, far less exhaustive in its
review and approval process than the context of a
complete surface mine for the entire parcel. The
former focuses on displacing overburden at one
fixed point to obtain access for a deep mine
portal. The latter requires a review of the
complete displacement of the overburden on
the entire tract and the ability to assure that
acid mine drainage can be avoided during and
after mining operations.
Trial Court Opinion, 4/26/2018, at 3.

41a
available via Mud Pike Road. Second, the Coal
Companies argued that the trial court erroneously
considered as a matter of law whether the coal was
not mineable due to the unlikelihood of obtaining
a DEP permit, as that was strictly an issue of
damages for the de facto taking. Third, the Coal
Companies argued that the record lacked
substantial evidence supporting the trial court's
conclusion that a permit was unlikely to issue.
The Commonwealth Court ruled in favor of the
Coal Companies with respect to the first two
allegations, and, as a result, declined to consider
whether substantial evidence supported the
permit finding. Id. at 1224 n.10 ("Because we
determine that the trial court erred to the extent
it examined whether Parcel 55 was mineable
and/or permittable at the preliminary objections
stage, it is unnecessary for us to address the Coal
Companies' third issue raised on appeal. ").
Regarding the conclusion that PennDOT did
not effectuate a de facto taking because the Coal
Companies maintained alternative access via Mud
Pike Road, the Commonwealth Court disagreed
after examining the language of the relevant
leases. It is well-settled that the right to mine coal
creates an implied right "to use as much of the
surface property as necessary
for mining
operations," id. at 1212, but that right goes only so
far as is necessary to give effect to the grant of
reservation. The coal rights owner may move coal
from adjoining lands through the passages opened
for removal until the coal estate is terminated but
it cannot use the surface estate to transport foreign
minerals. In other words, the implied rights to the
surface do not extend to removing minerals mined

42a
from other lands absent express contractual
language to that effect. The Commonwealth Court
reviewed the leases and found nothing to indicate
an express grant of that surface right. "Here, the
plain language ... does not manifest an intention
to permit the Coal Companies to access Parcel 55
by way of the surface of Parcel 59." Id. at 1215. The
court further rejected arguments that other
provisions, when read together, created such a
right. See id. at 1215-17. Accordingly, the court
concluded that Parcel 55 was landlocked as a
matter of law.
Turning to the permit issue, the
Commonwealth Court agreed that any questions
concerning the likelihood of securing a mining
permit is a matter of damages and therefore
irrelevant to whether a taking occurred. The
Commonwealth Court distinguished a trio of cases
relied on by the trial court, discussed in more
detail infra, that applied the Commonwealth
Court's "speculative and conjectural" line of
analysis to de facto takings. In all three cases, "it
was speculative and conjectural that the
deprivation of use sufferedby the property owners
was the immediate and necessary consequence of
the condemnation power." Id. at 1222. Here, in
contrast, the Commonwealth Court indicated that
"because the construction of Route 219 resulted in
the Coal Companies' complete loss of access to
Parcel 55, it is beyond question that the Coal
Companies were deprived of the use of their
property as a direct and immediate
consequence of PennDOT's actions." Id. at 1223.
The Commonwealth Court believed that
application of the "speculative and conjectural"

43a
principle in this case would result in treating
mineral estate owners worse than surface right
owners:
Under the trial court and PennDOT's
logic, the owners of a coal estate
would never be able to demonstrate a
de facto taking, at the preliminary
objections stage, unless they were
able to prove that they were likely to
obtain a mining permit. However,
such a result would place a higher
burden of proof on owners of coal
estates than owners of surface
properties and would effectively
relegate owners of coal estates to
second class property owner status.
This is because, for de facto taking
cases, coal estate owners would not
be able to prove that they suffered a
substantial deprivation in the use
and enjoyment of their property, at
the preliminary objections stage,
unless they could establish that DEP
would issue a mining permit; unlike
surface property owners who do not
face any similar requirement to
demonstrate a de facto taking at the
preliminary objections stage, even if
their property is relatively valueless
or useless.
Id.
The Commonwealth Court held that any
questions of whether the coal was mineable were
irrelevant at the preliminary objections stage and

44a
"should have been left to the board of viewers to
determine at the damages/valuation stage." Id. at
1223-24. The Commonwealth Court did not
discuss consequential damages.
We granted PennDOT's petition for
allowance of appeal on the following
questions:
1.
Did the Commonwealth
Court err in determining that the
Coal companies had substantially
deprived [sic] of the beneficial use
and enjoyment of their mineral
rights as a direct and immediate
consequence
of
PennDOT's
actions?
2.
Does the Commonwealth
Court's decision conflict with the
plain
language
of
Sections
502(c)(2) of the Eminent Domain
Code, because it precludes the trial
court from determining the extent
and nature of a taking?

3.
Did the Commonwealth
Court err in remanding the
matter to the trial court for
determination of the extent and
the date of the taking pursuant
to Section 502(c)(2) of the Code,
only?

45a
PBS Coals, Inc. v. PennDOT, 218 A.3d 373 (Pa.
2019).7 Our standard of review in de facto
takings cases is as follows:
"A landowner alleging a de facto
taking is under a heavy burden to
establish that such a taking has
occurred." Miller & Son Paving v.
Plumstead Township, 552 Pa. 652,
656, 717 A.2d 483, 485 (1998).
Appellate review in a case where
the trial court has sustained
preliminary objections to a petition
for an appointment of viewers is
directed to considering whether
the common pleas court's findings
are supported by substantial
evidence of record, and whether
the court abused its discretion or
committed an error of law. See
Sienkiewicz I, 584 Pa. at 279, 883
A.2d at 500 (citing Denes, 547 Pa. at
156, 689 A.2d at 222 (1997)); In re
Condemnation by Municipality of
Penn Hills, 870 A.2d 400, 404
(Pa.Cmwlth.2005).
McElwee v. SEPTA, 948 A.2d 762, 771 (Pa. 2008).
II.

7

Eminent Domain Law

We did not grant PennDOT's request to review the
Commonwealth Court's conclusion that Parcel 55 is
landlocked and inaccessible via Mud Pike Road.

46a
The critical issue in this case is whether,
and if so to what extent, PennDOT's activities
on Parcel 54 constituted a taking of Parcel 55's
coal estate. The alleged taking in this case
centers on the concept of a de facto taking or
an inverse condemnation.
De facto takings
"Inverse condemnation stands in contrast
to direct condemnation, in which the
government initiates proceedings to acquire
title under its eminent domain authority.
Pennsylvania, like every other State besides
Ohio, provides a state inverse condemnation
action." Knick v. Twp. of Scott, ____ U.S. ______,
139 S. Ct. 2162, 2168 (2019) (citing Code). "The
Pennsylvania Constitution provides that
private property cannot be taken for public use
without just compensation." In re De Facto
Condemnation & Taking of Lands of WBF Assocs.,
L.P., 903 A.2d 1192, 1199 (Pa. 2006) (citing Pa.
Const. Art. I,§ 10). The Code's procedure for
requesting a board of viewers represents the
General Assembly's implementation of a
mechanism to receive compensation for de facto
takings. See Conroy-Prugh Glass Co., 321 A.2d at
599 ("The Pennsylvania Legislature recognized
the concept of 'de facto' taking when it enacted
s[ection] 502(e) of the Eminent Domain Code
....").
The de facto taking concept allows
parties to recover where governmental action,
while falling short of a physical invasion or
appropriation, interferes with property rights to
the extent that compensation is required
under the United States Constitution. See

47a
Palazzolo v. Rhode Island, 533 U.S. 606, 617
(2001) (noting that Takings Clause was made
applicable to the States through the
Fourteenth Amendment). "Prior to Justice
Holmes's exposition in Pennsylvania Coal Co.
v. Mahon, 260 U.S. 393 (1922), it was generally
thought that the Takings Clause reached only a
'direct appropriation' of property or the
functional equivalent of a 'practical ouster of
[the owner's] possession,"' Lucas v. South
Carolina Coastal Council, 505 U.S. 1003, 1014
(1992) (some citations omitted, bracketing in
original). The Mahon Court recognized that
"the text of the Clause can be read to
encompass regulatory as well as physical
deprivations." Id. at 1028 n.15.
Regulatory measures are perhaps the
most common instance of governmental activity
that results in a de facto taking. But the concept
extends to any governmental action that
interferes with property rights. "We have
recognized, however, that no magic formula
enables a court to judge, in every case, whether a given
government interference with property is a taking."
Arkansas Game & Fish Comm'n v. United States,
568 U.S. 23, 31 (2012). In determining whether a
taking has occurred we have looked to United States
Supreme Court interpretations of the Fifth
Amendment's Takings Clause.8 "An examination of
our case law reveals that this Court has continually
8

"No person ... shall be ... deprived of life, liberty, or property,
without due process of law; nor shall private property be taken
for public use, without just compensation." U.S. Const. amend.
V.

48a
turned to federal precedent for guidance in its
'taking' jurisprudence, and indeed has adopted the
analysis used by the federal courts." United Artists'
Theater Circuit, Inc. v. City of Philadelphia, 635 A.2d
612, 616 (Pa. 1993). Thus, in the absence of an
argument that the Pennsylvania Constitution offers
greater protections than its federal counterpart, see
id., we draw upon the high Court's law to determine
whether a taking has occurred. Accord Machipongo
Land & Coal Co. v. DEP, 799 A.2d 751, 763 n.7 (Pa.
2002) (same).
Determining whether a taking has occurred
almost always turns on the facts, and as a result
takings jurisprudence generally rejects per se
rules. "In view of the nearly infinite variety of ways
in which government actions or regulations can
affect property interests, the Court has recognized
few invariable rules in this area." Id.
True, we have drawn some bright
lines, notably, the rule that a
permanent physical occupation of
property authorized by government is
a taking. Loretto v. Teleprompter
Manhattan CATV Corp., 458 U.S.
419, 426, 102 S.Ct. 3164, 73 L.Ed.2d
868 (1982). So, too, is a regulation
that permanently requires a property
owner to sacrifice all economically
beneficial uses of his or her land.
Lucas v. South Carolina Coastal
Council, 505 U.S. 1003, 1019, 112
S.Ct. 2886, 120 L.Ed.2d 798 (1992).
But aside from the cases attended by
rules of this order, most takings
claims turn on situation-specific

49a
factual inquiries. See Penn Central,
438 U.S., at 124, 98 S.Ct. 2646..
Arkansas Game & Fish, 568 U.S. at 31- 32.9
Those few situations aside, consideration
of the relevant factual circumstances includes
the economic impact of the action. Penn Central,
438 U.S. at 124. The economic value of the
property encompasses both its present and
future use. "Property is not to be deemed
worthless because the owner allows it to go to
waste, or to be regarded as valueless because he
is unable to put it to any use." Mississippi &
Rum River Boom Co. v. Patterson, 98 U.S. 403, 408
(1878). This is reflected in the concept of the
"highest and best use." See Olson v. United
States, 292 U.S. 246, 255 (1934) ("The highest
and most profitable use for which the property
is adaptable and needed or likely to be needed in
the reasonably near future is to be considered ...
.") (citing Rum River Boom). Determining the
highest and best use is often a question of
damages as it relates to the owner's
9

The Coal Companies seem to suggest that this case
triggers a per se rule because PennDOT's activities
required them to sacrifice the economic value of their
coal estate. "Obviously, cutting off all access to a
property is the direct and immediate cause of the loss of
not only the present use but any potential use." Coal
Companies' Brief at 24. Cf. Lucas, 505 U.S. at 1017
("[F]or what is the land but the profits thereof[?]")
(quoting 1 E. Coke, Institutes, ch. 1, § 1 (1st Am. ed.
1812)) .

50a
compensation, and when the condemnee asserts
a use different than the current use, the burden
is on the owner. "There are two requirements,
and only two, for proving highest and best use.
First, the condemnee must show the physical
adaptability of the land to such a use, and
second it must be demonstrated that this use is
needed in the area." Pennsylvania Gas & Water
Co. v. Pennsylvania Tpk. Comm'n, 236 A.2d 112,
116 (Pa. 1967). As a result, the "highest and best
use" inquiry includes consideration of whether
the proffered use is reasonably possible. "In
determining its value the trial court is required
to consider all reasonably possible uses for
which the property is adaptable and might if
reason be applied." Bolus v. Cnty. of Monroe, 650
A.2d 1188, 1191 (Pa. Commw. 1994). But the
"highest and best use" inquiry may be considered at
the takings stage as well. See WBF Assocs., 903 A.2d
at 1210-11 ("The actual issue, the highest and best
use of the property, was the same in both instances,
and the highest and best use of property for purposes
of ascertaining a taking is the same as the highest
and best use for purposes of setting the fair market
value.").
Consequential damages
The Commonwealth Court did not address
the Coal Companies' consequential damages claim
because of its resolution of the de facto taking
claim. The consequential damages statute states:
All condemners, including the
Commonwealth, shall be liable for
damages to property abutting the
area of an improvement resulting
from change of grade of a road or

51a
highway, permanent interference
with access or injury to surface
support, whether or not any
property is taken.
26 Pa.C.S. § 714 (emphases added).
Cases from both this Court and the
Commonwealth Court have stated that the
availability of consequential damages is a separate
and distinct issue from whether a taking has
occurred. In Colombari v. Port Auth. of Allegheny
Cnty., 951 A.2d 409 (Pa. Commw. 2008), the
Commonwealth Court held that the phrase
"whether or not any property is taken" means that
liability for consequential damages exists
regardless of whether a taking has occurred.
"Speculative and conjectural" takings
The assertion that the Coal Companies were
required to establish a reasonable likelihood of
obtaining a mining permit as a condition of
establishing a de facto taking was derived from
three Commonwealth Court cases examining
whether a taking occurred when the governmental
interference precludes a use of the land that is
alleged to be "speculative or conjectural." We thus
examine those cases in more detail to lend context
to the parties' arguments.
In In re Borough of Blakely, 25 A.3d 458 (Pa.
Commw. 2011), landowner John Williams had
purchased property in 1966 abutted by a tract of
land containing a functioning railroad bed
bordering Virginia Avenue. In 1986, he purchased
that abutting property, which became the subject

52a
of the taking claim. Starting in the late 1960s, the
railroad tracks were removed and the land was mined
for coal to a depth of ten feet. Over time the property
flattened into a ravine, leading to substantial
flooding problems that formed a ditch. In 1989, the
borough placed a plastic drainage pipe in the ditch
and covered it with dirt. A few years later, the
borough installed a replacement pipe that extended
over the length of the subject property. The
borough covered the pipe with twelve feet of fill,
which could not support vehicular traffic.
This pipe cut off access to Virginia Avenue. In
the early 2000s, William developed an intention to
build homes and townhomes on Virginia Avenue.
Sometime in 2005 or 2006, Williams asked the
borough council to build up the land so that it could
support traffic. The borough council did not
respond favorably, at which time Williams filed a
petition asserting that the borough had effectuated
a de facto taking in 1989 when the pipe cut off his
access to Virginia Avenue. Williams alleged that
the pipe "resulted in a diminution in the value and
use of the property." Id. at 462. The trial court
dismissed the petition on ripeness grounds.
Williams appealed. On appeal, the borough argued
that the trial court had ruled correctly because
Williams could still develop the property if he
accounted for storm water runoff.
The
Commonwealth
Court
affirmed,
indicating that "the trial court properly rejected
his de facto taking claim as premature and
insufficient" because his "claims of injury and
substantial deprivation of the use of his
property" were speculative and conjectural. Id.
at 467. Williams "never presented any formal

53a
plans to the Borough Planning Commission," did
not file any formal requests before that
commission, and never spoke to anyone about the
zoning permits he would need for developing the
lots. Id. at 466. The court cited Williams' own
testimony from the evidentiary hearing, where he
confirmed that his project "hadn't gotten far
enough along" to reach the Planning
Commission or Zoning Hearing Board stages. Id.
The appellate court noted that "[t]he Borough
never told Owner he cannot build homes on
these lots" and the owner "did not explain why
access is not possible from another road abutting
his property." Id. Williams had not taken any
concrete steps to develop the properties,
including submitting plans to the borough or
investigating
necessary
storm
water
improvements . Id.
Blakely favorably cited Petition of 1301
Filbert Ltd. P'ship, 441 A.2d 1345, 1346 (Pa.
Commw. 1982), in support. Therein, the 1301 Filbert
Limited Partnership purchased the Essex Hotel in
June of 1974. The hotel "had been closed for several
years and was in a state of serious disrepair." Id. at
1348. The partnership intended to renovate the
building and open a hotel and began renovations in
early 1975. The hotel never opened, leading to a de
facto taking claim.
Around the time of purchase, the City of
Philadelphia had been exploring a large- scale
tunnel project. In July of 1975, the federal
government began granting funding for projects
such as land acquisition, and the city's Department
of Public Property authorized, but did not require,
the acquisition of the Essex Hotel.
The

54a
partnership had been told the Essex was not in the
right of way and would not be condemned. The
partnership attempted to obtain a short-term
construction loan for renovations, but the bank
declined the loan, citing the tunnel's construction
and predicted interference with the hotel's
operation as the reason.
The partnership alleged a de facto taking of
the hotel occurred as a result of the construction,
because the Essex abutted the route officially
designated for the tunnel and an estimated four
years of construction was expected to turn the area
in front of the hotel into a giant pit, precluding
access. The partnership claimed that the tunnel
project caused it to lose the needed financing,
leading to mortgage foreclosure and the loss of the
property. The partnership also offered an expert
witness, who opined that the hotel could not have
stayed in business anyway due to the construction
noise and dust.
The trial court dismissed the petition and
the Commonwealth Court affirmed. The court
stated that "an important element in the lower
court's decision was the determination that the
Partnership had not met its proof burden of
showing that the alleged detriment, underlying
the claim of de facto taking, was the direct and
necessary consequence of the Tunnel project and
its concomitants." Id. at 1359. The Filbert panel
found that the partnership failed to establish that
the construction would have made the hotel
financially unviable. While the partnership
presented expert testimony on that point, the trial
court rejected it. "However, the weight and
credibility of the Partnership's testimonial evidence,
concerning the impact of the Tunnel work on the

55a
prospective or hoped-for patrons of the hotel, was
for the determination of the lower court sitting as
the finder of fact." Id. at 1360. The court agreed
that the construction project would affect the
quality of access, but it would not preclude access.
"The case at bar is one in which the claim of de
facto taking is linked to an alleged injury that is
not only prospective but is also speculative and
conjectural." Id. at 1360.
The final case is Parker Ave., L.P. v. City of
Philadelphia, 122 A.3d 483, 491 (Pa. Commw.
2015) (en bane), which rejected an allegation that
discretionary inaction constituted a taking. There,
developer Parker Avenue acquired in 2005 a
parcel of land zoned as residential permitting
construction of homes by right. This parcel was
situated in a park where the local community was
known to have strong opposition to development.
Parker Avenue nonetheless began planning the
construction of forty-eight single family homes
along Cinnaminson Street, which bisected the
subject property. Cinnaminson Street extended
beyond the parcel onto Philadelphia-owned land
and hadalready been improved with sewer lines, fire
hydrants, manhole covers, and water basins but was
unpaved. Cinnaminson was merely a paper street
and was "essentially an unimproved trail." Id. at
485. Parker Avenue began acquiring the
necessary clearances from the water department
and various environmental agencies. The tract to
the rest of Philadelphia required paving, and
Parker Avenue submitted to the City Council two
ordinances to have the street paved.
When these proposed ordinances were not
approved, Parker Avenue filed a petition for an
appointment of viewers, alleging a de facto taking

56a
through deprivation of the property's beneficial use
and enjoyment as a residential development. The
trial court overruled the city's preliminary
objections, concluding that the city's actions
"have rendered [Parker Avenue's] property
virtually useless, and has completely precluded
the highest and best use of the property." Id. at 487
(citing trial court order).
The Commonwealth Court reversed, ruling
that the inherently discretionary act of failing to
pave roads could not qualify as a taking. The
Parker Avenue Court recognized that a failure to
issue a document required for construction could
qualify as a de facto taking if the petitioning party
were otherwise entitled to its issuance. However,
"Parker Avenue is not entitled to the ordinances it
proposed.... The City's decision whether to enact
said ordinances requires weighing competing
interests of multiple stakeholders and the best
interests of Philadelphia-at-large." Id. at 489.
The court next addressed the claim that
Parker Avenue had relied on the residential
zoning regulations in place at the time it
purchased the property, which had permitted the
construction of residential buildings as of right.
The Commonwealth Court rejected this argument
by emphasizing that the parcel was already
landlocked at purchase because no legally-open
street connected the property to the rest of
Philadelphia, and thus the developer knew that it
needed governmental support to develop the
property. The clear import of the court's analysis
was that Parker Avenue's expectations at the time
of purchase undercut the finding of a taking. See
Penn Central,438 U.S. at 124 ("The economic impact
of the regulation on the claimant and, particularly,

57a
the extent to which the regulation has interfered
with distinct investment-backed expectations are,
of course, relevant considerations.").
III. Parties' Arguments
As a background matter, we note that both
parties devote substantial argument to whether
the trial court's finding that the Coal Companies
failed to establish a reasonable probability of
obtaining a DEP permit is supported by the
record. The Commonwealth Court held that the
trial court's factual findings in that regard were
irrelevant to the legal question, and we likewise
accepted review to determine that point of law. As
addressed in the text infra, we find that the permit
question was properly addressed as a component of
the taking analysis.
PennDOT
PennDOT argues that sufficient evidence
exists to sustain the trial court's finding that the
ability to obtain a permit was speculative and
conjectural. To establish a taking, the Coal
Companies were required to show that the ability to
use their estate, i.e. to exploit their mineral rights
through surface mining, was something more than
mere speculation. As explained above, no evidence
was introduced by the Coal Companies that they
had participated in any pre-application process,
that they ever filed a surface mining permit
application for Parcel 55, or that they had
performed any studies to complete any of the
modules for a permit to be issued. PennDOT's
Brief at 16.
PennDOT analogizes these defects to the

58a
line of Commonwealth Court cases involving the
"speculative and conjectural" test discussed supra.
It describes Parker Avenue and Blakely as "on all
fours with the instant case." PennDOT's Brief at
21. PennDOT views the Blakey homeowner's
intentions to build housing as directly comparable
to the Coal Companies' desire to one day open a
mining operation on Parcel 55. The Blakely court
held that "substantial deprivation of the use of the
property was speculative and conjectural, and
therefore, did not amount to a de facto taking ...."
In PennDOT's view, the same logic applies here
because the Coal Companies have not begun the
permit process, rendering mining operations a too
remote possibility to justify a de facto taking
finding. In Parker Avenue the Commonwealth
Court held that the planned developments were
speculative and conjectural because the necessary
permits were not guaranteed to issue. Similarly, the
Coal Companies have no guarantee that the required
permits for mining will ever issue, establishing that
"the Coal Companies' inability to surface mine
Parcel 55 was not the direct and immediate
consequence of PennDOT's acquisition of Parcel
54 for the highway project." Id. at 22. Addressing
the Filbert hotel case, PennDOT emphasizes the
aspect of the Commonwealth Court's granting
deference to the trial court's rejection of the
partnership's expert witness testimony. See
PennDOT's Brief at 25 ("This deference of the
Commonwealth Court to the trial court as the
finder of fact is entirely missing in the decision in
the instant case.").
PennDOT submits that the Commonwealth
Court's primary reason for distinguishing those
three cases, i.e. the fact that the property owners

59a
therein all retained access to the surface estate
and could continue to use the property for some
purpose, is flawed. PennDOT deems it irrelevant
whether the Coal Companies have physical access
to transport coal from Parcel 55. "[l]f the Coal
Companies cannot legally extract the coal,
PennDOT did not substantially deprive the Coal
Companies of the use of their mineral rights and
the Court never has to address the access issue."
Id. at 24. The Commonwealth Court's further
distinction of identifying the highest and best use
of the land as a coal mine is similarly flawed.
Finding "that the highest and best use of the coal
estate is for mining coal ... puts the cart before the
horse," id., because the condemnees are not
mining coal. Therefore, the Coal Companies are
attempting to do the same thing as the three
landowners in Blakely, Parker Avenue, and
Filbert; namely, establish a use of the property
different from its current use. PennDOT argues
that the "highest and best use" analysis is assessed
in the damages phase when access to a surface
interest is completely cut off. Here, where the
property interest is subsurface rights, the Coal
Companies must establish that the coal is legally
mineable. Otherwise, the Coal Companies would
receive a windfall.
Turning to the second issue regarding the
structure of the Code, PennDOT claims that the
Commonwealth Court's categorical holding that
issues surrounding the permit process are
irrelevant to the takings analysis is contrary to the
Code's scheme. The trial court is exclusively
authorized to determine the extent and nature of
a taking. Applying the Commonwealth Court's
holding here, the trial court cannot determine

60a
whether a taking occurred because the legal
inquiry, which calls for consideration of whether
the Coal Companies were deprived of the use of their
coal estate, necessarily required an analysis of
whether the coal could be "enjoyed," i.e., legally
mined. Thus, precluding trial courts from
considering evidence about permitability is
contrary to the statutory language. Furthermore,
PennDOT observes that the Commonwealth Court's
holding means that the trial court should have
immediately appointed a board of viewers. In that
scenario, the board would have heard the
extensive testimony presented to the judge herein,
which would then be reproduced upon any appeal
from their report in de novo proceedings.
With respect to the third issue, PennDOT
does not contest that the Coal Companies are
entitled to litigate their claim for consequential
damages on remand.
The Coal Companies
The Coal Companies urge affirming the
holding that any questions regarding the
likelihood of obtaining a DEP permit are relevant
only to damages and do not factor into the taking
analysis. The Coal Companies emphasize that the
taking of access is itself a de facto taking and a
fully compensable right. Coal Companies' Brief at
21 (citing McElwee, 948 A.2d at 775-76). Because
the right of access to a mineral estate is protected
to the same degree as access to the surface rights,
Belden & Blake Corp. v. DCNR, 969 A.2d 528,532
(Pa. 2009), the right-of-way taking that caused
Parcel 55 to become landlocked constituted a
taking of the coal estate. The appellees posit that

61a
PennDOT's position creates an absurdity because by
their logic "until a permit is secured there is no
estate and no value in a coal estate." Id. at 25.
The Coal Companies rely, with little elaboration,
on cases that deal with loss of access to surface
uses. "Simply put, and as caselaw cited above
(McElwee supra) indicates, when access to
property
is
permanently
eliminated
by
government action, a taking has occurred and the
value of what has been taken is properly
determined by the Board of Viewers." Id. at 27.
Turning to the three Commonwealth Court
cases discussed supra, the Coal Companies agree
with the Commonwealth Court's distinctions. The
companies describe Filbert as a case in which "the
damages were speculative and conjectural because
there was no proof of damages in any form; the
owners retained access and had no evidence of
economic damages." Id . at 29. Blakely likewise
involved a case where the owner "was never deprived
of access, never prohibited from building, and
failed to prove any other basis for his claim." Id. at
30 (emphasis omitted). Finally, Parker Avenue is
inapposite because the owner, when he purchased
the land, knew the parcel was landlocked. That is
not the case here because Parcel 55 became
landlocked after the relevant property interest was
obtained. In contrast to those cases, the loss of
access here has precluded any use of the property
whatsoever.
Turning to the second issue, the Coal
Companies argue that resolution of the first issue
resolves this point of error as well. The
Commonwealth Court held that the "highest and
best use" was a coal estate. Therefore, the extent

62a
of the de facto taking was the entire coal estate and
the only issue left is damages. As a result, the
remand order is not inconsistent with the Code. The
board of viewers can award just compensation by
considering, among other factors, whether a
permit is likely to issue now or in the future and
adjust the amount of damages based upon that
determination.
Regarding the last issue, the Coal
Companies concede that no consequential
damages
are
available
following
the
Commonwealth Court's holding. "Consequential
damages only apply when there has been a
negative [e]ffect upon the property but that does
not result in a taking of the property. Id. at 46. The
consequential damages claim "was made moot by
the determination that a de facto taking of the
property has occurred." Id. at 47.
Finally, the Coal Companies maintain that
while the Commonwealth Court correctly
determined that the permit issue was irrelevant to
the takings analysis, the trial court's findings were
not sufficiently supported by evidence of record.
IV. Analysis
For the following reasons, we conclude that
the Commonwealth Court erred by finding a de
facto taking of the coal estate occurred by
operation of law. The Coal Companies are not
presently using their coal estate, and their
inability to establish a likelihood of securing a
permit implicated the legal question of whether a
taking occurred, not damages for a de facto taking.
We are therefore aligned with PennDOT's view
that the trial court correctly considered the issue

63a
of permitability under the Code's provisions
requiring the trial court to determine whether a
taking occurred.
We begin by considering the three
"speculative and conjectural" cases that serve as a
backdrop to our analysis. We agree with the
Commonwealth Court that Filbert and Parker
Avenue, two of the three "speculative and
conjectural" cases, are readily distinguishable and
shed little light on whether a taking has occurred
in this case. The Filbert court placed great
emphasis on the fact that the trial court rejected
the expert's testimony that the hotel, had it been
an ongoing business, would have been hurt by the
ongoing
construction.
Furthermore,
the
construction project, while certainly diminishing
the quality of access, did not completely foreclose
access. Thus, that the property retained some
economic value notwithstanding the fact that
construction would impact its operation was a
critical component of the takings analysis.10 Parker
10

In Lucas v. South Carolina Coastal Council, 505 U.S.
1003 (1992), the high Courtobserved that takings law is
"full of these 'all-or-nothing' situations":
It is true that in at least some cases the
landowner with 95% loss will get nothing,
while the landowner with total loss will
recover in full. But that occasional result is
no more strange than the gross disparity
between the landowner whose premises are
taken for a highway (who recovers in full)
and the landowner whose property is
reduced to 5% of its former value by the
highway (who recovers nothing). Takings
law isfull of these "all-or-nothing" situations.

64a
Avenue is similar. There, the developer's parcel
retained economic value, 122 A.3d at 489 ("Parker
Avenue can still build a single dwelling now, as it
was permitted to do on the date of purchase"), and
the purported taking in that case involved
discretionary inaction stemming from failures to
issue permits. Furthermore, Parker Avenue
involved an assertion that the discretionary
failure to issue ordinances constituted the
relevant act for a de facto taking. The Coal
Companies do not contend that DEP's failure to
issue a permit is a de facto taking (as no permit
application has even been filed), but rather that
PennDOT's construction of Highway 219 was
the relevant act.
The two cases are further distinguishable
because there is no suggestion that the Coal
Companies' investment expectations should
have contemplated the construction of a
highway on those lands at the time of purchase.
In Parker Avenue, the parcel was already
landlocked, and the fact that a portion of the
parcel which had existing access to the city was
severed and sold for a much higher per acre sum
was an important factor. And in Filbert, the
investors' awareness that the tunnel project was
a possibility formed a part of the analysis. The
hotel also retained some economic value
because the construction merely diminished but
did not foreclose access to the hotel.
We agree with PennDOT that Blakely is
on point. The owner in Blakely asserted that he
presented sufficient facts to establish a de facto
Id. at 1019 n.8.

65a
taking based on his claim that the local
government's placement of a PVC pipe blocked
vehicular access to lots on which he wished to
build homes. As previously described, the owner
never took concrete steps to establish that actual
development would occur. Hence, the PVC pipe
blocked nothing.
The same logic employed in Blakely
applies here. Highway 219 does not block the
Coal Companies from enjoying their coal estate,
and the Coal Companies have failed to meet their
heavy burden to establish that a de facto taking
has occurred. The Commonwealth Court
identified the de facto taking test as having
three elements. PBS Coals, 206 A.3d at 1219.
The first is that the condemner has the power
to condemn, which is not at issue here. The
second element is whether the act substantially
deprived the owner of the beneficial use and
enjoyment of the property. The third requires a
finding of causation, namely that the deprivation
is the immediate, necessary and unavoidable
consequence of the governmental action. The
Commonwealth Court's analysis essentially
skipped the second element by concluding "it is
beyond question that the Coal Companies were
deprived of the use of their property as a direct
and immediate consequence of PennDOT's
actions." PBS Coals, 206 A.3d at 1223.
We disagree, as the Coal Companies failed to
establish the second element of the takings test.
They
presented
insufficient
evidence
to
demonstrate that they possessed any "beneficial
use and enjoyment of the property" (the coal estate).
The Coal Companies cannot use and enjoy their coal
estate because there is no mining operation on the

66a
Parcel 55 property, and they did not meet their
heavy evidentiary burden to establish any
likelihood that they will be able to obtain a surface
mining permit to begin a mining operation to
extract the coal. The Commonwealth Court
identified Blakely, Filbert, and Parker Avenue as
"hing[ing], to a certain degree, on the causation
prong of the de facto taking test, i.e., whether the
substantial deprivation of use was the 'immediate,
necessary and unavoidable consequence of the
exercise of the power to condemn."' Id. at 1222.
There is little doubt that Highway 219 would be
the immediate and necessary consequence of the
Coal Companies' inability to use and enjoy their
coal estate if a mining operation existed, or could
be commenced with a permit, on the property. 11
However, just as the PVC pipe in Blakely was only
theoretically precluding the landowner from
developing the property as he wished, the
highway is only theoretically preventing the Coal
Companies from using their coal estate. As
things stand, the coal estate sits idle and may
not be mined; therefore Highway 219 has not
resulted in any deprivation to the Coal
Companies whatsoever.
Under the facts
presented here, we never reach the third element
of the takings test (causation), as the Coal
Companies have not satisfied the second element
(a deprivation).
The Commonwealth Court held that the
likelihood of obtaining a permit was entirely
11

Of course, under those circumstances PennDOT may well
have opted to provide alternative access as part of its
highway construction plans.

67a
irrelevant at the preliminary objections stage
on the issue of whether a taking took place, and
therefore the trial court erred by not directing
the board of viewers to consider that issue at
the damages stage. We disagree.12 The trial
court's determination that a permit was not
likely to issue goes directly to whether the
Coal Companies established that PennDOT's
construction
substantially
deprived
the
condemnees of the beneficial use and enjoyment
of their coal estate.
The lodestar of the Commonwealth
Court's analysis was its conflation of the
surface estate rights with the coal estate rights,
reasoning that the inability to access the parcel
necessarily caused the Coal Companies to lose
the enjoyment of their coal estate.13 In Blakely,
12

PennDOT has litigated this case under the assumption
that if the Coal Companies were able to establish to the
trial court's satisfaction a reasonable probability of
obtaininga DEP permit then a de facto taking occurred.
We accept that premise for purposes of our disposition.
13

With no further development, the Coal Companies cite
and quote Belden & Blake Corp. v. OCNR, 969 A.2d 528
(Pa. 2009), as definitively settling this issue. The case is
distinguishable. Therein, Belden owned or leased
mineral rights on lands owned by the Commonwealth.
When Belden informed the Department of Conservation
and Natural Resources (DCNR) that it was in
preliminary stages of developing gas wells, the DCNR
sought to impose conditions on Belden's access,
including fees for removing timber that were double the
fair market value of the material. Belden alleged
that the DCNR's conditions were tantamount to a de facto
taking. We found that partial summary judgment was
warranted in Belden's favor. Belden had a right to access

68a
continuing access was important because the
surface rights owner was using the land for some
purpose. That merely reflects the fact that surface
owners enjoy a broad array of uses, whereas here
the Coal Companies can enjoy their coal estate in
only one way: mining coal. The Coal Companies
rely on McElwee, 948 A.2d 762, to support its
argument that a de facto taking occurred here.
There, the Southeastern Pennsylvania Transport
Authority (SEPTA), in the course of three years of
construction work, interfered with access to a
printing shop to a degree that the day-to-day
operations of the business were made impossible.
The shop lost business and closed its doors, all of
which was attributable as a matter of law to
SEPTA's activities. "[W]e find that the trial court
failed to adequately support its conclusion that
Appellees did not establish any causal link
between SEPTA's actions and the closure of their
business." Id. at 772-73. We thus held that
SEPTA's preliminary objections should have been
overruled.
McElwee is not comparable to the
and its exercise of its subsurface rights was reasonable. "A
'regular' surface owner cannot unilaterally impose extra
conditions on the subsurface owner beyond those that are
reasonable."
Id. at 532-33. We determined that the
government
was
held
to
the
same
standard
notwithstanding potential constitutionally based fiduciary
duties connected to the DCNR's role in preserving state
lands under the Pennsylvania Constitution.
Belden does not support the Coal Companies' position. The
government is not imposing any conditions on access but
rather a condition on opening the mine. Nor does the
government own Parcel 55's surface rights.

69a
present circumstances. That case involved the
substantial deprivation of an actual use of a
surface estate caused by SEPTA's acts. Again,
there is no present use of the coal estate
whatsoever. This is not a case where PennDOT's
construction activities interfered with an ongoing
coal mining operation.
The Commonwealth Court equated the fact
of ownership of subsurface rights, i.e., a coal estate,
with the highest and best use of that ownership
interest. According to that court, the Coal
Companies did not have any burden to establish
that the coal was legally mineable. Because it was
uncontroverted that coal existed in their
subsurface parcel, to require subsurface rights
owners to establish that a permit to mine the coal
was likely to issue would treat subsurface rights
owners differently and worse than surface rights
owners.
The defect in the Commonwealth Court's logic
is that mere ownership of a property right is not a
use, and the Commonwealth Court's ruling gives
preferential treatment to these coal estate
owners by eliminating an essential evidentiary
burden. Like any other owner of property rights
claiming a de facto taking, the Coal Companies
must prove, inter alia, that the government's
action substantially deprived the owner of the
beneficial use and enjoyment of the property. In
the matter before us, there is no dispute that the
only use of the Coal Companies' subsurface rights is
a coal extraction operation. It is the only use and
thus the highest and best use. This use is implicit
in the Coal Companies' argument. Their claim is
that they lost the ability to extract the coal
because of their loss of access to the subsurface

70a
area. The ability to extract the coal is central to
the takings claim. The coal estate owners have
the burden to establish the existence of a use as a
coal extraction site. Because the Coal Companies
did not establish the feasibility of such use, the
Coal Companies cannot establish that they have
been deprived of the use by PennDOT's
construction activity.
The use of property by surface rights owners
and subsurface rights owners are distinct. The
takings analysis, and its fact-intensive nature,
properly permits courts to account for those
distinctions. The de facto takings jurisprudence "is
characterized by essentially ad hoc, factual
inquiries, designed to allow careful examination
and weighing of all the relevant circumstances."
Tahoe-Sierra Pres. Council, Inc. v. Tahoe Reg'/
Planning Agency, 535 U.S. 302, 322 (2002). The
Coal Companies' assertion that a de facto taking
occurred by operation of law by virtue of
ownership of subsurface rights requires a court to
ignore all circumstances other than the loss of
access.
Finally, the Commonwealth Court did not
acknowledge
any
distinction
between
permitability, which was relevant to the legality of
extracting the coal (and properly a focus of a de
facto takings analysis) versus the economic value
of the coal (a matter of damages). The Coal
Companies, picking up on the Commonwealth
Court's analysis, argue that the trial court and
PennDOT suggest that "until a permit is secured
there is no estate and no value in a coal estate."
Coal Companies' Brief at 25. That charge is
inaccurate. The value as determined by an
economic analysis of what the coal is worth has no

71a
bearing on whether a taking occurred.14 If the coal
cannot be mined, the government took nothing.
This is precisely the type of "speculative and
conjectural" use that the caselaw holds cannot
qualify as a de facto taking. We therefore agree
with the trial court's legal conclusion that the Coal
Companies failed to establish that a permit was
reasonably likely to issue, and accordingly any
taking was purely speculative and conjectural.
The Sufficiency of the Evidence Regarding
Permitability
Before the Commonwealth Court, the Coal
Companies raised as a question for review whether
the record lacked substantial evidence to support
the trial court's conclusion that the Coal
Companies' ability to obtain approval from DEP
for a surface mining permit for Parcel 55 was too
speculative and uncertain. The Commonwealth
Court, based upon its determination that the trial
court erred in examining permitability at the
preliminary objections stage of the proceedings,
found it unnecessary to address the issue. PBS
Coals, 206 A.3d at 1224 n.10. As we have concluded
that the Commonwealth Court's ruling was in
error, we will address whether sufficient
evidence exists to support the trial court's
14

For instance, whether the coal is worth $100 million, $50
million, or $100,000, DEP's decision to issue a permit has
nothing to do with what the investor expects to make. What
the coal is worth goes to why a mineral rights owner would
seek a permit, but the DEP permit itself goes to whether a
mine is opened. The latter is the focus for takings, the
former is the focus for damages.

72a
conclusion that a DEP permit was not reasonably
probable. As developed, the trial court's analysis
implicates the condemnee's heavy burden to
establish that a de facto taking occurred.
The trial court had the duty of weighing the
evidence. See Thomas A. McElwee & Son, Inc. v.
SEPTA, 896 A.2d 13, 21 (Pa. Commw. 2006) ("The
trial court, as fact-finder, had the discretion to
weigh the evidence and determine which was most
credible[.]"). aff'd sub nom. McElwee v. SEPTA, 948
A.2d 762 (Pa. 2008). Appellate review then
consists of deciding whether substantial evidence
exists in the record to support the trial court's
findings. McElwee, 948 A.2d at 771. As reviewed
herein, the Coal Companies insist that their
experts testified that the facts presented to the
trial court established that a permit was
reasonably
probable,
even
without
the
completion of the different modules and
questions surrounding the environmental issues.
PennDOT's witness, Mr. Sammarco, without
categorically ruling out the possibility of the
issuance of a mining permit to the Coal
Companies, provided the trial court with a
number of reasons to seriously doubt the
likelihood of any such eventuality.
Based upon our review of the record, we
conclude that said record contains substantial
evidence to support the trial court's finding that
the issuance of a mining permit to the Coal
Companies was "speculative and uncertain." As
reviewed in detail herein, see supra at 10-11, Mr.
Sammarco testified that the Coal Companies had
to date not conducted any stream or wetlands
impacts studies or an overburdening analysis. One

73a
of PBS Coals' testifying experts, Mr. Kudlawiec,
was not even aware of the existence of an
intermittent stream running through the area until
the time of his testimony before the trial court. This
failure to study stream and wetlands impacts was
particularly concerning to Mr. Sammarco, as two
previous mining operations by PBS Coals in the
same area ("Job 21" and the Black Mountain site)
resulted in serious pollution to water supplies. At
the evidentiary hearing, PBS Coals offered
testimony to allay fears that an additional mining
operation would not exacerbate the damage
already done by PBS Coals to the water supply in
the area. Mr. Kudlawiec's suggestion that PBS Coals
would use up to four times the usual amount of an
alkaline solution to mitigate acid discharges
would, according to Mr. Sammarco, provide an
additional level of concern in reviewing the permit
application. The existence of an endangered
species was another impediment. Finally, a note
in DEP's files generated after a 2005 meeting with
PBS Coals' representatives stated that permitting
additional coal reserves at the location at issue
was low given the significant potential "for
generating additional pollution."
Based upon this evidence admitted by the
DEP, the trial court was well within its province
as the finder of fact to conclude that the issuance
of a mining permit to the Coal Companies to
commence a new mining operation was unlikely
to occur.
Consequential damages for loss of access
By holding a de facto taking occurred, the
Commonwealth Court did not address the claim for

74a
consequential damages. As previously discussed,
consequential damages are available even if a
taking has not occurred. The Coal Companies'
second count incorporated the foregoing complaints
and argued that the coal "has been permanently
isolated by PennDOT ... [by] taking the only access
PBS and Penn Pocahontas had to and from [Parcel
55] from a public road." Petition, 2/19/2015, at 7.
The Coal Companies conceded that
consequential damages are unavailable by virtue
of the Commonwealth Court's holding that a de
facto taking occurred, which we have reversed.
PennDOT, on the other hand, argues that it
intends to defend the remaining consequential
damages claim. We express no opinion on this
matter, as the parties have had no opportunity to
litigate this aspect of the case.
Conclusion
We
reverse
the
decision
of
the
Commonwealth Court and, for the reasons
discussed in this opinion, reinstate the trial court's
determination that no taking occurred. We remand
the case to the Commonwealth Court with
directions to remand to the trial court for
consideration of the Coal Companies' claim for
consequential damages.
Chief Justice Saylor and Justices Baer,
Todd, Dougherty and Wecht join the opinion.
Justice Mundy files a dissenting opinion.
Judgment Entered 01/20/21
/s/ John A. Vaskov
Deputy Prothonotary

75a
[J-23-2020][MO: Donohue, J.]
IN THE SUPREME COURT OF
PENNSYLVANIA WESTERN DISTRICT
No. 41 WAP 2019
Appeal from the Order of the Commonwealth
Court entered March 28, 2019 at No. 140 CD
2018, reversing the Order of the Court of
Common Pleas of Somerset County entered
January 23, 2018 at No. 98 Civil 2015 and
remanding
SUBMITTED: April 16, 2020
PBS COALS, INC. AND PENN POCAHONTAS
COAL CO.,
Appellees,
v.
COMMONWEALTH OF PENNSYLVANIA,
DEPARTMENT OF TRANSPORTATION
Appellant
DISSENTING OPINION
JUSTICE MUNDY
DECIDED: JANUARY 20, 2021
“Substantial evidence of record” does not
support the trial court’s finding that PBSCoals, Inc.
and Penn Pocahontas Coal, Co. (Coal Companies)
were unlikely to obtain a mining permit from the
Pennsylvania
Department
of
Environmental
Protection (DEP) for surface mining of the two coal

76a
reserves, the Brookville/A-Seam and the Clarion
Rider Seam, on Parcel 55.1 Accordingly, I dissent.
The trial court concluded that the Coal
Companies’ ability to obtain a surface mine permit
from DEP was “speculative and uncertain” based
solely on “the factors . . . identified in the Tim Kania
Note which failed to offer much encouragement
based on PaDEP’s negative experience with acid
mine drainage from mining the same seam as in
nearby Job 21 which has a permanent treatment
order in existence.” Trial Ct. Mem., 1/23/18, at ¶ 9697. The Kania2 note was prepared for a March 29,
2005 meeting with PBS Coals to discuss its mining
proposal for the Brookville/A-Seam. N.T., 2/15/17, at
2.120-22; PennDOT Ex. 14. The note states that
based on the DEP’s “current knowledge,the potential
for successfully permitting the targeted reserves is
low, because, given currently known facts, the
potential for generating additional pollution is
high.” Id. The Majority concludes “the trial court
was well within its province as the finder of fact to
conclude that the issuance of a mining permit to the
1

“Appellate review in a case where the trial court has
sustained preliminary objections to a petition for an
appointment of viewers is directed to considering whether the
common pleas court's findings are supported by substantial
evidence of record, and whether the court abused its discretion
or committed an error of law.” McElwee v. SEPTA, 948 A.2d
762, 771 (Pa. 2008).
2

At the time of the hearing, Kania no longer worked for DEP’s
Cambria District Mining Office. His position at DEP is not
clear from the record, other than Daniel Sammarco’s
testimony that Kania reported to the person who was
Sammarco’s predecessor. N.T., 2/15/17, at 2.120.

77a
Coal Companies to commence a new mining
operation was unlikely to occur.” Majority Op. at 39.
The record does not support the dispositive
weight the trial court gave to the Kanianote. There
are three issues with Kania’s note that undercut the
weight the trial court placed on it. First, the note
does not indicate that Kania’s comments were
specific to surface mining the Brookville/A-Seam on
Parcel 55; instead, his comments were directed at
mining the seam generally. PennDOT Ex. 14.
Second, Kania’s comments were limited to the
Brookville/A-Seam, and he did not offer any opinion
regarding mining the Clarion Rider Seam either
generally or mining that seam on Parcel 55. Id.
Third, Kania wrote the note in 2005, five years
before PennDOT acquired the portion of Parcel 54
that landlocked Parcel 55. As such, Kania’s 2005
opinion did not reflect the “currently knownfacts” as
of the date of the alleged de facto taking. For
instance, the Coal Companies’ expert, Louis Pierce,
III, testified that he applied for a permit to mine the
A-Seam on a parcel close to Parcel 55 in 2010, and
the Commonwealth issued the permit in 2013.
N.T., 2/14/17, at 1.63. Pierce was able to obtain a
permit to mine the A-Seam eight yearsafter Kania
issued his note, despite Kania’s reservations about
further mining of the A- Seam.
Moreover, PennDOT introduced Kania’s note
through the testimony of its expert witness, Daniel
Sammarco, the district mining manager for the
DEP’s Cambria District Mining Office. Sammarco’s
ultimate opinion was that “there would be areas of
consideration of [P]arcel 55,” but without seeing a
completed permit application for surface mining
Parcel 55, he was unable to state to a reasonable
degree of certainty whether DEP would issue or

78a
deny a mining permit for Parcel 55. N.T., 2/15/17, at
2.103,2.121-22. Sammarco’s review of Kania’s note
did not change his opinion. Id. at 2.121-22. To
Sammarco, Kania’s note made it no more or no less
likely that the Coal Companies would be able to
obtain a permit for Parcel 55. Id. In its findings of
fact, the trial court acknowledged Sammarco
“testified that none of the information that had been
presented to him by PennDOT, PBS or Penn
Pocahontas in this case would prevent a permit for
surface mining of the applicable seams underlying
Parcel 55.” Trial Ct. Mem., 1/23/18, at ¶ 69.
However, despite Sammarco’s testimony and the
trial court’s factual finding, the trial court concluded
the opposite. Therefore, Kania’s note does not
constitute“substantial evidence of record” to support
the trial court’s conclusion.
Additionally, the Coal Companies presented
two experts who opined to a reasonable degree of
certainty that the companies could obtain surface
mining permits for Parcel 55 by mitigating all of
DEP’s concerns. First, Pierce, an expert in geology,
hydrology, and mine permitting, expressed
“confidence that there isn’t anything on [P]arcel 55
that would initiate a decline for a permit.” N.T.,
2/14/17, at 1.62, 1.106. Pierce conducted an
overburden analysis based on five drill holes on
Parcel 55 and determined 2,200 tons per acre of
alkaline addition would neutralize the overburden.
Id. at 1.77-78, 1.81. He noted that in a different ASeam mine for which he had previously obtained a
permit, DEP required a greater alkaline addition
(7,000 tons per acre), so he included thatfigure in his
overburden analysis even though his opinion was
2,200 tons per acre wouldhave been sufficient. Id. at
1.82-83. Further, Pierce did not identify any streams

79a
on Parcel55 on the USGS topographic quad, and he
stated there was a possible wetland of less than two
acres, which the Coal Companies could mitigate by
rebuilding it post-mining. Id.at 1.83-84. Based on
his analysis of Parcel 55 and his experience of 15
years of obtainingapproximately 40 mining permits,
he stated a surface mine on Parcel 55 is permittable.
Id. at 1.84.
Likewise, the Coal Companies presented
Robert Kudlawiec as an expert in mining
engineering, mine permitting, mine planning, and
mine operation. Id. at 1.116. Kudlawiec developed a
surface mining plan for Parcel 55. Id. at 1.119.
Specifically, he stated that the wetlands on Parcel
55 were not a barrier to a permit because they could
be mitigatedby replacing them post-mining. Id. at
1.137. Further, he stated he would use 7,000 tonsof
alkaline addition per acre. Id. at 1.153. He opined
that Parcel 55 is permittable basedon his work on
Parcel 55 and his professional experience, including
obtaining 24 surface mine permits without having
any permit applications denied. Id. at 1.141, 1.150,
1.152.
The Coal Companies’ experts’ testimony
aligned with Sammarco’s description of the permit
approval process as providing applicants the
opportunity to remedy any deficiencies DEP
identified. Sammarco detailed the pre-application
process, which begins 45 days after his office
receives a pre-application and includes a field view
givingDEP the opportunity to provide comments to
the applicant. N.T., 2/15/17, at 2.102. This is
followed by a comment letter with citations, which
gives an applicant notice of any deficiencies in the
pre-application. Id. Sammarco testified that at the
time his office sends the comment letter with

80a
deficiencies, he is unable to say with a reasonable
degree of certainty whether DEP would issue a
permit. Id. at 2.103. While he testified that his
knowledge of Parcel 55 was limited to the prior
testimony at the hearing and viewing themap one or
two times, he acknowledged several considerations
for the potential permitting of Parcel 55, including
wetlands, an intermittent stream, the wetlands on
surrounding parcels, the presence of the Indiana bat
habitat, and the ongoing Job 21 remediation. Id. at
2.108, 2.114-115. Despite these potential areas of
concern, his ultimate opinion was that the DEP
could not make a determination on a permit without
areview of a formal application. Id. at 2.115. He did
not testify that a permit would be denied or even
that the considerations he identified meant a permit
was unlikely to be issued. Thus, even PennDOT’s
expert acknowledged he could not make the
conclusion that the trial court ultimately made.3
After hearing Sammarco’s testimony,
Kudlawiec testified in rebuttal that the Coal
Companies could mitigate all of Sammarco’s
concerns. N.T., 2/16/17, at 2.36-38, 2.41-

3

The Majority cites several of the considerations that
Sammarco raised—the wetlands on Parcel 55, the intermittent
stream, the neutralization of the overburden—in support ofits
conclusion that the record supports the trial court’s finding
that DEP was unlikely to issue a permit to the Coal
Companies. Majority Op. at 39. However, the Majority does not
acknowledge that these areas of concern did not lead
Sammarco to opine that DEP was unlikely to issue a permit.
Accord Trial Ct. Mem., 1/23/18, at ¶ 69 (issuing a factual
finding that Sammarco testified none of the information
within his knowledge would prevent DEP from issuing a
permit for the surface mining of Parcel 55).

81a
50. Kudlawiec maintained that he was reasonably
certain DEP would issue a permit for surface mining
on Parcel 55. Id. at 3.57; see also id. at 3.58 (stating
“I cannot guarantee but I have a high degree of
probability that it would be issued”). Significantly,
the trial court found that “[a]t the time of the
February 14-16, 2017 hearings, PennDOT did not
offer any testimony or reports to the effect that the
coal reserves underlying [P]arcel 55 could not be
mined or permitted by PaDEP.” Trial Ct. Mem.,
1/23/18, at ¶ 82.
In my view, the Coal Companies met their
burden of establishing a prima facie case that
PennDOT committed a de facto taking of Parcel 55’s
coal estate, for which theCoal Companies were likely
to obtain a permit, and PennDOT did not rebut this
evidence.See McElwee, 948 A.2d at 773. Further, the
trial court’s conclusion that the Coal Companies’
ability to obtain a surface mining permit was
speculative and uncertain is not supported by
substantial evidence of record. Accordingly, I would
affirm the Commonwealth Court on the basis that
the record lacked substantial evidence to supportthe
trial court’s conclusion that Parcel 55 was not
permittable, and I dissent to the Majority’s holding
to the contrary.

82a
APPENDIX D – OPINION OF THE
COMMONWEALTH COURT OF
PENNSYLVANIA, FILED MARCH 28, 2019
IN THE COMMONWEALTH COURT OF
PENNSYLVANIA
No. 140 C.D. 2018
Argued: February 14, 2019
PBS Coals, Inc. and Penn Pocahontas Coal Co.,
Appellants,
v.
Commonwealth of Pennsylvania, Department of
Transportation
BEFORE: HONORABLE PATRICIA A.
McCULLOUGH, Judge
HONORABLE MICHAEL H. WOJCIK,
Judge
HONORABLE ELLEN CEISLER, Judge
OPINION BY
JUDGE McCULLOUGH

FILED: March 28, 2019

PBS Coals, Inc. and Penn Pocahontas Coal, Co.
(collectively, the Coal Companies) appeal from the
January 19, 2018 order of the Court of Common Pleas
of Somerset County (trial court) sustaining the
Pennsylvania Department of Transportation's
(PennDOT) preliminary objections to the Coal
Companies' petition for the appointment of a board of
viewers (Petition), which alleged that PennDOT's
actions constituted a de facto taking of the Coal

83a
Companies' coal estate and coal interest on a parcel
of property in Somerset County.
Facts and Procedural History
This case involves the construction of a portion
of U.S. Route 219, an 11- mile limited access highway,
in southern Somerset County. As part of the
construction, PennDOT condemned property in a
north-south direction. (Trial court op. at 1.) The Coal
Companies allege that the construction of Route 219
deprived them of their access and right-of-way to a
certain parcel of property, Parcel 55, m
Brothersvalley, Pennsylvania, for which it owned
the coal estate and coal interest.
In 2010, when the Coal Companies allege
that the de facto taking occurred, Penn Pocahontas
was not active in the mining business; rather, its
primary source of income was derived from
acquiring coal reserves and leasing them to active
mining companies, which then paid Penn
Pocahontas a royalty on the coal sales. (Trial court
op., findings of fact (F.F.) Nos. 2-3.) In 2006, Penn
Pocahontas entered into a lease agreement with the
owners of Parcel 55 whereby it gained the right to
mine all the subsurface coal on Parcel 55. (F.F. No.
5.) Thereafter, in 2007, Penn Pocahontas entered
into a lease agreement with PBS Coals, whereby
PBS Coals gained the right to mine all the coal
underlying Parcel 55, including both the Brookville
seam and the Clarion Rider seam, which were the
only coal seams present on the parcel. (F.F. Nos. 56.) Additionally, in 2006, PBS Coals entered into a
coal lease with respect to Parcel 59, which was then
owned by Jean C. Shaffer (the Shaffer Lease). (F.F.
Nos. 32-33.) The Shaffer Lease granted PBS Coals

84a
the right to mine all of the surface and subsurface
coal on Parcel 59. (F.F. No. 34.)
Both Parcels 55 and 59 lay to the west of
Route 219. Parcel 59 lays northwest of, but does not
abut, Parcel 55. (Reproduced Record (R.R.) at 139a;
Supplemental Reproduced Record (S.R.R.) at 71b.)
Located east of Parcel 59 and north of Parcel 55, and
adjacent to both parcels, is Parcel 56. Id. Directly
north of and fronting Parcel 59 is Mud Pike Road.
Id. Situated east of Parcel 55 is Garrett Shortcut
Road; however, Parcel 55 does not front Garrett
Shortcut Road. Id. Rather, Parcels 50 and 54 lay to
the east of Parcel 55 and in between Parcel 55 and
Garrett Shortcut Road. Following its construction,
Route 219 bisects and is situated on Parcels 54 and
50, between Parcel 55 and Garrett Shortcut Road.
(R.R. at 138a.) Finally, located southwest of Parcel
55 is the Hoover Parcel. Although the Hoover
Parcel fronts Blackfield Road, Parcel 55 does not
front the same. (R.R. at 139a, S.R.R. at 7lb.)
While Parcel 55 has always been landlocked,
the Coal Companies claimed in their Petition that
their right-of-way to Parcel 55 was inaccessible due
to the construction of Route 219. (Petition 113.) The
Coal Companies did not claim that PennDOT
physically condemned Parcel 55; instead, the Coal
Companies asserted that, because of the
construction of Route 219, the coal under Parcel 55
is now isolated and incapable of being mined. Id.
114. The Petition alleged that the loss of access to
Parcel 55 constituted a de facto taking by PennDOT
of the same. Id. 19. The Petition requested that the
trial court appoint a board of viewers to ascertain
the just compensation that should be awarded the
Coal Companies for the de facto taking of Parcel 55.
Id 124. In response to the Petition, PennDOT filed

85a
preliminary objections asserting that a de facto
taking had not occurred because the Coal
Companies were not deprived of the beneficial use
and enjoyment of their property due to any action
of PennDOT; the Coal Companies did not suffer any
depreciation in the value of their property;
PennDOT's actions did not cut off the Coal
Companies' access to Parcel 55 because there was
alternative access; and at the time PennDOT
condemned the property for the construction of
Route 219, the Coal Companies had not applied for
any mining permits for Parcel 55.
The trial court conducted a three-day hearing
from February 14-16, 2017. At the hearing, the Coal
Companies presented evidence that prior to the
alleged condemnation, they had access from Parcel
55 to Garrett Shortcut Road via rights-of- way over
Parcels 54 and 50. (F.F. Nos. 7-8.) While the Coal
Companies claimed that they had rights-of-way
leading from Parcel 55 to Garrett Shortcut Road,
the relevant deeds conveying the rights-of-way did
not define the actual location of the rights-of- way,
with only a general direction and description given,
and the Coal Companies never attempted to define
the route for their rights-of-way. (F.F. Nos. 12-14.)
The construction of Route 219 resulted in Parcels
54 and 50 being bisected by the new highway and,
thus, the rights-of-way leading from Parcel 55
across Parcels 54 and 50 in an easterly direction
toward Garrett Shortcut Road were severed. (F.F.
No. 16.)
The type of land use proposed by the Coal
Companies for access from Garrett Shortcut Road
to the right-of-way for Parcel 55, located on Parcel
54, would require a highway occupancy permit
(HOP) from PennDOT. (F.F. No. 17.) The Coal

86a
Companies never applied for an HOP for the rightof-way, and PennDOT alleged that the Coal
Companies lacked sufficient access frontage on
Parcel 54 for an HOP. (F.F. No. 22.)
At the hearing, PennDOT indicated, over the
objections of the Coal Companies, that it was
prepared to construct a temporary bridge across
Route 219, before the Coal Companies extracted
any coal, which would thereby prevent them from
ever being deprived of access to Parcel 55. (F.F. No.
24.)
PennDOT presented a plan to build a
temporary bridge across Route 219 to transport coal
from Parcel 55, and asserted that it would be of
sufficient strength to support any load allowed on
the roadways of the Commonwealth. (F.F. Nos. 2526.) However, between 2010 and 2017, PennDOT
did not have any plans in place for the construction
of a temporary bridge over Route 219; therefore, the
Coal Companies argued that any testimony
concerning the construction of the same was totally
speculative and should be disregarded. (F.F. Nos.
27-28.)
PennDOT also attempted to demonstrate at
the hearing that the Coal Companies had
alternative access to Parcel 55 by virtue of the
Shaffer Lease and the Coal Companies' interest in
the coal on Parcel S9. The Shaffer Lease granted
PBS Coals mining rights on Parcel 59 for a primary
term of seven years and "so long thereafter as active
mining is being conducted on the Premises or on a
mine which has or will include the Premises," and
provided that the Shaffers agreed to "execute and
sign any documents required to be signed by [PBS
Coals] in connection with obtaining or maintaining
a mining permit on the Premises." (Shaffer Lease at
8, S.R.R. at 8b; F.F. Nos. 34-35.)

87a
Further, PennDOT attempted to show that the
Coal Companies could access Parcel 55 via a right-ofway across the Hoover Parcel to Blackfield Road. (F.F.
Nos. 42-43.) PBS Coals previously had entered into a
coal lease with respect to the Hoover Parcel. (F.F. No.
44.) However, the lease had terminated by the time of
the alleged de facto condemnation and the trial court
concluded there was no evidence that the lease had
been reinstated or that PBS Coals had an ongoing
right to traverse the Hoover Parcel from Parcel 55 to
Blackfield Road. (F.F. Nos. 45-46.)
Finally, the parties introduced conflicting
evidence regarding the mineability of Parcel 55,
specifically about whether the Pennsylvania
Department of Environmental Protection (DEP)
would issue a permit for a mine on Parcel 55. Louis
T. Pierce, a registered professional geologist, who was
accepted as an expert in geology and hydrology,
testified that there were no streams on Parcel 55 and
that there were less than two acres of wetlands on the
same. (F.F. No. 50.) Pierce testified that all of the
wetlands on the property could be mitigated. (F.F.
No. 51.)
Robert Kudlawiec, a licensed professional
engineer, who was accepted as an expert in mine
planning, operations, permitting, and engineering,
testified regarding the potential for obtaining a
mining permit for Parcel 55 from DEP. (F.F. No. 52.)
Kudlawiec explained that when a mining permit is
sought from DEP and there are intermittent streams
present, the permit may be issued if the stream is
removed, replaced, or enhanced. (F.F. No. 53.) He also
testified that wetlands are mitigated by establishing
a replacement wetland. (F.F. No. 54.) Kudlawiec
stated that any streams or wetlands on Parcel 55
could be mitigated and that the cost of mitigation was

88a
factored into his determination of the economic
mineability of Parcel 55. (F.F. No. 55.) In his opinion,
an intermittent stream or wetland would not prevent
the issuance of a mining permit from DEP as long as
corrective measures were taken. (F.F. No. 56.) He
further noted that another acceptable method for
mitigating a stream or wetland is to construct a "high
wall mine" below the level that the stream can be
affected. (F.F. No. 57.) Kudlawiec believed that DEP's
wetlands and stream requirements for mining
permits are similar to DEP's requirements for
highway permits. (F.F. No. 58.) He noted that DEP
issued PennDOT permits to mitigate streams and
wetlands when constructing Route 219 across Parcels
50 and 54. (F.F. No. 59.) PennDOT's experts
acknowledged that the environmental standards
PennDOT was required to meet to construct Route
219 were similar to those required for a mining
permit, that PennDOT obtained all of the necessary
environmental permits for Route 219, and that the
excavation overburden for the Route 219 project was
greater than it would be for a surface mine on Parcel
55. (F.F. Nos. 65-66.)
Both of the Coal Companies' experts testified
that the presence of the Indiana bat in Somerset
County would not have been an impediment for
obtaining a mining permit from DEP for Parcel 55.
(F.F. No. 60.) Both experts also stated that the
possibility of acid mine drainage on Parcel 55 could
have been mitigated by alkalineadditions and that
alkaline additions are recognized by DEP as a way
to reduce acidic overburden in the permitting
process. (F.F. Nos. 61-64.) Kudlawiec opined with a
reasonable degree of certainty that a surface mine to
extract the coal on Parcel 55 was permittable by DEP
and that, therefore, the coal was mineable. (F.F. No.

89a
67.) Piercealso testified that the surface mine was
permittable by DEP from a geological and
hydrogeological standpoint. (F.F. No. 68.)
DEP's Ebensburg District Mining Manager,
Daniel Sammarco, testified on behalf of PennDOT.
(F.F. No. 69.) He testified that his office handles
surface mine permit applications, that his
responsibilities include ensuring that the
permitting process complies with the Surface
Mining Conservation and Reclamation Act,1 and
that a mining permit may be denied for either
administrative or technical deficiencies. (F.F. Nos.
69-72.) He stated that nothing had been presented
by the Coal Companies or PennDOT that would
necessarily prevent a permit for surface mining on
Parcel 55, but in order to opine on such a permit it
was necessary to wait until a full review of the
formal application had occurred. (F.F. No. 69.)
Sammarco noted that the failure to properly
address potential environmental impacts to
streams and wetlands are mining permit technical
deficiencies, and that the Coal Companies' experts
had not testified to studying stream and wetland
impacts or performing an overburden analysis,
which are essential for the permitting process. (F.F.
No. 76.) Sammarco also explained that another
factor in the permitting process for Parcel 55,
should it be initiated, would be the post-mining
discharge from PBS Coals' separate Job 21, which
had resulted in an enforcement action against PBS
Coals and the institution of a perpetual
remediation plan for acid mine discharge. (F.F. No.
77.) Sammarco testified that he could not state with
Act of May 31, 1945, P.L. 1198 , as amended, 52 P.S. §§1396.11396.31.
1

90a
a reasonable degree of certainty that his office
would grant a permit for a surface mine on Parcel
55. (F.F. No. 78.) Additionally, notes written by
DEP "tech chief," Tim Kania, in 2005, expressed
skepticism about further mine permitting for the
Brookville seam due to past problems with
groundwater quality, coal seam overburden, large
alkaline addition rates, and the high potential for
additional pollution. (F.F. No. 79.) Finally, PBS
Coals demonstrated that it obtained a deep mine
permit for a parcel of property just north and east
of Parcel 55 (A-seam mine) and that the permit
included a surface mining component. (F.F. No.
81.)
The trial court concluded that the Coal
Companies had leasehold rights to extract and sell
the coal and to the royalty income for Parcel 55.
(Trial court op., conclusions of law (C.L.) Nos. 8586.) The trial court determined that on June 10,
2010, a right-of-way existed leading from Parcel 55
across Parcels 54 and 50 to Garrett Shortcut Road.
(C.L. Nos. 87-88.) The trial court held that Parcel
55 became landlocked due to the construction of
Route 219, which severed the then-existing
rights-of-way across Parcels 54 and 50, and that the
physical existence of Route 219 precluded the removal
of coal from Parcel 55 in an easterly direction to
Garrett ShortcutRoad. (C.L. Nos. 89-90.)
The trial court explained that in order to
establish a de facto taking, the Coal Companies had to
show that there were exceptional circumstances that
substantially deprived them of their ability to mine
the coal on Parcel 55, and that the deprivation was the
direct and necessary consequence of PennDOT's
actions. (C.L. Nos. 91-92.) The trial court concluded
that by virtue of the Shaffer Lease, PBS Coals had a

91a
right-of-way access from Parcel 55 to Mud Pike Road
via Parcels 56 and 59, because the lease contemplated
the inclusion of the three parcels in a multipleproperty mine permit. (C.L. No. 93.) Although the
trial court admitted that the Shaffer Lease did not
explicitly grant PBS Coals the right to carry coal from
Parcel 55 across Parcel 59, it concluded that the lease
permitted the same because Exhibit A to the lease
depicted a "Proposed Haul Road Location" and an
"affected area" of the lease, which encompassed
multiple surface mine pits across several properties.
(C.L. No. 94.)
The trial court also determined that it was
required to inquire into the likelihood that DEP would
issue a mining permit for Parcel 55. (C.L. No. 96.)
The trial court observed that the Coal Companies'
experts' opinions were predominantly based on their
experience in their respective fields, rather than the
specific underlying facts for which the property would
be scrutinized by DEP. Id. The trial court noted
that the Tim Kania note failed to offer much
encouragement for the permitting of a mine on Parcel
55 given DEP's negative experience with acid mine
drainage from mining the same coal seam on the
nearby Job 21, which had resulted in a "permanent
treatment order." Id. Accordingly, the trial court
held that the Coal Companies' "ability to obtain a
surface mining permit" for Parcel 55 was "speculative
and uncertain and ... incapable of supporting a claim
of taking of a property right" by PennDOT due to the
location of Route 219. (C.L. No. 97.) Thus, the trial
court concluded that a de facto taking had not
occurred and sustained the preliminary objections.

92a
(Trial courtorder, January 19, 2018.)2
Discussion
On appeal,3 the Coal Companies raise the
following three issues: (1) the trial court erred in
determining that alternative access via Parcel 59 was
available to the Coal Companies to mine the coal
underlying Parcel 55; (2) the trial court erred in
deciding at the preliminary objections stage that the
2

The trial court also issued an opinion pursuant to
Pennsylvania Rule of Appellate Procedure 1925(a), Pa.R.A.P.
1925(a). In the opinion, the trial court explained that the
Shaffer Lease provided the Coal Companies alternative access
to Parcel 55. (Trial court 1925(a) op. at 1-2.) Moreover, the
trial court clarified that PennDOT had not proffered evidence
that it had offered to construct a temporary bridge for the
Coal Companies and that the trial court had not made a
conclusion regarding whether the Coal Companies could
obtain an HOP for the right-of-way from Parcel 55 across
Parcels 50 and 54 to Garrett Shortcut Road. Id The trial court
also noted that its conclusions that the Coal Companies had
not studied stream and wetland impacts or performed an
overburden analysis for Parcel 55 had been erroneous, but
that the Coal Companies had still not demonstrated that they
would be able to obtain a mining permit because the
environmental requirements for the already granted surface
component of the nearby A-seam deep mine were less
stringent than the requirements for a surface mine on Parcel
55. Id. at 3.
3

"Our scope of review of a trial court's dismissal of
preliminary objections to a petition for appointment of a
board of viewers is limited to determining whether the
trial court's findings are supported by competent evidence
in the record, whether the trial court abused its discretion or
whether it committed an error of law." In re Condemnation by
Department of Transportation, Of Right-of Way for State Route
0079, Section 290, A Limited Access Highway in Township of
Cranberry, 805 A.2d 59, 63 n.3 (Pa. Cmwlth. 2002).

93a
coal underlying Parcel 55 was not mineable because it
was unlikely to be permitted by DEP, where such
questions should have been decided by the board of
viewers during the valuation stage; and (3) the record
lacked substantial evidence to support the trial court's
conclusion that the Coal Companies' ability to obtain
approval from DEP for a surface mining permit for
Parcel 55 was speculative and uncertain.
Initially, we note that in de facto taking cases
"[a]n owner of a property interest who asserts that the
owner's property interest has been condemned
without the filing of a declaration of taking may file
a petition for the appointment of viewers ...." Section
502 of the Eminent Domain Code, 26 Pa.C.S. §502(c).
The trial court shall then "determine whether a
condemnation has occurred, and, if the court
determines that a condemnation has occurred, the
court shall determine the condemnation date and the
extent and nature of any property interest
condemned." Id. "Preliminary objections are the
exclusive method under the Code of raising
objections to a petition for the appointment of a
board of viewers alleging a de facto taking." Genter
v. Blair County Convention and Sports Facilities
Authority, 805 A.2d 51, 55 n.6 (Pa. Cmwlth. 2002).
Once the trial court has determined that a de facto
taking has occurred, it shall appoint a board of
viewers to determine the just compensation
damages to be awarded the property owner. See
Sections 502, 504, and 701 of the Eminent Domain
Code, 26 Pa.C.S. §§502, 504, 701.
In general, "the right of access to and from a
public highway is a property right of which the
owner of the property abutting the highway cannot
be deprived without just compensation." Wolf v.
Department of Highways, 220 A.2d 868, 817 (Pa.

94a
1966). "Where land is taken or purchased for
highways, the abutting owner retains, as an incident
to ownership of the remainder of his land, the right of
access, or of ingress and egress. This right cannot be
taken from him unless compensation is made therefor
under the law." Id; see also McElwee v.
Southeastern
Pennsylvania
Transportation
Authority, 948 A.2d 762, 775-76 (Pa. 2008)
(concluding that every property owner retains the
right of access from a public highway, which
includes the right to reasonable ingress and egress);
York Road Realty Co., L.P. v. Cheltenham
Township, 136 A.3d 1047, 1054 (Pa. Cmwlth. 2016)
(same). Further, we have held that a de facto taking
occurs when the construction of a highway results
in a landowner's property becoming landlocked.
See In re Condemnation by Department of
Transportation, of Right of Way for State Route
0079, Section WJ0, 727 A.2d 618, 624 (Pa. Cmwlth.
1999).
A. Whether Alternative Access was Available for
Parcel 55
We first address whether the trial court erred
in concluding that alternative access was available to
the Coal Companies to mine Parcel 55. The Coal
Companies argue that it is settled law in
Pennsylvania that loss of access to one's property
caused by a governmental entity is compensable as a
de facto taking.4 They assert that the construction of
4

The Coal Companies also argue that the trial court
erred in concluding that Parcel 55 previously did not enjoy a
right-of-way over Parcels 50 and 54; that PennDOT offered to
construct a temporary bridge for the Coal Companies over
Route 219, which would obviate any loss of access; and that
the Coal Companies could not have obtained an HOP for the

95a
Route 219 severed the existing right-of-way for Parcel
55, across Parcels 50 and 54, and that the loss of the
right-of-way resulted in a de facto taking of all of
Parcel 55. The Coal Companies contend that the trial
court erred in concluding the Shaffer Lease provided
the Coal Companies alternative access to Parcel 55 by
granting them the right to access the coal underlying
Parcel 55 via the surface of Parcel 59 and Mud Pike
Road. The Coal Companies maintain that under the
plain language of the Shaffer Lease they did not enjoy
a right-of-way across the surface of Parcel 59 for
Parcel 55. In contrast, PennDOT argues that the
Shaffer Lease and its attached exhibit provided the
Coal Companies the right to transport coal from
Parcel 55 across Parcel 59 to Mud Pike Road.

1. Relevant Principles of Contract Law
It is well-established that "the interpretation of
any contract is a question of law and this Com1's
scope of review is plenary." Southwestern Energy
Production Co. v. Forest Resources, LLC, 83 A.3d 177,
187 (Pa. Super. 2013). Thus, "we need not defer to
the conclusions of the trial court and are free to draw
our own inferences." Id.
"[A] lease is in the nature of a contract and is
right-of-way over Parcels 50 and 54. Because the trial court
concluded that the Coal Companies previously did enjoy a
right-of- way over Parcels 50 and 54, that PennDOT did not
produce evidence that it offered to construct a temporary
bridge, and that it was not making a determination regarding
an HOP, we do not address these issues. (C.L. Nos. 87-88;
Trial court 1925(a) op. at 1-2.)

96a
controlled by principles ofcontract law." T W Phillips
Gas & Oil Co. v. Jedlicka, 42 A.3d 261, 267 (Pa.
2012). Therefore, "it must be construed in
accordance with the terms of the agreement as
manifestly expressed, and the accepted and plain
meaning of the language used, rather than the silent
intentions of the contracting parties, determines the
construction to be given the agreement." Id. (internal
quotation marks omitted); see also Southwestern
Energy Production, 83 A.3d at 187 ("In interpreting
a contract, the ultimate goal is to ascertain and give
effect to the intent of the parties as reasonably
manifested by the language of their written
agreement."). Moreover, "[i]t is well established that
theintent of the parties to a written contract is to
be regarded as being embodied in the writing itself,
and when the words are clear and unambiguous the
intent is to be discovered only from the express
language of the agreement." Steuart v. McChesney,
444 A.2d 659, 661 (Pa. 1982). "[W]hen a written
contract is clear and unequivocal, itsmeaning must be
determined by its contents alone. It speaks for itself
and a meaning cannot be given to it other than that
expressed." Id. (internal quotation marks omitted).
Further, "[w]here the intention of the parties
is clear, there is no need toresort to extrinsic aids or
evidence." Id. Accordingly, "where language is clear
and unambiguous, the focus of interpretation is
upon the terms of the agreement as manifestly
expressed, rather than as, perhaps, silently
intended." Id.; see also Southwestern Energy
Production, 83 A.3d at 187 ("When construing
agreements involving clear and unambiguous terms,
this Court need only examine the writing itself to give
effect to the parties' understanding. The Court must
construe the contract only as written and may not

97a
modify the plain meaning under the guise of
interpretation."). Where an agreement contains an
integration clause and there is no apparent
ambiguity or vagueness in the language of a lease,
parol evidence is inadmissible to explain or vary the
terms of the agreement. Humberston v. Chevron U
S.A., Inc., 75 A.3d 504, 512 (Pa. Super. 2013).
2.

Relevant Principles of Mineral Rights
Law
Several basic and long-standing principles of
coal and mineral rights are also instructive for this
case. First, it is axiomatic that "one who has the
exclusive right to mine coal upon a tract of land has
the right of possession even as against the owner of
the soil so far as it is necessary to carry on his
mining operations." Baker v. Pittsburg, C. & WR.
Co., 68 A. 1014, 1015 (Pa. 1908). "A grant of minerals
implies the right to win them from the underlying
soil" and "[t]he use of some portion of the surface is
necessary for the proper enjoyment of this right."
Id. at 1015-16. Since accessing the minerals
requires a miner to "pass from the surface
downward," the miner is granted "a right of way of
necessity," which allows it to "sink through such
land from the surface to the mines in order to reach
and work them." Id. at 1016. Thus, "[a]n express
grant of all the minerals and mining rights in a
tract of land is by natural implication the grant also
of the right to open and work the mines, and to
occupy for those purposes as much of the surface as
may be reasonably necessary." Id. Similarly, in
Chartiers Block Coal Co. v. Mellon, 25 A. 597 (Pa.
1893), our Supreme Court noted that "[a]s against
the owner of the surface," the owner of the coal
estate has

98a
the right, without any express words
of grant for that purpose, to go upon
the surface to open a way by shaft,
or drift, or well, to his underlying
estate, and to occupy so much of the
surface beyond the limits of his
shaft, drift, or well, as might be
necessary to operate his estate, and
to remove the product thereof.
Id. at 598; see also Belden & Blake Corp. v.
Department of Conservation and Natural Resources,
969 A.2d 528, 532 (Pa. 2009) (holding that "[o]ne who
has the exclusive right to mine coal upon a tract of
land has the right of possession even as against the
owner of the soil, so far as it is necessary to carry on
mining operations" (internal quotation marks
omitted)).
Consequently, under Pennsylvania law, an
owner of coal rights has the implied right to use as
much of the surface property as necessary for mining
operations, but "what is necessary and reasonable
may be determined by reference to what is customary,
and is a question of fact." Oberly v. H C. Frick Coke
Co., 104 A. 864,864 (Pa. 1918). The right to use as
much of the surface as necessary for mining
operations, however, must "be exercised with due
regard to the owner of the surface, and its exercise will
be restrained within proper limits by a court of equity,
if this becomes necessary." Chartiers Block Coal Co.,
25 A. at 598.
In general, "a grantee of coal in place, with
license to mine and remove it, in the absence of
express stipulation, may, at any time, before the
coal is all removed, use the passage opened for
its removal for the transportation of coal from his

99a
adjoining lands." Westerman v. Pennsylvania Salt
Manufacturing Co., 103 A. 539, 541 (Pa. 1918)
(emphasis added). Therefore, where
the coal has not been exhausted or the
estate abandoned, the space left by the
removal of the coal belongs to the
owner of the coal [and] . . . until that
estate is terminated by the exhaustion
of the coal, or lost by abandonment, the
vendee is entitled to the possession of
the coal, and also of the space made
by its removal, and may use such
space in transporting coal from
other lands.
Kormuth v. United States Steel Co., 108 A.2d 907, 909
(Pa. 1954) (emphasis in original); see also Lillibridge
v. Lackawanna Coal Co., 22 A. 1035, 1038 (Pa. 1891)
(concluding that if an owner of coal desires to use
the passageways created by his previous mining of
the enclosed minerals of the coal estate "as a
thoroughfare for the carriage of minerals gotten out of
his adjoining land" instead of mining the remaining
minerals on the estate, "he is entitled to do so").
However, this "rule is different in the case of a
right of way upon the surface of land, which is
incorporeal and can be used only for the purpose
specified in the grant." Westerman, 103 A. at 541
(emphasis added). Thus, "[w]here a vendor of the
surface reserves the coal, with no stipulation as to the
mining thereof, he will be entitled to such use of the
surface as is necessary to make his reservation
effective ...; but, if he owns adjoining property,
through or over which it is practically possible to
mine and remove the reserved coal, he will not be
entitled to use for that purpose the conveyed

100a
surface." Friedline v. Hoffman, 115 A. 845, 846 (Pa.
1922) (emphasis added). This is because "[a] way of
access to property granted or reserved will be implied
only when necessary to give effect to the grant or
reservation." Id.; see also Weisfield v. Beale, 79 A. 878,
879 (Pa. 1911) (holding that when grantee bought the
coal under a certain tract of land he could haul coal
from other tracts through the mine passageways
under the land because they were his property, but
that he had no right to "the use of the surface of the
land for transporting coal from another tract" because
the grantee's right to use of the surface of the tract
was limited to transporting the coal from underneath
that tract); Vogel v. Webber, 28 A. 226, 227 (Pa. 1893)
(concluding that use of the surface of property was
restricted to transporting coal from underneath that
particular property and that there was no implied
right to transport coal mined from beneath other
properties on the surface of said property).
Accordingly, "[s)urface rights ... may be used for the
purpose only of mining under the premises
conveyed, and not as a means of removing minerals
from other lands." Oberly, 104 A. at 864 (emphasis
added). Of course, the limitation on surface rights may
"be changed by the terms of the contract.'' Id.
Similarly, in Shawville Coal Co. v. Menard,
421 A.2d 1099 (Pa. Super. 1980), the Superior Court
noted that "a grantor's conveyance of the right to
use the surface of his land to transport other coal
owned by the grantee is entirely separable from
any accompanying grant to mine the coal under the
tract itself." Id. at 1104 (emphasis added). The
court
explained
that
although
"[s]everal
Pennsylvania cases suggest that where a party is
granted the right to mine coal under a property it
also has an implicit if not explicit right to move

101a
other coal owned by it through the passageways
under the property while the coal is being
mined," this precept was "not applicable to the
transportation on the surface of other coal
owned by the grantee." Id. at 1104 n.4 (emphasis
added). Thus, the court determined that "[a]ny
additional use of the surface beyond that needed to
mine the coal under the land itself imposes an
encumbrance that will not be implied unless
explicitly made a part of the agreement
between the parties." Id. (emphasis added).
Ordinarily, when a property owner grants
the right to another to remove minerals beneath the
surface, "he receives 'rents or royalties'[, but] when
he permits minerals from adjoining lands to be
transported over the surface of his own lands, he
receives 'wheelage' for the privilege granted."
Robinson v. Stover, 182 A. 145, 146 (Pa. 1936).
Hence, "[t]he consideration in the first instance is
the marketing of his minerals, but in the latter
case, as he has no interest in the removal of
such foreign minerals, the consideration is the
hindrance to his full enjoyment of the surface of his
lands." Id. (emphasis added); see also Shawville
Coal Co., 421 A.2d at 1104 (same). Thus, the grant
of wheelage rights for the transportation of coal
from adjoining lands evidences an intention to
permit the same. See id.
3. The Shaffer Lease
Here, the Shaffer Lease for Parcel 59 provides,
in pertinent part, as follows:
THIS AGREEMENT, entered into
the 24th day of July, 2006, (herein
after
referred
to
herein
as

102a
"Agreement") by and between, Jean
C. Shaffer ... hereinafter referred to
as "Lessor", and PBS Coals, Inc., a
Delaware corporation ... hereinafter
called "Lessee."
WITNESSETH:
WHEREAS, the Lessor is the owner
of a 100% interest in certain surface
tracts located in Brothersvalley
Township,
Somerset
County,
Pennsylvania, together with the
mining rights applicable thereto,
which is more specifically described
in Exhibit "A" (hereinafter the
"Premises"); and
1.
Lease. The Lessor does
hereby demise, lease and let unto
Lessee, and Lessee does hereby lease
from Lessor, under the terms and
rentals and upon the covenants,
conditions
and
agreements
hereinafter contained, all of the
surface tracts which can be mined
and coal removed by the deep, strip,
auger or highwall mining methods,
together with all mining rights and
privileges applicable to the coal
herein demised as are vested in
Lessor or as may be hereafter
acquired. In addition, Lessor agrees
to execute and sign any documents
required to be signed by Lessor,
as requested by Lessee, in
connection with obtaining or

103a
maintaining a mining permit on
the Premises, including but not
limited to, a landowner consent form.
2.
Term. The term of this
Lease shall commence as of the date
above and shall continue in full force
and effect for a period of seven (7)
years and so long thereafter as active
mining is being conducted on the
Premises or on a mine which has or
will include the Premises.
In the
event all of the mineable and
merchantable coal herein demised
shall have been fully mined and
recovered from the Premises, and no
other conditions exist that would
entitle Lessee to continue this Lease,
this Lease shall terminate.
3.

***
Royalties
***

(C). Deep Min Wheelage: In the event
Lessee opens a deep mine on the
Premises and coal is mined and
removed by the deep mining method
from the aforesaid Premises, the
Lessee agrees to pay the Lessor a
Wheelage Royalty of TEN CENTS
($0.10) per raw ton of 2,000 pounds, for
all mineable and merchantable coal
which is mined and removed from the
deep mine opening....

104a

***
Final Agreement: No
Oral Modification. This Lease is the
final, integrated agreement of the
parties and sets forth all of the terms,
covenants, conditions, or provisions
agreed upon by the parties hereto, and
there are no conditions, or provisions
with respect to the coal demised
hereunder or with respect to the coal
rights or any other rights or privileges
appertaining thereto, other than those
set forth in this Lease.

15.

(Shaffer Lease, S.R.R. at 60b-62b, 68b-69b)
(emphasis added). In addition, Exhibit "A" to the
Shaffer Lease shows the Shaffers' property, i.e., Parcel
59, with a "Proposed Haul Road Location" leading to
Mud Pike Road on the northern portion of the parcel.
(Shaffer Lease, Exhibit "A," S.R.R. at 71b.) Exhibit
"A" also identifies a shaded "Area to be Affected" by
the mine and a "Proposed Augering Area" of the mine;
neither of the shaded parcels appear to include
Parcel 55. Id.

4. The Parties' Arguments
The Coal Companies argue that the trial
court erred in construing the language of Paragraph
1 of the Shaffer Lease, which requires the Shaffers to
execute any necessary documents, as granting the
Coal Companies a right to access the coal
underlying Parcel 55 via the surface of Parcel 59.
The Coal Companies contend that Paragraph 1 did

105a
not grant PBS Coals any rights beyond the
geographic limitations ofthe Shaffer property. They
similarly argue that the trial court erred in concluding
that Paragraphs 2 and 3(C) grant PBS Coals the
right to use the surface of Parcel 59 to access Parcel
55. The Coal Companies further argue that under
the integration clause in Paragraph 15, parol
evidence was inadmissible and, therefore, the trial
court erred in relying on the same to interpret the
lease. Additionally, the Coal Companies assert that
Exhibit "A" does not provide support for the trial
court's interpretation because both the "haul road"
and "area to be affected" are exclusively within the
Shaffer Property, i.e., Parcel 59. In sum, the Coal
Companies assert that because the Shaffer Lease did
not grant them alternative access to Parcel 55, a de
facto taking of Parcel 55 occurred.
Conversely, PennDOT contends that Exhibit
"A" supports the trial court's interpretation because it
depicts a proposed surface mine that includes Parcels
59, 56, and 55 with a haul road leading to Mud Pike
Road and, therefore, PBS Coals can use a right-of-way
on Parcel 59 to access Parcel 55. PennDOT also argues
that because Paragraph 1 grants PBS Coals the right
to mine all the coal from Parcel 59 along with any
"mining rights and privileges applicable to the coal . .
. or as may be hereafter acquired" and requires the
Shaffers to execute any documents required for a
mining permit, the Shaffers must allow PBS Coals the
right to access Parcel 55. Specifically, because rightsof-way are required for DEP surface mining permits
and a single mining permit would have been issued for
a multi-parcel mine, PennDOT alleges that PBS
Coals has the right to access a mine on Parcel 55 from
Parcel 59. (Shaffer Lease, S.R.R. at 606.) PennDOT
claims that because the lack of access to remove coal

106a
from Parcel 55 would negate PBS Coals' ability to
obtain a permit for the whole project, the Shaffers
are required to permit PBS Coals to access Parcel
55 via Parcel 59.
PennDOT similarly claims that Paragraph 2
grants PBS Coals the right to access Parcel 55 from
Parcel 59 because it gives PBS Coals the right to
conduct active mining "on the Premises or on a
mine which has or will include the Premises."
(Shaffer Lease, S.R.R. at 61b.) PennDOT asserts that
this language contemplates a multi-parcel mine and
that the lease remains active so long as PBS Coals
continues to mine any of the parcels. Because the
Shaffer Lease grants alternative access to Parcel 55
from Parcel 59, PennDOT argues that the Coal
Companies have not demonstrated that PennDOT'
s conduct resulted in a de facto taking.

5. Analysis
Here, the plain language of the Shaffer Lease
does not manifest an intention to permit the Coal
Companies to access Parcel 55 by way of the surface
of Parcel 59. First, there is no express language in
the lease granting PBS Coals the right to use the
surface of Parcel 59 to access Parcel 55 or crossreferencing the lease for Parcel 55. Second, the
language in the lease relied on by the trial court
does not establish that the parties intended to allow
PBS Coals to access Parcel 55 from the surface of
Parcel 59.
For example, while Paragraph 1 of the
Shaffer Lease, the grant clause, requires the
Shaffers to sign any documents requested by PBS
Coals in connection with maintaining a mining
permit, there is no language in Paragraph 1
explaining that PBS Coals intended to construct a

107a
mine on multiple parcels of property and/or that the
Shaffers must permit PBS Coals to access other
parcels of property from the surface of Parcel 59 as
part of the construction of a multi-parcel mine.
Similarly, although the trial court relied on the
language in Paragraph 2, which provides that the
term of the lease is "seven (7) years and so long
thereafter as mining is being conducted on the
Premises or on a mine which has or will include the
Premises,"5 this language does not explicitly
demonstrate that PBS Coals intended to build a
multi-parcel mine or that PBS Coals was entitled to
access other parcels of property from the surface of
Parcel 59. (Shaffer Lease, S.R.R. at 61b.) Merely
because Paragraph 2 extends the term of the lease as
long as mining is conducted on a mine including the
Premises does not establish that the parties intended
to grant or otherwise allow PBS Coals to access other
parcels from the surface of Parcel 59. Further, while
the trial court relied on Paragraph 2 in support of its
conclusion, Paragraph 2 only sets the term of the
lease; in contrast, Paragraph 1, the grant clause, is
completely silent with respect to whether the Shaffers
intended to grant PBS Coals the right to use the
surface of Parcel 59 to transport coal from other
properties.
Likewise, Paragraph 3(C) of the Shaffer
Lease does not support the trial court's holding.
Under Paragraph 3(C), in the event PBS Coals
opened a deep mineon the Premises, it agreed to pay
the Shaffers for "all mineable and merchantable coal
5

The term "Premises" in the lease is described as the property
owned by the Shaffers and also shown in Exhibit "A." (S.R.R.
at 60b, 71 b.)

108a
. . . mined and removed from the deep mine opening,"
meaning the Shaffers would receive compensation for
coal from other parcels that is removed from the deep
mine opening on their property. (S.R.R. at 626.)
However, PBS Coals envisioned a surface mine,
rather than a deep mine for Parcel 55, see F.F. Nos.
67-69, 78-79; R.R. at 37a, and the fact that PBS Coals
agreed to pay the Shaffers wheelage for coal removed
from a deep mine on Parcel 59 does not provide an
express indication that the parties either intended a
multi-parcel mine or that PBS Coals could access
other parcels from the surface of Parcel 59.
Moreover, Paragraph 3(C) provides no royalties
or wheelage to the Shaffers for any coal removed
from a surface mine on Parcel 55 that traverses
the surface of Parcel 59. As discussed in the
Robinson and Shawville Coal Co. cases, in general,
where a surface landowner grants the owner of the
coal estate the right to transport minerals from
adjoining properties over the surface of the
property, the surface landowner receives wheelage
as consideration. Although the grant of wheelage to
the Shaffers for the use of the surface of Parcel 59 to
remove coal from other tracts would provide strong
evidence that the parties intended to allow the Coal
Companies to use the surface for the same, the
Shaffer Lease does not provide wheelage for such
use. Accordingly, the absence of any grant of
wheelage to the Shaffers for the use of the surface of
their property indicates that the parties did not
intend to permit the same.
While the language in Paragraphs 2 and 3 of
the Shaffer Lease extending the term of the lease as
long as mining is being conducted on a mine including
the premises and granting the Shaffers wheelage for
coal removed from a deep mine opening could,

109a
potentially, be construed as establishing an intention
to construct a multi-parcel deep mine, the lease
undoubtedly does not exhibit an intention to allow
PBS Coals to access a separate surface mine on
Parcel 55 via the surface of Parcel 59. Because the coal
underlying Parcel 55 is too shallow for a deep mine,
the Coal Companies did not intend to access the coal
under Parcel 55 through the use of a deep mine. (R.R.
at 37a.) Instead, the Coal Companies planned on
constructing a separate surface mine on Parcel 55, id.,
and thus would have been required to access the coal
on Parcel 55 by way of the surface of Parcel 59.
However, the Shaffer Lease contains no explicit
language granting the Coal Companies the right to
use the surface of Parcel 59 to access a separate
surface mine on Parcel 55. Additionally, as discussed
previously, the right to access other properties from a
deep mine opening is very different and separable
from the right to use the surface of a property to access
other properties. See Friedline, 115 A. at 846; Oberly,
104 A. at 864; Westerman, 103 A. at 541; Weisfield, 79
A. at 879. Although the right to access adjoining
properties by way of the tunnels and passageways of
a deep mine may be implied, there is no such
implication with regard to accessing adjoining
properties by way of the surface.6 See Friedline, 115

6

The trial court relied on PBS Coals' internal "Mining Plan,"
which allegedly showed one mining operation spanning
multiple parcels, including Parcels 59, 56, and 55, in support
of its conclusion that the Shaffer Lease granted the Coal
Companies the right to access Parcel 55 from the surface of
Parcel 59. Yet, because there is no apparent ambiguity in the
Shaffer Lease regarding the use of the surface of Parcel 59 to
access Parcel 55, and the lease contains an integration clause,
the trial court erred to the extent it relied on parol evidence

110a
A. at 846; Oberly, 104 A. at 864; Westerman, 103 A.
at 541; Weisfield, 79 A. at 879.
Finally, Exhibit "A" to the Shaffer Lease,
which the trial court also relied on, does not support
the trial court's conclusion. On Exhibit "A," Parcel
55 is depicted on the lower-most portion of the
exhibit. The proposed haul road leading from Mud
Pike Road that is shown on the exhibit is
exclusively within Parcel 59 and does not reach any
other parcels, including Parcel 55.7 Further, the
"area to be affected" by the mine that is depicted on
Exhibit "A" appears exclusively within Parcel 59,
and does not encompass Parcel 55. Additionally,
although the "proposed augering area" on Exhibit
"A" appears to cover Parcel 59 and at least one
additional parcel, it does not include Parcel 55.
Because the proposed haul road and affected area
of the mine are not shown on Exhibit "A" as cutting
across or including Parcel 55, contrary to the trial
court opinion Exhibit "A" does not demonstrate that
the parties intended to permit PBS Coals to access
Parcel 55 by way of the surface of Parcel 59.
In short, because there is no explicit
language in the Shaffer Lease that provides the
Coal Companies a right-of-way across the surface of
Parcel 59 to access Parcel 55, the trial court erred
in concluding that the Shaffer Lease gave the Coal
Companies alternative access to Parcel 55. As our
to interpret that portion of the lease. See Humberston, 75 A.3d
at 512.
While Exhibit "A" to the Shaffer Lease suggests that Parcels 55
and 59 are adjacent to each other, several of the trial court
exhibits demonstrate otherwise. See, e.g., R.R. at 130a, 133a,
139a-l 40a. Thus, to access Parcel 55 from Parcel 59, PBS Coals
would have had to traverse Parcel 56. Id
7

111a
Supreme Court has repeatedly held, while the
owner of a coal estate has the right to use the
tunnels and passageways underlying the surface to
transport coal from adjoining properties, as long as
all the coal has not yet been removed, it has no implied
right to use the surface to transport coal from
adjoining properties. See Friedline, 115 A. at 846;
Oberly, 104 A. at 864; Westerman, 103 A. at 541;
Weisfield, 79 A. at 879. Thus, "[a]ny additional use of
the surface beyond that needed to mine the coal under
the land itself imposes an encumbrance that will not
be implied unless explicitly made a part of the
agreement between the parties." Shawville Coal Co.,
421 A.2d at 1104 n.4. Here, there is no explicit
language in the Shaffer Lease granting PBS Coals
the right to use the surface of Parcel 59 to transport
coal from either adjoining lands, or non-adjoining
lands, such as Parcel 55. Due to the lack of explicit
language, we must conclude that the parties did not
intend to grant PBS Coals the right to transport coal
from other properties across the surface of Parcel 59.
Consequently, the trial court erred in concluding (I)
the Shaffer Lease gave the Coal Companies
alternative access to Parcel 55 via Parcel 59; and (2)
that Parcel 55 was not landlocked because of
PennDOT's actions.
B. Whether the Trial Court Erred in Assessing
the Mineability of Parcel 55
1. The Parties' Arguments
Next, the Coal Companies argue that the
trial court erred in deciding at the preliminary
objections stage that the coal underlying Parcel 55
was not mineable, because it was unlikely to be
permitted by DEP, where such questions should
have been decided by the board of viewers during the

112a
valuation stage. The Coal Companies contend that
under the Eminent Domain Code,8 where a party
alleges a de facto taking has occurred and files a
petition for appointment of a board of viewers, the sole
issues before the trial court are whether or not a
taking has occurred and, if so, the extent and date of
the taking. After the trial court makes this threshold
determination, the matter proceeds to the board of
viewers, which determines the amount of damages.
The Coal Companies maintain that the trial court
erred by analyzing whether the coal underlying
Parcel 55 was capable of being mined because such
questions should have been left to the board of
viewers to decide at the damages stage.
The Coal Companies also claim that the trial
court erred in relying on Parker Avenue, L.P. v. City
of Philadelphia, 122 A.3d 483 (Pa. Cmwlth. 2015),
and In re Borough of Blakely, 25 A.3d 458 (Pa.
Cmwlth. 2011). According to the Coal Companies,
these cases involved whether a de facto taking was
"speculative and conjectural," i.e., whether a taking
was or was not likely to occur at some point in the
future, as opposed to the instant case where it is
beyond question that a taking has occurred, due to
the loss of access to Parcel 55. The Coal Companies
argue that the trial court erred by conflating a
"speculative and conjectural" de facto taking, with
the Coal Companies' supposed "speculative" ability
to obtain a mining permit. The Coal Companies
contend that a de facto taking has occurred because
their inability to mine Parcel 55 is the direct and
necessary adverse effect caused solely by the
construction of Route 219. The Coal Companies also
8

26 Pa.C.S. §§101-1106.

113a
argue that the trial court erred in relying on
Lehigh-Northampton Airport Authority v. Fuller,
862 A.2d 159 (Pa. 2004), and Condemnation of
23.015 Acres More or Less Known as Tax Map
(Showalter), 895 A.2d 76 (Pa. Cmwlth. 2006),
because those cases concerned the valuation of
condemned properties, rather than the threshold
question of whether a de facto taking had occurred,
which is decided at the preliminary objections
stage.
In contrast, PennDOT contends that under
our case law, a de facto taking occurs only when the
property owner demonstrates that there are
exceptional circumstances that substantially
deprive the property owner of the beneficial use and
enjoyment of the property and that the deprivation
is the immediate, necessary, and unavoidable
consequence of the exercise of the eminent domain
power. PennDOT argues that where a de facto
taking claim is based on a use that is speculative
and conjectural, eminent domain law does not provide
relief. PennDOT claims that in order to determine
whether a de facto taking occurred, the trial com1 was
required to inquire into whether the Coal Companies
had been substantially deprived of their beneficial
use of a property interest, which placed at issue their
ability to exploit the mineral estate underlying Parcel
55. Because the Coal Companies never filed any
permit applications for a surface mine on Parcel 55
and failed to perform the necessary preliminary
research, the trial court properly concluded that any
deprivation of a beneficial use in the property was too
speculative to constitute a de facto taking.
PennDOT contends that the instant case is
analogous to Parker Avenue and In re Petition of 1301
Filbert Ltd. Partnership for Appointment of Viewers,

114a
441 A.2d 1345 (Pa. Cmwlth. 1982), where we
determined that any potential deprivation of use was
too speculative to constitute a de facto taking. Because
the Coal Companies never applied for environmental
permits from DEP, and the issuance of any
hypothetical permits was merely speculative,
PennDOT argues that the Coal Companies' inability
to mine the parcels was not the direct and immediate
consequence of PennDOT's severing of the Parcel 55
right-of-way that resulted from the construction of
Route 219. According to PennDOT, the Coal
Companies cannot be deprived of a use when that use
was not permitted in the first place.
2. De Facto Taking Requirements
We have previously held that "[a] de facto
condemnation occurs when the entity clothed with the
power of eminent domain substantially deprives an
owner of the beneficial use and enjoyment of his
property." In re Condemnation by Department of
Transportation, of Right-of-Way for State Route
0079, Section 290, A Limited Access Highway in
Township
of
Cranberry
(Norberry
One
Condominium Association), 805 A.2d 59, 68 (Pa.
Cmwlth. 2002). Further, there are three elements
that a property owner must demonstrate to establish
a de facto taking. Id. "First, the condemnor must have
the power to condemn the property.
Second the
property owner must establish that there are
exceptional circumstances that substantially deprive
the property owner of the beneficial use and
enjoyment of the property." Id. (emphasis in original)
(internal citation omitted). Finally, "the property
owner must demonstrate that the deprivation is the
immediate, necessary and unavoidable consequence
of the exercise of the power to condemn." Id. "In a

115a
claim of a de facto taking, the property owner bears a
heavy burden of proof, and each case turns on its
unique factual matrix." Genter, 805 A.2d at 56.
"A de facto taking is not a physical seizure of
property; rather, it is an interference with one of the
rights of ownership that substantially deprives the
owner of the beneficial use of his property." In re
Borough of Blakely, 25 A.3d at 463. "The beneficial use
of a property includes not only its present use but all
potential uses including its highest and best use."
Gaughen v. Department of Transportation, 554 A.2d
1008, 1015 (Pa. Cmwlth. 1989). The burden is on the
property owner to prove "that the property is
adaptable for a use other than its current use and that
there is need for this other use." Id.
3. Speculative and Conjectural De Facto Taking
Cases
We have previously held that "where '[t]he
case ... is one in which the claim of de facto taking is
not only prospective but is also speculative and
conjectural ... our law of eminent domain does not in
its present posture, provide relief."' Parker Avenue,
122 A.3d at 491 (emphasis added) (quoting In re
Borough of Blakely, 25 A.3dat 467). For example, in
1301 Filbert, 441 A.2d at 1346, the property owner
filed a petition for appointment of a board of viewers
alleging that the City of Philadelphia's (City)
activities regarding a commuter tunnel project had
resulted in a de facto taking of the property owner's
hotel. Prior to the tunnel project, a partnership
purchased the hotel, which had been closed for
several years and was in a state of disrepair, with the
intention of renovating and reopening the hotel. Id. at
1348. The renovations ran into significant problems
including costs vastly exceeding the original estimates

116a
and contractor work stoppages due to the partnership
being delinquent in its payments. Id. Eventually the
partners sought outside financing to complete the
project; however, several prospective lenders backed
out because they were allegedly concerned that the
City's construction of the commuter tunnel would
interrupt the operation of the hotel and that,
therefore, the hotel would not be successful. Id. at
1350. Thereafter, the partnership defaulted on its
existing loans. Id. Although construction had not
commenced at the time the outside financing was
withdrawn, the construction of the tunnel was
estimated to last four years and the area directly in
front of the hotel was expected to be turned into a
giant pit that measured 38-feet-wide and 44-feetdeep. Id. at 1351.
In its de facto taking claim, the property owner
attempted to demonstrate that the hotel would have
been successful but because of the tunnel project,
patrons would have refused to stay at the hotel,
lenders would have refused to finance the hotel, and if
the hotel had opened, its business would have been
unable to survive four years of construction work in
front of the hotel. Id. at 1360. The trial court "rejected
as being doubtful, speculative and conjectural" that
the tunnel construction activity would deprive the
hotel of the business "it would need to survive even if
the hotel were able to open its doors for business
during the progress of the [t]unnel work." Id. at
1360. We agreed, concluding that the de facto taking
claim was "linked to an alleged injury that [was] not
only prospective but [was] also speculative and
conjectural." Id. (emphasis added). In affirming the
trial court, we also determined that the tunnel
construction had not deprived the property owners of
their access to the hotel. Id.

117a
In Borough of Blakely, 25 A.3d at 460, a
property owner alleged that a de facto taking
occurred when the Borough of Blakely installed a
PVC drainage pipe across its property, which
allegedly cut off vehicular access to a nearby road.
The property owner alleged that the loss of access
prevented him from building residential homes on
his property; however, he never spoke to an
architect about developing plans for the buildings,
never presented any plans to the borough planning
commission, and never talked to anyone about
obtaining any zoning permits, even though a
dimensional variance was needed Id. at 465-66. We
concluded that the trial court had correctly
dismissed the de facto taking claim because (1) the
borough never told the owner that he could not
build the homes; (2) the owner did not consult the
planning commission or submit any plans to the
borough; (3) the owner did not investigate what
storm water improvements would be needed to
build homes; (4) the owner did not explain why the
pipe could not be replaced; (5) the owner did not
explain why access was not possible from another
road abutting the property; (6) the owner did not
explain how he would obtain the necessary
variances; and (7) the owner did not explain why
he waited so long to bring his claim. Id. Thus, we
held that the owner's "claims of injury and
substantial deprivation of the use of his property
[were] speculative and conjectural." Id. at 467.
Finally, in Parker Avenue, 122 A.3d at 485, a
property
owner purchased a property in
Philadelphia with the intention of building 48
single-family detached homes. Because the
property was adjacent to an unimproved "paper
street,"
the property owner submitted two

118a
proposed ordinances to permit the paving of the
paper street and to revise the street's lines and
grades so that it would be capped by a cul-de- sac.
Id. After the ordinances were rejected by the
Philadelphia City Council, the property owner filed
a petition for appointment of a board of viewers
alleging that it had suffered a de facto
condemnation of the entire property, and the trial
court agreed. Id. at 487.
The City appealed, arguing that its alleged
inaction
in
not
enacting
the ordinances
authorizing paving to provide access to the
property did not give rise to a de facto taking and
that the alleged deprivation of use was too speculative
to be a taking. Id. at 487, 490. In contrast, the
property owner maintained it had been substantially
deprived of the use and enjoyment of its property
because the City's conduct resulted in its inability to
proceed with developing its property, and that the
deprivation of its beneficial use and enjoyment of the
property was not hypothetical because it paid a
substantial sum for the property and invested
significant time, money, and energy with architects,
engineers, and attorneys to proceed with the
development. Id. at 488, 491. We first determined that
the property owner "purchased the [p]roperty
knowing it was landlocked for the purposes of such
development as no paved, legally- open [City] Zoning
Code ... compliant street provided access for such use"
and knowing that it needed City Council's approval
before developing the property. Id. at 489-90
(emphasis added). Because "nothing was 'taken'
from [the property owner] that it had or legitimately
expected to get," we concluded that the trial court
erred in concluding a de facto taking had occurred. Id.
at 491.

119a
We also noted that when the property owner
purchased the property it was aware that the project
was a risky venture given the necessary approvals
needed and the community resistance, and that even
if the ordinances had passed, the property owner
would have needed to gain the approval of the board
of surveyors and planning commission. Id. at 491.
Given the community's resistance we determined the
board of surveyor's approval was speculative at best.
Id. Because the passage of the ordinance was not
assured and was not the only obstacle preventing the
property owner from developing a residential
subdivision on its property we concluded that the
failure to approve the ordinances did not constitute an
exceptional circumstance that deprived the owner of
the beneficial use and enjoyment of its property. Id.
We also determined that the property owner had not
met its burden of demonstrating "that the alleged
detriment, underlying the claim of de facto taking,
was the direct and necessary consequence of the
City's failure to pass a routine paving ordinance."
Id. (internal quotation marks omitted). Thus, in
Parker Avenue, we held that the lower court "erred in
concluding that developing a residential subdivision
was the highest and best use of the [p]roperty as the
record evidence established it was remote and
speculative."9 Id. at 491-92.
9

Two cases mentioned by the trial court also merit a brief
discussion. In Lehigh-Northampton Airport Authority, 862 A.2d
at 161, the Lehigh-Northampton Airport Authority filed a
declaration of taking with respect to a property on which the
property owner had sought to build a residential subdivision.
However, at the time of the taking, none of the subdivision
plans had been approved. Id. After a board of viewers was
appointed and valued the property, both parties appealed to
the trial court. Id. at 166. On appeal, the airport authority

120a

4. Analysis
argued that the trial court erred in admitting evidence of the
subdivision development approach to value the condemned
property because the subdivision did not have municipal
approval. However, we disagreed, concluding that the
property owners "showed that the land was ripe for
development, that their expectation of securing all of the
necessary zoning and other required permits was reasonable,
and that the development of the property was within the
reasonably foreseeable future." Id. We also determined that
evidence of the proposed subdivision plans was admissible to
establish the property's highest and best use. Id. at 168.
Similarly, in Showalter, 895 A.2d at 80, the Pennridge
School District filed a declaration of taking to condemn a
property. The property owners petitioned for a board of
viewers, and after the board held a hearing and issued a
report valuing the property, the property owners appealed
to the trial court. Id. The property owners argued that the best
use of their property was a residential subdivision; however,
the trial court did not permit evidence regarding the
property's value as a subdivision because it concluded that the
property owners had not taken meaningful steps to subdivide the
property. Id. at 84-85. On appeal, we determined that the record
revealed that the "best and most desirable use" for the property
was as a residential development and that the planning
authorities had been favorably disposed to permitting a
subdivision of the property before it was condemned. Id. at
85. We concluded that it was not necessary for the property
owners "to prove that all zoning and other permits had been
finally secured" and that "they only had to demonstrate that
their expectation for approval was reasonable, and that the
development was within the reasonably foreseeable future." Id.
Thus, we held the trial court had erred in not permitting the
valuation evidence. Id.
Because both of these cases were valuation cases
involving the compensation to be awarded following a
condemnation determination, and did not involve the separate
question of whether a de facto condemnation had occurred,
these cases are somewhat inapposite to the present discussion.

121a
The question of whether a trial court must
determine whether a coal property is likely to be
permitted by DEP when disposing of preliminary
objections filed in response to a petition for
appointment of a board of viewers does not appear to
have been ever addressed by this Court. However, the
three cases discussed above, in which we determined
that a taking had not occurred because the injury was
"speculative and conjectural," are distinguishable
from the instant case. For example, in 1301 Filbert,
the property owner argued that its hotel venture
failed due to the construction of a commuter tunnel
adjacent to the hotel; yet, the hotel never operated, it
was unclear whether the hotel would have been
successful, and there was evidence presented that the
property owners failed to obtain outside financing
because of mismanagement and cost overruns,
instead of the tunnel construction. 441 A.2d at 134950, 1359-60. We concluded that the link between the
tunnel project and the alleged injuries suffered by
the property owners was too speculative and
conjectural to constitute a taking and, also, that the
project did not deprive the property owners of
access to the hotel.
In Borough of Blakely, we concluded that the
property owner's claims of injury and substantial
deprivation of use were too speculative and
conjectural because he did not take any actions to
build residential homes on the property or obtain the
necessary governmental approvals and, importantly
for our case, did not explain why access to his
property was not possible from another road.
Similarly, in Parker Avenue, because the property
owner understood that his business venture was risky
and approval of the ordinances was far from certain,
we concluded that the property owner did not

122a
demonstrate that his injury was the direct
consequence of the City's actions.
These three cases all hinged, to a certain
degree, on the causation prong of the de facto taking
test, i.e., whether the substantial deprivation of use
was the "immediate, necessary and unavoidable
consequence of the exercise of the power to condemn."
Norberry One Condominium Association, 805 A.2d at
68. In all three cases, we determined that it was
speculative and conjectural that the deprivation of use
suffered by the property owners was the immediate
and necessary consequence of the condemnation
power. Moreover, in all three cases we took note of
the fact that the property owners had not been
deprived of access to their properties by the alleged
condemning entities. In both Borough of Blakely
and 1301 Filbert, we held that the property owners
had not demonstrated a loss of access; whereas, in
Parker Avenue, we held that the property owner
purchased the property knowing it was landlocked
and, thus, that the loss of access had not occurred
because of the City's actions.
In contrast here, because the construction of
Route 219 resulted in the Coal Companies'
complete loss of access to Parcel 55, it is beyond
question that the Coal Companies were deprived of
the use of their property as a direct and
immediate consequence of PennDOT's actions.
Since under our precedent the loss of access will
result in a de facto taking, see McElwee, 948 A.2d at
775-76, it would be irrational for us to conclude that
a de facto taking did not occur because the Coal
Companies did not prove that they were likely to
obtain a mining permit for Parcel 55. Unlike the
"speculative and conjectural" line of cases where
the connection between the injuries and the

123a
condemning entities' actions was too remote, in the
instant case the Coal Companies entered into
mineral leases for Parcel 55, which made them the
owners of the coal estate, see Schuster v.
Pennsylvania Turnpike Commission, 149 A.2d 447,
454- 55 (Pa. 1959), and were then deprived of all
access to Parcel 55 by PennDOT's actions. As a
result of the construction of Route 219, the right-ofway for Parcel 55 was severed and the property
became landlocked; accordingly, we conclude that a
de facto taking occurred.
This case is distinguishable from the
speculative and conjectural line of cases in one
further respect. In Borough of Blakely, 1301 Filbert,
and Parker Avenue,the property owners attempted
to demonstrate that the highest and best use of the
property was a use other than its present use at the
time of the taking. Conversely, here, the de facto
taking involves a coal estate, as evidenced by the
coal lease regarding Parcel 55, and there is no
dispute that coal exists underneath Parcel 55.
Given these facts, it would appear undeniable that
the highest and best use of the coal estate for Parcel
55 is for mining coal.
Under the trial court and PennDOT' s logic, the
owners of a coal estate would never be able to
demonstrate a de facto taking, at the preliminary
objections stage, unless they were able to prove that
they were likely to obtain a mining permit. However,
such a result would place a higher burden of proof on
owners of coal estates than owners of surface
properties and would effectively relegate owners of
coal estates to second class property owner status.
This is because, for de facto taking cases, coal estate
owners would not be able to prove that they suffered
a substantial deprivation in the use and enjoyment of

124a
their property, at the preliminary objections stage,
unless they could establish that DEP would issue a
mining permit; unlike surface property owners who do
not face any similar requirement to demonstrate a de
facto taking at the preliminary objections stage, even
if their property is relatively valueless or useless.
Pursuant to our precedent, because
PennDOT's actions resulted in the Coal Companies'
loss of access to Parcel 55 and the property
becoming landlocked, we conclude that a de facto
taking occurred. Thus, the trial court erred to the
extent it required the Coal Companies to
demonstrate that the coal was permittable and
mineable at the preliminary objections stage and
such questions should have been left to the board of
viewers to determine at the damages/valuation
stage.10

10

Because we determine t4at the trial court erred to the extent
it examined whether Parcel 55 was mineable and/or permittable
at the preliminary objections stage, it is unnecessary for us to
address the Coal Companies' third issue raised on appeal, i.e.,
whether the record lacked substantial evidence to support the
trial court's conclusion that the Coal Companies' ability to
obtain approval from DEP for a surface mining permit for
Parcel 55 was too speculative and uncertain. Nevertheless, we
wish to note that in de facto taking cases, "[s]ubstantial
evidence is relevant evidence that a reasonable mind might
consider adequate to support a conclusion." Department of
Transportation v. Agricultural Lands Condemnation Approval
Board, 5 A.3d 821, 830 (Pa. Cmwlth. 2010). In addition,
"substantial evidence requires more than a scintilla of
evidence or suspicion of the existence of a fact to be
established." Id. Further, determinations regarding witness
credibility and the weight of the evidence are made by the trial
court sitting as the finder-of-fact and this Court will not disturb
them on appeal. Beaver Falls Municipal Authority ex rel.
Penndale Water Line Extension v. Beaver Falls Municipal

125a
Conclusion
Based on the foregoing, the trial court erred in
concluding that Parcel 59 was not landlocked due to
PennDOT' s actions and that the Coal Companies had
alternative access to Parcel 55 by way of the surface
of Parcel 59. The trial court also erred in assessing
whether the coal underlying Parcel 55 was mineable
and permittable at the preliminary objections stage,
where such questions should have been left to the
board of viewers to decide at the damages stage.
Consequently, we reverse the trial court to the extent
it concluded a de facto taking did not occur. We reverse
the trial court's order sustaining PennDOT's
preliminary objections and remand to the trial court
to determine the extent and date of the taking within
the meaning of 26 Pa.C.S.§502(c)(2) and, thereafter,
to appoint a board of viewers to determine the amount
of damages, if any, to be awarded the Coal
Companies.
/s/ Patricia A. McCullough
Patricia A. McCullough, Judge

Authority, 960 A.2d 933,940 (Pa. Cmwlth . 2008); 1301 Filbert,
441 A.2d at 160.

126a
IN THE COMMONWEALTH COURT OF
PENNSYLVANIA
No. 140 C.D. 2018
Argued: February 14, 2019
PBS Coals, Inc. and Penn Pocahontas Coal Co.,
Appellants,
v.
Commonwealth of Pennsylvania, Department of
Transportation
ORDER
AND NOW, this 28th day of March, 2019, the
order of the Court of Common Pleas of Somerset
County (trial court), dated January 19, 2018, is
reversed. The matter is remanded to the trial court to
determine the extent and date of the taking within the
meaning of 26 Pa.C.S. §502(c)(2) and, thereafter, to
appoint a board of viewers to determine the amount of
damages, if any, to be awarded to PBS Coals, Inc. and
Penn Pocahontas Coal, Co.
Jurisdiction relinquished.
/s/ Patricia A. McCullough
Patricia A. McCullough, Judge
Certified from the Record
MAR 28 2019
And Order Exit

127a
APPENDIX E – OPINION, Pa.R.A.P. 1925
OPINION, COURT OF COMMON PLEAS OF
SOMERSET COUNTY, PENNSYLVANIA, FILED
APRIL 30, 2018
IN THE COURT OF COMMON PLEAS OF
SOMERSET COUNTY, PENNSYLVANIA
No. 98 CIVIL 2015
DATED: APRIL 26, 2018
FILED APRIL 30, 2018
PBS COALS, INC., AND PENN POCAHONTAS
COALS, CO.,
Plaintiff
v.
COMMONWEALTH OF PENNSYLVANIA,
DEPARTMENT OF TRANSPORTATION,
Defendant.
Pa.R.A.P.1925 OPINION
The Petitioners have appealed the Findings of
Fact and Conclusions of Law issued by this Court.
Those findings and conclusions represent this
Court's opinion and decision regarding the
Preliminary Objections raised by RespondentPennDOT to the claim of a taking of the Petitioner's
property rights in the nature of access for surface
mining of various coal seams. While the Court
generally supports and reinforces its underlying
decision, the following clarifications and, in some
instances corrections, should not be deemed to

128a
mitigate from the underlying decision.
With regard to the various allegations that
Parcel 50 does not directly abut the Garrett
Shortcut Road, we acknowledge that the Deed into
Penn Pocahontas Coal Co. consists of several
parcels which, when combined, do provide road
frontage from said road in sufficient width to
support a road access to support mining operations
on Parcel 55. While some confusion may arise from
various references to a 33-foot right-of-way
abutting the Garrett Shortcut Road, the depicted
road frontage gleaned from PennDOT's Highway
Map for Route 219 shows a sufficient width in
metes and bounds of dimension “D” of "Parcel 2" for
a Highway Occupancy Permit ["HOP"]. The Court's
conclusions in paragraphs 87 and 88 assert that a
sufficient right-of-way existed to access Parcel 55
by either Parcel 50 or Parcel 54. According]y,
Petitioner's
concerns
regarding
the
characterization of access from the Garrett
Shortcut Road in the factual findings are
unnecessary.
Petitioners claim error in the Court's
consideration of the existence or nonexistence of
a Highway Occupancy Permit. Notwithstanding
the discussion of factual findings related to the
Highway Occupancy Permit testimony and
documentary evidence, the Court makes no
conclusion that such a Permit could not be
obtained. Indeed, the Court's conclusion in
sustaining the Preliminary Objections is twofold;
other access is available from the West side of the
Route 219 corridor and the likelihood of obtaining
a Mining Permit is speculative and uncertain.

129a
Petitioners assert error in the Court's failure
to acknowledge that PennDOT never provided
Petitioners with an offer to provide a temporary
bridge across the highway either prior to or at the
time when PennDOT cut off Petitioner's access to
Parcel 55 from the Garrett Shortcut Road, and
that PennDOT had failed to make any such offer
up to the time of the hearing held in this case.
Accordingly, we do now acknowledge that there
was no proffered evidence of a prior offer for
placement of a temporary bridge. At the same time,
we find that the placement of such a bridge, if the
same were accepted by Petitioners, would obviate
the claim of Parcel 55 being a landlocked parcel
from the east in the first instance.
Petitioners next argue that the court erred in
its interpretation of the Shaffer Lease to include a
right, which does not exist in the lease, for PBS to
access surface mining properties other than
Shaffer's property, including Parcels 55 and 56.
The Court concludes that the express and implied
language of the lease as well as the other
circumstantial factors outlined in paragraphs 34
through 41 combine in confirmation that PBS
either had, or could readily obtain, access to Parcel
55. The statutory authorization providing for a
property owner's remedy has recently been
restated as set forth in the following:
Section 502(c) of the Eminent Domain
Code, 26 Pa. C.S. § 502(c), allows a
property owner to petition for viewers to
secure damages where a compensable
injury has been sustained as a result of a
condemnation by a condemnor that has not
filed a declaration of taking.4 In all cases, a

130a
party alleging a de facto taking bears a
heavy burden to establish that a de facto
taking has occurred and must allege and
prove three elements: 1) the alleged
condemnor has the power to condemn the
property; 2) there are exceptional
circumstances that have substantially
deprived the owner of the beneficial use
and enjoyment of his property; and 3) the
damage to the property interest was
the
immediate,
necessary,
and
unavoidable
consequence
of
the
exercise of the power to condemn (as
opposed to some action in the nature of a
tort). Williams v. Borough of Blakely, 25
A.3d 458, 463 (Pa Cmwlth. 2011). A de
facto taking "is not a physical seizure of
property; it is an interference with one of
the rights of ownership that substantially
deprives the owner of the beneficial use of
his property." Id
at 465. [Emphasis
Added]
In re LeFever, 1251 C.D. 2016, 2017 WL
2351080, at (Pa.Cmwlth. May 31, 2017)
There is ample evidence that prior to the
condemnation Petitioners had a plan to access
Parcel 55 by more than just proceeding westward
from Garrett Shortcut Road. The suggested
mining plans clearly show that planned access
was available from the north at Mud Pike Road.
In other words, in the context of factor number 3
above, the damage to Parcel 55 was not the
immediate,
necessary
and
unavoidable

131a
consequence of the taking of property for Route
219.
Petitioners next allege that the court erred
in Paragraph 76 in stating that there was a lack
of testimony that the Petitioner's experts had
studied stream and wetland impacts or performed
an over-burden analysis, which matters were
essential elements of the permit process. The court
acknowledges its statement as overly broad, and
therefore erroneous. The approval of the surface
component for the A Seam Deep Mine is, however,
far less exhaustive in its review and approval
process than the context of a complete surface
mine for the entire parcel. The former focuses on
displacing overburden at one fixed point to obtain
access for a deep mine portal. The latter requires
a review of the complete displacement of the
overburden on the entire tract and the ability to
assure that acid mine drainage can be avoided
during and after mining operations.
For the foregoing reasons and analysis the
Court denies error in its conclusions that the
Preliminary Objections should be sustained.
BY THE COURT
/s/ David C. Klementik
David C. Klementik, Senior Judge
Dated: April 26, 2018

132a
APPENDIX F – CONCISE STATEMENT OF
ERRORS COMPLAINED OF ON THIS APPEAL,
RE: TRIAL COURTS FINDINGS OF FACT AND
CONCLUSIONS OF LAW
FILED FEBRUARY 21, 2018
IN THE COURT OF COMMON PLEAS OF
SOMERSET COUNTY, PENNSYLVANIA
No. 98 CIVIL 2015
DATED: FEBRUARY 21, 2018
FILED FEBRUARY 21, 2018
PBS COALS, INC., AND PENN POCAHONTAS
COALS, CO.,
Plaintiff
v.
COMMONWEALTH OF PENNSYLVANIA,
DEPARTMENT OF TRANSPORTATION,
Defendant.
CONCISE STATEMENT OF ERRORS
COMPLAINED OF ON THIS APPEAL
AND NOW, comes the Appellants, PBS Coals,
Inc. (“PBS”) and Penn Pocahontas Coal, Co., (“Penn
Pocahontas,” and together “Plaintiffs/Condemnees”)
by their attorneys, Vincent J. Barbera and Michael P.
Barbera of the firm of Barbera, Melvin, Svonavec &
Sperlazza LLP, attorneys for PBS, and Robert P.
Lightcap, Esquire, attorney for Penn Pocahontas, and
file this concise statement of the errors complained of
on this appeal in compliance with the Order entered
by the Trial Court on January 31, 2018, as follows:

133a
1.
The Court erred in its Memorandum,
which the Court incorporated into its Order, by
making numerous conclusions of law within the
section of the Memorandum identified by the Court as
“Findings of Fact”, such as, but not limited to, the
Court’s interpretation of the Shaffer Lease which is a
conclusion of law.
2.
Paragraph 9 the Court’s Memorandum
erroneously states that “Parcel 50, however does not
directly adjoin Garrett Shortcut Road but rather is
connected by a right-of-way for a 33 foot wide road
access as found in Deed Book Volume 1854, Page 293.”
Parcel 50 does directly adjoin Garrett Shortcut Road
and has road frontage of 140 feet in addition to being
connected to Garrett Shortcut Road by right-of-way 33
feet wide as found in Deed Book Volume 1854, Page
293. While Stipulated Exhibit 19R does describe a 33
foot right-of-way in text, the Exhibit shows that Parcel
55 is owned by Penn Pocahontas and has a much
wider frontage on Garrett Shortcut Road than the 33
foot right-of-way described in the text of the exhibit.
Rather as to the owner of the surface, Penn
Pocahontas has frontage on Garrett Shortcut Road of
at least 140 feet (Barbera testimony T 3.63-3.67 and
Williams testimony T.3.78-3.79).
PennDOT’s
Highway Map for Route 219 shows Penn Pocahontas
road frontage on Garrett Shortcut Road to be in excess
of 140 feet. (Plaintiffs’ Exhibit 22 and Barbera
testimony T.3.64-3.65)
3.
The Court erred in Paragraph 10 of its
Memorandum in concluding that there is no specific
mention in the deed granting a fee simple interest in
the coal to Penn Pocahontas of rights-of-way across
Parcel No. 54 or 50. To the contrary, the deed includes

134a
“the appurtenances” which includes all rights-of-way
appurtenant to Parcel 55 which includes the right-ofway across Parcel Nos. 54 and 50. (Plaintiffs’ Exhibit
1) The Court further erred in placing any significance
on its conclusion concerning the deed because Penn
Pocahontas is the owner of the surface of Parcel 50,
which is adjacent to Parcel 55, and which provided
direct access from Parcel 55 to the Garrett Shortcut
Road independent of any rights-of-way across Parcel
54. (Williams testimony T.3.78-3.79 & PennDOT
Exhibit 19R and PennDOT Highway Map Plaintiffs’
Exhibit 22)
4.
The Court erred in Paragraph 11 of its
Memorandum in interpreting the Lease Agreement
entered into on May 31, 2006, between the owners of
the surface of Parcel Nos. 55 and 56 and PBS as to not
convey rights to cross Parcel 54 or otherwise address
access to the Garrett Shortcut Road and to the
contrary, the Lease provides not only the right to mine
but also to remove the coal from the premises and
otherwise contains any of Lessors’ right of access to
the Garrett Shortcut Road by virtue of the lease
terms. The Court further erred in placing any
significance upon its interpretation of the lease
because Penn Pocahontas is the owner of the surface
of Parcel 50, which is adjacent to Parcel 55, and which
provided direct access from Parcel 55 to the Garrett
Shortcut Road independent of any rights-of-way
across Parcel 54 and Parcel 50. (Williams testimony
T.3.78-3.79 & PennDOT Exhibit 19R and PennDOT
Highway Map Plaintiffs’ Exhibit 22)
5.
The Court erred with regard to
Paragraphs 12, 13 and 14 of its Memorandum to the
extent that it attached a significance or relevance to

135a
these points or used these points to reach a legal
conclusion that PBS did not have adequate surface
rights across Parcels 54 and 50 and therefore an
administrative deficiency would have existed if PBS
were to have filed a Permit Application as the Court
erroneously stated in Paragraph 74 of the
Memorandum, and Paragraphs 12, 13 and 14 are in
conflict with and contradict the Court’s Conclusion of
Law in paragraph 87 of the Memorandum, wherein,
the Court determined that a 50' right-of-way did exist
across Parcel 54.
6.
In Paragraph 16 and Paragraph 89 of the
Memorandum, the Court erred in referring to a Deed
in Lieu of Condemnation for State Route 219 as
causing the severance of Parcel 50, whereas the Court
was correct in stating that the Deed in Lieu of
Condemnation caused Parcel 54 to be bisected by the
location of State Route 219. Parcel 50 became bisected
by the location of State Route 219 by the Declaration
of Taking by PennDOT filed at No. 45 Misc. 2010 on
September 28, 2010. (Plaintiffs’ Exhibit 18)
7.
The Court erred in the Memorandum
and Order, including Paragraphs 17 through 23, in
considering the existence or nonexistence of a
Highway Occupancy Permit and the roadway access
adequacy from the Highway Occupancy Permit
standpoint in this proceeding since PennDOT failed to
raise this issue in PennDOT’s Preliminary Objections
and therefore the matter was not properly before the
Court for determination on Preliminary Objections
filed by PennDOT.
8.
The Court erred in Paragraph 20 of the
Memorandum by stating that the alleged right-of-way

136a
across Parcel 54 is 50 feet leading to a 16 foot right-ofway to Garrett Shortcut Road and in stating that the
acknowledged frontage of the access road onto the
State Highway System is a 16 foot access. To the
contrary, the testimony in the proceeding is that the
right-of-way across Parcel 54 is 50 feet in width and
Penn Pocahontas owned the surface of Parcel 50
which had frontage for the access road on to the State
Highway system, Garrett Shortcut Road, of at least
140 feet which was available to PBS as Penn
Pocahontas’ Lessee and the 140 feet is more than
sufficient frontage to satisfy the Highway Occupancy
Permit requirements. (Barbera testimony T.3.633.67, Williams testimony T.3.78-3.79, McCombie
testimony T.2.152-2.154)
9.
The Court erred in Finding of Fact No.
21 because Penn Pocahontas has applied for and has
obtained a HOP for Parcel 50 and Parcel 50 provides
both direct access to Parcel 55 and indirect assess to
Parcel 55 through Parcel 54. To the extent that the
Court relied on the fact that neither Penn Pocahontas
nor PBS had applied for a HOP for the Parcel 54 rightof-way, the same was in error in that no HOP would
have been required for Parcel 54, with the only HOP
required being for Parcel 50.
10.
The Court erred in Findings of Fact Nos.
22 and 23 because Petitioners not only suggested that
a HOP currently exists for access to Parcel 50 which
is available for use to haul coal from Parcel 55 to the
Garrett Shortcut Road but for the existence now of the
new Route 219 highway, but rather Petitioners
obtained the records from PennDOT under the Rightto-Know Act which proves that PennDOT was not
candid with the Court in claiming that no HOP exists

137a
for Parcel 50 and Petitioners filed a Motion to Reopen
the Record and provide the Court with the HOP for
Parcel 50 which provides access to the Garrett
Shortcut Road. The Court further erred by not ruling
on this Motion to Reopen the Record. The Court
further failed to acknowledge the continued existence
of the access road for which the Highway Occupancy
Permit was issued and the fact that the Highway
Occupancy Permit has no end date.
11.
The Court erred in Paragraphs No. 24
through 28 of the Memorandum by failing to
acknowledge that PennDOT never provided PBS or
Penn Pocahontas with an offer to provide a temporary
bridge across the highway either prior to or at the time
when PennDOT cut off PBS’ and Penn Pocahontas’
access to Parcel 55 and that PennDOT had failed to
make any such offer up to the time of the hearing held
in this case.
12.
The Court erred by interpreting the
Shaffer Lease to include a right, which does not exist
in the Lease, for PBS to access surface mining
properties other than Shaffer’s property, including
Parcels 55 and 56 by incorporating in the Lease,
where no such right exists in the plain language of the
Lease, a right in PBS to haul surface mined coal from
properties other than Shaffer, including Parcels 55
and 56, across Shaffer’s property. The Court further
erred by failing to acknowledge that the Lease
contained a provision for deep mine wheelage but not
for any surface mine wheelage.
13.
The Court erred in Paragraph 34 of its
Memorandum by failing to note that the language
referred to in Finding of Fact No. 34 is contained

138a
within the lease TERM portion of the Lease and no
language in that paragraph or in any other portion of
the Lease purported to grant access to any portion of
the surface of the Shaffer property for hauling surface
mined coal from property other than that owned by
Shaffer as listed in the Lease; and by failing to
acknowledge that there is a deep mine wheelage
provision in the Lease but no surface mine wheelage
provision in the Lease.
14.
The Court erred in Paragraph 36 of its
Memorandum, which ignores the stated and sole
purpose of Exhibit A in the Lease which is to describe
the surface tracts owned by the Lessor Jean C.
Shaffer, as set forth in the first Whereas clause of the
Lease.
15.
The Court erred in Paragraph 37 of its
Memorandum, in assigning any importance to the
mine plans that are included on Exhibit A but which
are simply surplusage since the only purpose of
Exhibit A was to describe the surface tracts owned by
Lessor which were being leased. Also the Court erred
in finding that the proposed haul road in any way tied
into any surface mine operations because it is only
physically connected to the area that is described as
“potential area for deep mine pit,” which was located
on the Shaffer property and the proposed haul road is
only located on the Shaffer property. (See also
Kudlawiec testimony T.3.39-3.40)
16.
The Court erred in Paragraphs 38
through 41 by taking PBS’ preliminary mining plans
and using them to create a right of access that did not
exist under the Shaffer Lease any more than it creates
a right in PBS to mine Parcel 50 and the Hoover

139a
property neither of which properties were under lease
on June 14, 2010 or September 28, 2010 but both of
which properties were included in the referred to
preliminary mine plan. (Williams testimony T.3.79;
Court’s Findings ¶ 42-48 of its Memorandum;
PennDOT Ex. 23) Furthermore, the Court erred in
relying on PennDOT Exhibit 23 which was only
offered to delineate wetlands and streams and which
PennDOT overlaid with PBS’ preliminary mining
plan which did not and could not create any property
right in PBS over the Shaffer property or elsewhere.
17.
The Court erred in Finding of Fact No.
74 in determining that PBS failed to prove that it had
adequate surface rights across Parcel Nos 54 and 50
and that this would constitute an administrative
deficiency if PBS were to have filed a permit
application. PBS owned surface rights as well as coal
rights at the time of the taking and these included the
right of entry. Penn Pocahontas, the Lessor of the coal
underlying Parcel 55, owned at least 140 feet of
frontage on the Garrett Shortcut Road and had a
Highway Occupancy Permit in place at the time of the
taking, along with ownership of Parcel 50, and PBS
was allowed to use that access for Parcel 55. Also, with
regard to the right-of-way over Parcel 54, the Court
acknowledged that PBS owned a 50' right-of-way
across Parcel 54 to reach Parcel 55 which was more
than sufficient in order to provide access to the coal
underlying Parcel 55 (see paragraph 87 of
Memorandum).
Therefore no administrative
deficiency for lack of securing proper surface rights of
entry existed at the time of the taking.
18.
The Court erred in Paragraph 75 of its
Memorandum by asserting that impediments existed

140a
in this case of failure to properly address potential
stream and wetland impacts and insufficient water
monitoring and sampling, contrary to the testimony of
Petitioners’ experts who testified that they already
had analyzed (as described in the next paragraph),
and would properly address potential stream and
wetland impacts and would conduct the necessary
background water monitoring and sampling when
preparing the permit application.
19.
The Court erred in Paragraph 76 in
stating that “There was no testimony that the
Petitioner’s experts have, to this point, studied stream
and wetland impacts or performed an over-burden
analysis, which matters are essential elements of the
permit process.”
To the contrary, Petitioners’
geologist Lou Pierce testified that he performed an
overburden analysis relative to Parcel 55 and that an
overburden analysis had been performed for the
surface component of the permitted A Seam Deep
Mine on Parcel 58, a very short distance north of
Parcel 55. (T.1.63-1.64; T.1.79-1.83) Thus the
statement that there was no over-burden analysis
performed is incorrect, with the over-burden analysis
results being Attachments 10 and 10A to Plaintiffs’
Exhibit 15. The PA DEP approved the A Seam Deep
Mine with its surface component, which constitutes
surface mining, after considering the over-burden
analysis. With regard to stream and wetland impacts
the Petitioners’ experts used USGS Topographic
Quads to determine that there were no streams on the
property. (T.1.83-1.84, T.3.41-3.42) Plaintiffs’ experts
also studied the Federal Wetlands Inventory Map to
determine that there was only one possible wetland
less than 2 acres on the property and they considered

141a
the cost of rebuilding the wetland in the mining plan.
(T.1.84)
20.
The Court erred in Finding of Fact No.
78 in that it took Mr. Sammarco’s testimony out of
context since Mr. Sammarco testified that he could
never provide an opinion as to whether or not he
would grant any permit for any property unless it was
submitted and in front of him.
21.
The Court erred in Paragraphs 77, 79
and 80 in considering comments made 12 years earlier
by a person who did not testify in this case, who was
speaking only in general terms about a coal seam and
whose only specific comments were with regard to an
old mining operation that was far to the south of the
project in question, did not include any specific
analysis of Parcel 55 and in the process the Court
ignored the testimony that there were no post-mining
acid mine discharges and no environmental issues
from the closed Black Mountain Mine that is located
on the parcel immediately adjacent to Parcel 55 and
the Court ignored the fact that a permit for the surface
mining component of the A Seam Deep Mine was
issued by PA DEP based upon the same modern
surface mining techniques planned by the Petitioners’
experts for the proposed Parcel 55 surface mine.
(T.1.63-1.64; T.1.108; T.1.179-1.183) Furthermore,
the Court erred by failing to acknowledge that the
statements made by the author of that 12 year old
note were never made a part of any official PA DEP
position.
22.
The Court erred in Paragraph 87 of its
Memorandum where it appears that the Court set
forth PBS’ right-of-way that existed through its

142a
surface lessors which more correctly should read that
on June 10, 2010, a right-of-way existed in PBS
leading from Parcel 55 consisting of a 50 foot right-ofway across Parcel 54 and then a 16 foot right-of-way
across Parcel 50 to the Garrett Shortcut Road as
granted in the documents that include Estate No. 85
of 1975 and Deed Book Volume 885, Page 30. The
Court further erred by failing to include the additional
access that PBS had across Parcel 50 owned by Lessor
Penn Pocahontas that would be available to remove
coal across Parcel 50 leading from Parcel 55 to the
Garrett Shortcut Road.
23.
The Court erred in paragraph 88 in
finding that Penn Pocahontas only had a 33 foot rightof-way to Garrett Shortcut Road as found in Deed
Book Volume 1854, Page 293, when the uncontradicted evidence indicates that, in addition to
this right-of-way, Penn Pocahontas owned 140 feet of
road frontage on Garrett Shortcut Road at which
location Penn Pocahontas has an existing haul road.
24.
The Court erred in Paragraph 93 of its
Memorandum in its statement, which is a conclusion
of law, that “PBS, by virtue of its July 24, 2006, Lease
of the Jean C. Shaffer tract, Parcel 59, had access to
Parcels 55 and 56 as the same were contemplated for
inclusion in a multiple property mine permit.” To the
contrary, the Lease between PBS and Jean C. Shaffer
did not give PBS the right to access Parcels 55 and 56
through Parcel 59 and did not give PBS the right to
carry surface mined coal across Parcel 59 from Parcels
55 or 56 as more fully explained in paragraphs 12
through 16 above.

143a
25.
The Court erred in its statement in
Paragraph 94 of its Memorandum, which is a
conclusion of law. Exhibit A only described the Lessor
Jean C. Shaffer’s property and did not create a right
to access Parcels 55 and 56 from Parcel 59 or to carry
coal across the Shaffer property from a surface mine
on Parcels 55 or 56. The proposed haul road location
was not relevant to the purpose of Exhibit A which
was to describe the Lessor’s property, but even if
considered in some way to be relevant, which is
denied, it only showed a haul road to the mouth of the
proposed deep mine which was located on the Shaffer
property. Furthermore, the only right to carry coal
across Parcel 59 provided in the Lease is from a deep
mine, with the lease provision for wheelage to be paid
for deep mine coal, but no such provision for wheelage
is provided in the lease for surface mined coal.
26.
The Court erred in Paragraph 95 by
applying valuation standards in de jure condemnation
cases, on which jury verdicts were entered, to the
determination of Preliminary Objections in this de
facto taking case, where the only proper issues before
the Court were whether or not a taking had occurred
and if so, the extent of the taking and the date of the
taking. Furthermore, the Court erred in its statement
of the requirements for use of the lot development
appraisal or developers residual approach in the
valuation process in an eminent domain case.
27.
The Court committed errors of law in
Paragraph 96 wherein the Court acknowledged that
the cases referred to in the prior conclusion of law
were valuation cases but the Court erroneously
engaged in an evaluation of the likelihood of a surface
mining permit being issued for the property at the

144a
Preliminary Objection stage rather than at the
valuation stage. The issue of the likelihood of the
issuance of a surface mining permit is only relevant at
the valuation stage of a case. The Court further erred
in Paragraph 96 in its statement that the Petitioners’
experts’ opinion that the property could be permitted
was “based primarily on their experience in their
respective fields rather than the specific underlying
facts for which the property would be ultimately
scrutinized by PA DEP.” As more fully described in
Paragraphs 18 and 19 above, the opinions of the
Petitioners’ experts were not only based on their
experience in their respective fields but also on the
specific underlying facts for the property. The Court
further erred in Paragraph 96 by relying upon notes
made 12 years ago by a person who did not testify in
this case, whose notes exhibited no knowledge of the
facts of this property or of the nearby closed Black
Mountain Mine, or of the nearby permitted surface
component of the A Seam Deep Mine, while the Court
disregarded the unopposed expert opinions of
Petitioner’s acknowledged mine permitting experts.
Further the Court erred in its comments and
conclusions concerning Job 21 which is not nearby but
rather some distance away from Parcel 55, was mined
long ago and regarding which there was no evidence
that the method of mining was in any way similar to
the methods proposed by Petitioners’ experts
including special handling of spoils and alkaline
additionally to neutralize the over-burden and
prevent any negative environmental impacts. (T.1.791.83)
28.
The Court erred as a matter of law in
Paragraph 97 of its Memorandum in that the Court
should not have considered the likelihood of issuance

145a
of a surface mine permit for the property at the
Preliminary Objections stage of the eminent domain
proceedings but rather it is only a matter to be
considered by the finder of fact at the valuation stage
of the eminent domain proceeding. The Court further
erred in its determination that the Petitioners’ ability
to obtain a surface mine permit from the Cambria
District Main Office for Parcel 55 is speculative and
uncertain and accordingly incapable of supporting a
claim for the taking of a property right by PennDOT
due to the location of State Route 219. The Petitioners
established through their evidence including the
testimony of the testifying experts, who are
recognized as experts in the field of surface mine
permitting, that it was reasonably likely that the
Petitioners would be able to obtain a surface mine
permit for Parcel 55 and there was no testimony by
the Defendant to the contrary.
29.
The Court erred in its Order dated
January 19, 2018, in its determination that
reasonable access to Parcel 55 had not been denied by
virtue of the Route 219 placement, the Court erred in
its determination that the ability to obtain a surface
mine permit is speculative and uncertain due to the
hydrologic and other environmental factors, and the
Court erred in even considering the ability to obtain a
surface mining permit at the Preliminary Objection
stage of the proceedings since this is a matter to be
determined by the Finder of Fact at the valuation
stage of the eminent domain proceedings.

146a
BARBERA, MELVIN, & SVONAVEC, LLP
By:__/s/ Vincent J. Barbera________________
Vincent J. Barbera, Esq.
Court Adm. Cert. No.: 34441
Attorney for PBS Coals, Inc.
/s/ Robert P. Lightcap________________
Robert P. Lightcap, Esquire
I.D. No. 05787
Attorney for Penn Pocahontas Coal, Co.
Dated: February 21, 2018

147a
APPENDIX G – MEMORANDUM, FINDINGS OF
FACT AND CONCLUSIONS OF LAW, AND
ORDER SUSTAINING PRELIMINARY
OBJECTIONS AND DISMISSAL OF PETITION
FILED JANUARY 23, 2018
IN THE COURT OF COMMON PLEAS OF
SOMERSET COUNTY, PENNSYLVANIA
No. 98 CIVIL 2015
EMINENT DOMAIN PROCEEDINGS
PENNDOT PARCEL NO. 55
DATED: JANUARY 19, 2018
FILED: JANUARY 23, 2018
PBS COALS, INC., AND PENN POCAHONTAS
COALS, CO.,
Plaintiffs/Condemnees
v.
COMMONWEALTH OF PENNSYLVANIA,
DEPARTMENT OF TRANSPORTATION,
Defendant/Condemnor.
MEMORANDUM
Before the court are Preliminary Objections
filed by the Commonwealth of Pennsylvania,
Department of Transportation to a Petition under 26
Pa.C.S.A.§502(c) For the Appointment of Board of
Viewers Where No Declaration of Taking Has Been
Filed. Because the Preliminary Objections are in
the nature of a demurrer, we are instructed that

148a
the role of such preliminary objections should be
of the same scope and serve the same purpose
as that assigned to preliminary objections to a
formal declaration of taking. We are required to
pass upon the sufficiency of the petition in stating
a cause of action upon the legal theory pleaded, and
if sufficient evidence is needed, we may conduct an
evidentiary hearing to resolve the issues. Nether
Providence Township v. Jacobs, 297 A.2d 550
(Pa.Cmwlth. 1972) Accordingly, we present the
following Findings of Fact and Conclusions of Law
from the evidentiary hearings conducted in this
matter.
In general terms, the case regards the
isolation of access to a certain tract of coal
underlying a parcel (hereinafter "Parcel 55") for
which no surface taking was involved. In the
construction of Route 219 in southern Somerset
County the Respondent, PennDOT, condemned
land in a north-south direction for the limited
access highway, thereby severing the alleged sole
Parcel 55 right-of-way access which traversed in an
east-west direction. Petitioners argue that the
severance of the single access by right-of-way from
a public road to the coal parcel amounts to a
compensable claim.1 Other companion cases regard
direct coal condemnation beneath the highway,
surface support therefor, and other deep mine
1

The Petition refers to ''the only access'' to Parcel 55 being
across an adjoining Parcel 54; however, at trial and in its
proposed findings of fact and conclusions of law, Petitioners
argue the availability of a second severed right-of-way across
Parcel 50 which is owned by one of the Petitioner's, Penn
Pocahontas Coal Company.

149a
access for coal owned or leased by Petitioners. The
within coal tract regards coal to be removed by
surface (“strip”), auger, or high wall mining
methods only. Essentially, once the overburden has
been removed and the coal accessed by those
methods, the coal must be transported in some
fashion to a public highway for marketing. It is the
latter element of access which is claimed to support
a de facto taking.2
FINDINGS OF FACT AND CONCLUSIONS
OF LAW
Introduction
The above-captioned action was initiated by joint
Petition filed by PBS and Penn Pocahontas on
February 19, 2015 alleging an inverse or "de
facto" taking by the Commonwealth of
Pennsylvania Department of Transpo1iation ("
PennDOT") resulting from the acquisition by
PennDOT of one or more parcels of land required
by PennDOT for the construction of US Route 219
(" Route 219") in Brothersvalley Township,
Somerset County, Pennsylvania. Preliminary
Objections were filed by PennDOT on April 1,
2015, some of which raised factual questions,
and, as a result of which, this court held an
evidentiary hearing on February 14-16, 2017.
Pursuant to the requirements of 26 Pa.C.S.A.
§502(c)(2), in such a circumstance, it is
2

We take the liberty of copying, verbatim, some of the
Petitioner's and Respondent's Proposed Findings of Fact and
Conclusions of Law for purposes of de fining the disputed
facts and legal conclusions.

150a
incumbent upon the trial court to determine (i)
whether a condemnation has occurred, and if the
court determines that a condemnation has
occurred, (ii) the court shall determine the
condemnation date and (iii) the extent and nature
of any property interest condemned; whereupon,
the statute provides that the court shall enter an
order specifying any property which has been
condemned and the date of the condemnation.
We make the following Findings of Fact and
Conclusions of Law in this matter.
Findings of Fact
Denial of Access
1. On June 14, 2010, and September 28, 2010,
Penn Pocahontas was the owner and holder
of a fee simple title in all of the coal
underlying Parcel 55 (also known as the
"Coleman Parcel") located in Brothersvalley
Township, Somerset County, Pennsylvania
pursuant to deed of Charles E. Merrill, et al.
Dated June 29, 1971 and recorded in
Somerset County in Deed Book Volume 702,
page 226 (with the coal underlying Parcel 55
being identified as Tract 591 in said Deed),
subject to the rights of Lessee, PBS.
2. On June 14, 2010, and September 28, 2010,
the primary business of Penn Pocahontas
was to acquire and hold, for leasing purposes,
coal
reserves
underlying
properties
primarily in Somerset County.
3. On and prior to June 14, 2010 and September
28, 2010, Penn Pocahontas was not in the
active mining business; rather, its primary

151a

4.

5.

6.

7.

source of income resulted from leasing its
coal reserves to active mining companies
which then paid Penn Pocahontas a royalty
on the coal sales.
On June 14, 2010, the surface of Parcel 55
was owned by Patricia M. Hankinson (1/6
interest), Sally M. Ancona (1/6 interest),
Cynthia M. Coleman (1/12 interest), Jeanne
M. Coleman (1/4 interest), William A. Merrill
(1/12 interest), Michael S. Merrill (1/12
interest), and Richard L. Merrill (1/6
interest) (hereinafter "Hankinson, et al.).
On June 14, 2010, and September 28, 2010,
PBS was the owner of a leasehold interest in
the coal and the right to surface mine,
including strip, auger and high wall mining,
in Parcel 55 pursuant to the following leases:
(i) Lease Agreement between Hankinson, et
al. and PBS dated May 31, 2006, a
Memorandum of which is recorded in
Somerset County Record Book Volume 1944,
•page 598, and (ii) Amended and Restated
Mineral Lease Agreement (surface mining
only) dated February 14, 2007, between Penn
Pocahontas and PBS, a Memorandum of
which is recorded in Somerset County Record
Book Volume 1954, page 471 ("Penn
Pocahontas Surface Coal Lease").
In the Penn Pocahontas Surface Coal
Lease, Penn Pocahontas leased all of the
coal underlying Parcel 55 to PBS, which
included both the Brookville seam (the "A
Seam") and the Clarion Rider seam which
were the only seams of coal present on the
site.
PBS claims, on and prior to June 14, 2010, it

152a
had access from Parcel 55 to a public road,
namely, the Garrett Shortcut Road, a state
highway (" Garrett Shortcut"), by virtue of a
right-of-way through Parcel 54 which
adjoined Parcel 55 on the easterly boundary
thereof, and which was then owned by
Patricia M. Hankinson (1/3 interest), Sally
M. Ancona (1/3 interest), and Richard L.
Merrill (1/3 interest) (hereinafter the "Merrill
Parcel"), identified as Parcel 54 in the
highway plans for State Route 219, by virtue
of a right-of-way excepted and reserved in
deed of Charles A. Merrill, Jr., and Elizabeth
L. Merrill to Richard L. Merrill, Patricia M.
Hankinson, and Sally M. Ancona dated
October 29, 1981, and recorded in Somerset
County Deed Book Volume 885, page 30 (the
"Right-of-Way"); together with a Right-ofWay over Parcel 50 as otherwise described
in prior deeds of record in general, and Deed
dated April 8, 1969 to Merrill as recorded in Deed
Book Volume 670, page 281.

8. Penn Pocahontas, on and prior to September
28, 2010, claimed it had access to Garrett
Shortcut from Parcel 55 by virtue of its being
the owner of the surface of Parcel 50, which
property abuts Parcel 55 on the southerly
and easterly boundary thereof.
9. Parcel 50, however, does not directly adjoin
Garrett Shortcut Road but rather is
connected by a right-of-way for a 33 foot wide
road access as found in Deed Book Volume
1854, Page 293. [Stipulated Exhibit 19R]
10. There is no specific mention in the deed
granting a fee simple interest in the coal to
Penn Pocahontas of rights of way across

153a
Parcel Nos. 54 or 50. .
11. The lease agreement entered into on May 31,
2006 between the owners of the surface of
Parcel Nos. 55 and 56 does not purport to
convey rights to cross Parcel 54 or otherwise
address access to the Garrett Shortcut Road.
12. The specifics of the right-of-way on Parcel
54 were to be determined by the then owner
of the surface of Parcel 55: "The actual
direction, location and course of the road is to
be determined at the sole option and
direction of Charles A. Merrill, Jr. and the
Estate of William A. Merrill, II... "
13. The location of the surface right-of-way on
Parcel 54 is not specified and only a general
direction is given.
14. There was no evidence adduced at trial to
show that the optional act of defining the
location for the surface right-of-way across
Parcel 54 was ever performed by the surface
owners of Parcel 55.
15. The owners of the Merrill Parcel, Parcel
54, conveyed a fee simple interest in a
portion of the Merrill Parcel to PennDOT
by Deed In Lieu Of Condemnation dated
June 14, 2010, and recorded in Somerset
County Record Book Volume 2204, page
881 (the "PennDOT Deed In Lieu Of
Condemnation"), the portion of the Merrill
Parcel
being conveyed within the
PennDOT Deed in Lieu of Condemnation
extending the entire length from the
northern boundary to the southern
boundary of Parcel 54.
16. The physical effect of the grant of Deeds In

154a
Lieu Of Condemnation aforesaid caused
the Parcel Nos. 54 and 50 to be bisected by
the location of State Route 219 to the extent
that any then-existing rights-of-way
leading from Parcel 55 across Parcels 54
and 50 in an easterly direction to the
Garrett Shortcut Road were severed.
Highway Occupancy Permit
17. The right to access the State Highway
System, including the Garrett Shortcut Road,
is governed by 67 Pa.Code, Chapter 441 which
would dictate that a "highway occupancy
permit" ("HOP") is required for all access from
private property onto the State Highway
System.
18. The type of land use proposed by PBS and
Penn Pocahontas would require an HOP
identified as a low-volume driveway in order
for safe operation on the State Highway
System.
19. A low-volume driveway accessing a highway
with a speed limit of 45 miles per hour or
greater must be a minimum of 112 feet in
width.
20. With respect to the alleged right-of-way
across Parcel
54, which parcel has a
combined 50 foot right-of-way leading to a
16 foot right-of-way to Garrett Shortcut
Road, the acknowledged frontage of the access
road onto the State Highway System is a 16 foot
access.

21. Neither Penn Pocahontas nor PBS has applied
for an HOP for the Parcel 54 right-of-way.

155a
22. In response to PennDOT's proposed Findings of
Fact and Conclusions of Law suggesting that
Petitioners lacks sufficient access frontage for
an HOP, Petitioners suggest that an HOP
currently exists for access to the right-of-way,
and has filed a Motion to Reopen the Record.
23. PennDOT has countered that the HOP does not
either meet current regulatory minimums for
access width nor is it currently in existence due
to the abandonment of the project for which the
original HOP was requested.
Temporary Bridge Construction
24. At trial, PennDOT indicated, over the objections
of Petitioners, that it was prepared to provide a
temporary Bridge across the Highway before the
Petitioners attempt to extract coal from Parcel
55, thereby preventing the Petitioners from ever
being deprived of access to the coal by reason of
the Highway condemnation.
25. A plan for a temporary bridge across the
Highway was presented to transport the coal
from Parcel 55 to Parcel 54.
26. It was asserted that the bridge would be of
sufficient strength to support any load that is
allowed on the roadways of the Commonwealth.
27. Neither on June 14, 2010, September 28, 2010,
nor any time thereafter for a period of more than
six years until the date of hearings on February
14-16, 2017 did PennDOT have any plans in
place for the construction of the temporary
bridge over the Highway.
28. Petitioners argue that the testimony concerning the
possible construction of a bridge overthe Highway
is totally speculative and should be disregarded.

156a
Potential Access over the Shaffer Parcel
29. Prior to June 14, 2010 and September 28,
2010, Parcel 59 (the "Shaffer Parcel") abutted
Parcel 55 and 56 on the northerly side thereof
and was owned by Richard A. Shaffer.
30. Parcels 55 and 56 are adjoining parcels and
are combined in the PBS Coal Lease from
both the owners of the coal (Penn
Pocahontas) and surface (Hankinson, et.al.).
31. Prior to June 14, 2010 and September 28,
2010, in addition to abutting highway Parcel
55, the Shaffer Parcel enjoyed public road
frontage along the southerly side of Mud Pike
Road.
32. As of July 24, 2006 Jean C. Shaffer,
predecessor in interest to Richard A. Shaffer,
owned a 100% interest in Parcel 59, together
with the mining rights applicable thereto.
33. On July 24, 2006, Jean C. Shaffer had leased
all of the coal underlying Parcel 59 unto PBS.
(the "Shaffer Lease").
34. The Lease granted unto PBS the surface,
coal, and mining rights and privileges
applicable thereto for a primary term of
seven years and "so long thereafter as active
mining is being conducted on the Premises or
on a mine which has or will include the
Premises."
35. The Lease provided that "Lessor agrees to
execute and sign any documents required to
be signed by Lessor, as requested by Lessee,
in connection with obtaining or maintaining
a mining permit on the Premises, including
but not limited to, a landowner consent

157a
form."
36. Exhibit "A" attached to the lease is entitled
"Shaffer Property Area to Be Affected and
depicts both the mining area to be affected
as well as the overall lease area.
37. The "Area to Be Affected" depicts a "Proposed
Hall Road Location" leading to Mud Pike Road.

38. On January 9, 2008 PBS prepared and
provided mining plans to PennDOT which
show one mining operation spanning multiple
surface parcels, specifically including Parcel
Nos. 59, 56, 55, and the Hoover property. ("
the Mining Plan")
39. An aerial photograph with the mining pits
overlaid in yellow was received into evidence
as PennDOT Exhibit 23. The photograph
provides a wide area view of the entire
operation planned by PBS. On the
photograph, the mining pits overlaid in yellow
correspond with Exhibit "A" to the Shaffer
Lease. The larger area surrounding the yellow
pits on Exhibit 23 is outlined in magenta.
40. Petitioner's witness, Mr. Kudlawiec, admitted
that the permit area for a proposed mine
operation would include all of the area within
the magenta line.
. 41. At a meeting on January 9, 2008 PBS provided
PennDOT with the electronic files used to
create PennDOT Exhibits 20 and 21.
Potential Access over Hoover Property
42. Prior to June 14, 2010 and September 28,
2010, Parcel 55 abutted property in the
ownership of the Hoover family on the
southerly side of Parcel 55 ("the Hoover

158a
Property").
43. Prior to June 14, 2010 and September 28,
2010, the Hoover Property abutted Blackfield
Road on the southerly side thereof.
44. Pursuant to a lease agreement dated May 3,
1977, and an amendment to the lease
agreement dated March 9, 1979 PBS had
access to the Hoover property for purposes of
surface coal mining and removal of the same
seams as found on the Parcel 55 tract.
45. By letter dated April 16, 1985 PBS tendered a
letter of termination to the Hoovers indicating
that "because of continued environmental
problems with the Borough of Garrett and
lack of coal orders for the particular quality of
coal underlying your property and others, we
have little choice in the matter" but to
terminate the lease.
46. There was no evidence adduced at trial which
would indicate that the Hoover coal lease had
been reinstated or that PBS had ongoing
rights to traverse the property from Parcel 55
to Blackfield Road.
47. Subsequent to September 28, 2010, James L.
Hoover did sign a "contractual consent" (in
2012) permitting PBS access to the property;
however, the James L. Hoover property does
not abut Parcel 55.
48. The "contractual consent" document referred
above is actually the PaDEP form identified as
"Supplement C", and is attached to a Surface
Mining Permit Application. The form is
intended as a confirmation to PaDEP that the
Mining Operator has actual rights to enter
upon the land and that such rights will

159a
continue post mining to allow the operator
and/or PaDEP to enter upon the property for
purposes of water monitoring, inspection, and,
if necessary, remediation of nonperforming
reclamation. It is not a "coal lease".
Mineability of Parcel 55
49. Louis T. Pierce, III ("Pierce"), a registered
professional geologist in Pennsylvania was
accepted as an expert witness without
objection in the field of geology, hydrology and
mine permitting from a geologist and
hydrologist standpoint.
50. In the course of his work relative to geology
and hydrology on Parcel 55, Pierce gave
consideration to wetlands and streams,
determining that there were no streams on
the property, and that there were less than 2
acres of wetlands that appear on the Federal
Wetlands Inventory Map.

51. Mr. Pierce testified that all wetlands located
on the property could be mitigated and the
cost of mitigation
was taken into
consideration by Pierce in his findings.
52. Robert Kudlawiec ("Kudlawiec"), a licensed
engineer
in
seven
states,
including
Pennsylvania, was admitted as an expert
without objection to testify in the field of
mining engineering, mine permitting, mind
planning and mine operations.
53. He explained that whenever a mining permit
is applied for from PaDEP, and there are
intermittent streams present, then the
permit may be issued if the intermittent
stream is removed and replaced; it needs to

160a
be enhanced.
54. With regard to wetlands, the wetlands could
be mitigated by establishing a replacement
wetland of either 1.5:1 or 2:1 on site.
55. Kudlawiec testified that any streams or
wetlands encountered on Parcel 55 could
have been mitigated and that the cost of
mitigation was included in his costs that
were
used
to
determine
economic
mineability.
56. In his opinion the occurrence of an
intermittent stream or wetland may not
prevent the issuance of a mining permit from
PaDEP if corrective measures are taken.
57. Another method to deal with a stream and/or
wetland which is acceptable to PaDEP is to
high wall mine below the level that the
stream can be affected and which method
may be approved by PaDEP.
58. From the standpoint of the environment,
PaDEP's treatment of wetlands, streams and
intermittent streams are similar for a permit
for a highway as they are for a permit for a
mining operation, and the requirements for
mitigation are similar.
59.In obtaining the permits to construct Route 219,
PennDOT was successful in obtaining permits
to mitigate streams and wetlands on Parcels
48, 50, 54, 56, 58, and 59.
60. In the opinion of the Petitioner's experts, the
presence of the Indiana bat would not have been
an impediment to the issuance of a PaDEP
Mining Permit since mitigation procedures
would have been accepted by PaDEP.
61. In the opinion of the Petitioner's experts, any

161a
possibility of acid mine drainage from the
mining of the coal underlying Parcel 55 could
have been mitigated by special handling plans
in general, and specifically, alkaline addition
which would neutralize the acid.
62. Petitioner's experts took into account the cost of
neutralizing the possible mine acid resulting
from the mining of Parcel 55 in determining the
mineability of the coal.
63. Alkaline addition is a recognized way of dealing
with acidic overburden by PaDEP in the
permitting process.
64. The cost of alkaline addition to neutralize the
overburden to protect against mime drainage
acid discharge was factored into the mining
plan prepared by Earthtech.
65. PennDOT ·experts acknowledge that PennDOT
had to meet the same environmental standards
as PBS in order for PennDOT to build the new
highway and that PennDOT obtained all of
those environmental permits required to build
the highway.
66. PennDOT's
expert
acknowledged
that
PennDOT excavated over 11,000,000 cubic
yards of overburden in connection with the
Route 219 project for which state and federal
permits were obtained; far greater than the
excavation of overburden required to surface
mine coal on Parcel 55.
67. Kudlawiec opined with a reasonable degree of
certainty in his field of expertise that a surface
mine to extract the coal reserves underlying
Parcel 55 was permitable by the PaDEP, and,
therefore, that the coal was mineable.
68. Pierce opined that from a geological and

162a
hydrogeological standpoint, the surface mine
proposed in the Earthtech Report was
permitable by PaDEP.
69. PaDEP's Ebensburg District Mining Manager,
Daniel Sammarco, testified on behalf of
PennDOT. He testified that his office handles
surface mine permit applications. Concerning
Parcel 55 he testified that none of the
information that had been presented to him by
PennDOT, PBS or Penn Pocahontas in this case
would prevent a permit for surface mining of
the applicable seams underlying Parcel 55;
however, in order to opine that such a permit
could be issued it would be necessary to "wait
until a full review of the formal application is
made."
70. It is Mr. Sammarco's responsibility to ensure
that the permitting process complies with the
Surface Mine Reclamation Act.
71. Surface mining is not allowed in Somerset
County without a permit from the Cambria
District Office.
72. The circumstances that can lead to the denial of
a permit follow into two areas, administrative
deficiencies and technical deficiencies.
73. Administrative deficiencies would include the
lack of securing proper surface rights of entry.
74. The failure of PBS to prove that it has adequate
surface rights across Parcel Nos 54 and 50 as
described above logically would constitute an
Administrative deficiency if PBS were to have
filed a permit application.
75. The examples of technical deficiencies given by
Mr. Sammarco include the list of impediments
in the case at bar, specifically the failure to

163a
properly address potential stream and wetland
impacts and insufficient background water
monitoring and sampling.
76. There was no testimony that the Petitioner's
experts have, to this point, studied stream and
wetland impacts or performed an over-burden
analysis, which matters are essential elements
of the permit process.
77. One important consideration in the ·instant
Parcel 55 permitting process, should it be
initiated, would be the known post-mining
discharge from PBS Job 21 which was the
subject of an enforcement action against PBS
and the institution of a remediation plan for the
acid mine discharge. Perpetual mine discharge
treatment remains in place for Job 21.
78. Mr. Sammarco testified that he could not state
to a reasonable degree of certainty that his
office would grant a permit to surface mine
Parcel 55.
79. Tim Kania, was the "tech chief' who prepared
notes of a meeting with PBS on March 29, 2005
wherein he expressed his views on a
preliminary inquiry from PBS about obtaining
a permit to surface mine the A seam in the area.
His assessment of the permitability of the
Brookville seam reserves is as follows:
"The pertinent information available to
the Cambria District Mining Office to
date (past history of mining on the coal
seam,
overburden
analysis
data,
background groundwater quality in the
area, coal seam overburden lithology's,
depositional environment of the coal
seam and it's overburden, past results on
sites requiring very large alkaline

164a
addition rates, and other related
considerations) all indicate that, given
current knowledge, the potential for
successfully permitting the targeted
reserves is low, because, given
currently known facts, the potential
for generating additional pollution
is high." (PennDOT Exhibit 14)
80. The foregoing Notes appear to contradict the
Petitioner's contention that they were
reasonably certain to have obtained a permit to
mine the Brookville Seam.
81. PBS successfully obtained a deep mine permit
just to the north and east of Parcel 55 that had
a surface Mining component - a box cut - that
would have been reviewed by Mr. Sammarco's
Office and, ultimately, approved by PaDEP's
California District Mining Office. The
regulatory offices for deep mine and surface
mine operations are distinct and separate;
however; they do interact in the context of
surface activities involving deep mines for the
permitting process.
82. At the time of the February 14-16, 2017
hearings, PennDOT did not offer any testimony
or reports to the effect that the coal reserves
underlying parcel 55 could not be mined or
permitted by PaDEP.
Conclusions of Law
83.The Commonwealth is liable for all damages to
property abutting the area of an improvement
resulting
from,
inter
alia,
permanent
interference with access, whether the property
is taken or not. 26 Pa.C.S.A.§714.

165a
84.In order to establish whether consequential
damages
are
more
appropriate
than
condemnation damages for a de facto taking,
PennDOT' s actions must be examined to see
whether they only affected the property or
whether they substantially deprived the owner
of the use and enjoyment of the property, and
the deprivation was the direct and necessary
consequence of PennDOT'.s actions. McGaffic v.
Redevelopment Authority of the City of New
Castle, 548 A.2d 653 (Pa.Cmwlth.1988).
85. On June 10, 2010 Penn Pocahontas had a
leasehold right to the royalty income for the
extraction of A-Seam and Clarion Rider Seam
coal lying underneath Parcel 55.
86. On June 10, 2010 PBS had a leasehold right to
extract and sell the A-Seam and Clarion Rider
Seam coal underlying Parcel 55.
87.On June 10, 2010 a right away existed leading
from Parcel 55 consisting of a 50 foot right-of-way
across Parcel 54 and a 16 foot right-of-way
leading to Garrett Shortcut Road as granted in
Deed Book Volume 85, page 311.

88. On September 28, 2010 a right-of-way existed
leading from Parcel 55 across Parcel 50 as the
same was owned by one of the Petitioners,
Penn Pocahontas, and a 33 foot right-of- way
to Garrett Shortcut Road as found in Deed
Book Volume 1854, page 293. Inasmuch as
Penn Pocahontas owned the surface and
access rights across Parcel 50, it is assumed
that they would allow PBS to remove coal
across Parcel 50 over their land leading from
Parcel 55 to the Garrett Shortcut Road.
89. Parcel 55 became landlocked by the action of
the
Commonwealth
of
Pennsylvania,

166a
Department
of
Transportation,
on
September 28, 2010 as a deed in lieu of
condemnation for State Route 219 severed
both Parcels 54 and 50, which parcels
contained the rights- of-way set forth in
Paragraphs 87 and 88 above.
90. The physical existence of the State Route 219
Limited Access Hwy. precludes the removal
of coal from Parcel 55 in an easterly direction
to Garrett Shortcut Road.
91. The burden of establishing a de facto taking
is on the condemnee and is heavy. The
condemnee must prove the existence of
exceptional circumstances which have
substantially deprived him of the beneficial
use and enjoyment of his property. Helms v.
Chester Redevelopment Authority, 379 A.2d
660 (Pa.Cmwlth.1977) .
92. To establish a de facto taking, the Petitioners
must show that there are exceptional
circumstances which prevent them from
mining the coal and that there deprivation is
the direct and necessary consequence of the
actions of PennDOT. In re Petition of 301
Filbert Ltd Partnership for Appointment of
Viewers , 441 A.2d 1345 (Pa.Cmwlth.1982).
93. PBS, by virtue of its July 24, 2006 lease of the
Jean C. Shaffer tract, Parcel 59, had access to
Parcels 55 and 56 as the same were
contemplated for inclusion in a multiple
property mine permit.
94. The Exhibit "A" depiction forms the basis of the
leasehold grant by Jean C. Shaffer, and, without
expressly granting a right of carriage of coal
across the Shaffer premises, depicts the

167a
"Proposed Haul Road Location" and the affected
area as encompassing multiple surface mine
pits on multiple tracts. ·
95. The appellate cases in which the condemnees
sought to have their land valued based upon its
developmental potential are analogous to the
case at bar in that the condemnee's burden
was to prove that the property was ripe for
development, that they had taken meaningful
steps toward development, and there was
"virtually no conjecture as to the reasonable
certainty" of the development. Appeal of
Showalter, 895 A.2d 76 (Pa.Cmwlth.2006),
Lehigh-Northampton Airport Authority, et.al.
v.
Commonwealth,
862
A.2d
159
(Pa.Cmwlth.2004).
96. Although the foregoing cases are "valuation"
cases, the court must inquire as to the
reasonable likelihood that the property could be
permitted for the removal of coal under the
Surface Mine Act. The basis for Petitioner's
expert's opinion that the property was
permittable was based predominantly on their
experience in their respective fields rather than
the specific underlying facts for which the
property would be ultimately scrutinized by
PaDEP. Specifically, the factors would be those
identified in the Tim Kania Note which failed
to offer much encouragement based on PaDEP's
negative experience with acid mine drainage
from mining the same seam as in nearby Job 21
which has a permanent treatment order in
existence.
97. We conclude that Petitioner's ability to obtain
a surface mining permit from the Cambria

168a
District Mining Office for Parcel 55 is
speculative and uncertain and, accordingly,
incapable of supporting a claim of a taking of a
property right by Respondent, PennDOT due to
the location of State Route 219.

169a

IN THE COURT OF COMMON PLEAS OF
SOMERSET COUNTY, PENNSYLVANIA
No. 98 CIVIL 2015
EMINENT DOMAIN PROCEEDINGS
PENNDOT PARCEL NO. 55
PBS COALS, INC., AND PENN POCAHONTAS
COALS, CO.,
Plaintiffs/Condemnees
v.
COMMONWEALTH OF PENNSYLVANIA,
DEPARTMENT OF TRANSPORTATION,
Defendant/Condemnor.
ORDER
AND NOW, this 19th day of January,
2018, for the reasons and analysis set forth in
the accompanying Memorandum, specifically
including the Court's determination that
reasonable access to Parcel 55 has not been
denied by virtue of the Route 219 placement,
and that the ability to obtain a surface mining
permit is speculative and uncertain due to the
hydrologic and other environmental factors,
the Preliminary Objections are SUSTAINED.
Inasmuch as the Preliminary Objections
are sustained following the receipt and
determination of testimony and other factual
basis, the Petition is DISMISSED.

170a
This is a final order.
BY THE COURT
/s/ David C. Klementik
David C. Klementik, S. J.

171a
APPENDIX H – TRIAL TRANSCRIPT
EXCERPTS, COURT OF COMMON PLEAS OF
SOMERSET COUNTY
IN THE COURT OF COMMON PLEAS OF
SOMERSET COUNTY, PENNSYLVANIA
NO. 98 CIVIL 2015
NONJURY TRIAL
FEBRUARY 14, 2017
FEBRUARY 15, 2017
FEBRUARY 16, 2017
IN RE: CONDEMNATION BY THE
COMMONWEALTH OF PENNSYLVANIA,
DEPARTMENT OF TRANSPORTATION
PBS COALS, INC. AND PENN POCAHONTAS
COAL CO
VS
COMMONWEALTH OF PENNSYLVANIA,
DEPARTMENT OF TRANSPORTATION
Timothy Williams Testimony
1.22 ln 20 – 1.23 ln 11
***
Q. Mr. Williams, how long has your company, Penn
Pocahontas, owned parcel 55?
A. I believe it was June 30th, 1971.
Q. Since 1971?
A. Yeah.
Q. For what reason did you purchase parcel 55?

172a
A. It was acquired as a package of 250-odd
properties in southern Somerset County form
the Merrill family.
Q. Was it your intention to surface mine the property?
A. Yes.
Q. was the coal beneath the property, in your view, a
high grade of coal?
A. The motivation of my grandfather when he
formed Penn Pocahontas was to mine
metallurgical-grade coal, low vol coal, known as
low vol coal area of Somerset County. So, yes.
***
Louis Pierce Testimony
1.61 ln 14-19
***
Q. Are you a registered professional geologist in the
State of Pennsylvania?
A. Yes.
Q. How many permits - - about how many permits,
mining permits have you worked on over your
experience?
A. In excess of 40.
***
Louis Pierce Testimony
1.63 ln 7 – 1.64 ln 3
***
Q. Where is the A seam deep mine that was - - that you
worked on the permit - - and it was permitted, was it
not?
A. I’m sorry?
Q. The permit was granted by the Commonwealth of
Pennsylvania for the A seam deep mine?
A. It was.
Q. In what year?

173a
A. 2010.
Q. It was applied for in 2010?
A. It was applied for in 2010.
Q. And issued in 2013?
A. (WITNESS NODS HEAD.) 2013.
Q. Okay. Can you point out where the mine mouth is of
the A seam deep mine?
A. (Indicating).
Q. Okay. So it’s just north, slightly east of the parcel
55?
A. Yes.
Q. Okay. And did the A seam deep mine have a surface
component, a box cut, and other surface mining with
regard to it?
A. It did.
***
Louis Pierce Testimony
1.76 ln 8-22
***
Q. Let’s talk about the occurrence. What do you mean
by occurrence?
A. Its lateral extent that it exists on the site.
Q. And what is the lateral extent that you found that
the A seam existed - - exists on parcel 55?
A. It exists on the entire parcel.
Q. And what is the extent of the Clarion Rider you
found exists on parcel 55?
A. It is also on the entire parcel.
Q. What is the thickness of the A seam you found on
the parcel 55, the average thickness?
A. 7.2 feet.
Q. And what is the average thickness of the Clarion
Rider you found on parcel 55?
A. 2.4 feet.
***

174a

Louis Pierce Testimony
1.79 ln 15 – 1.84 ln 22
***
Q. *** The importance of - - did you look at the
overburden. I see we have overburden above that in
that - - meaning the area - - overburden is what?
A. Overburden is material that has to be
removed to - - in order to mine coal.
Q. What is the importance of the overburden in
consideration of mining and permitting?
A. Mine permitting, the overburden that you
would want to be concerned with is anything
that has potential to produce acid mine
drainage.
Q. Now, in mining, modern mining methods, what is
done to prevent post-mining acid mine drainage or
acid mine discharge in modern mining?
A. In modern mining you would use special
handling plans and alkaline addition.
Q. Explain, if you could, by modern - - by special
handling plans.
A. A special handling plan would be used to
separate out any zones of acidic material to
place it in what’s called high and dry in spoil
above the water table.
Q. What is alkaline addition?
A. Alkaline addition is the, the addition of
calcium carbonate to the excavated mine spoil
from offsite which would neutralize the acidic
material.
Q. Now how does overburden neutralization during
surface mining reduce the changes of pollution?
A. It rises the pH.
Q. Raising the pH, what happens with heavy metals?
A. I’m sorry, what?

175a
Q. When you have a normal pH, or an alkaline pH, the
metals leach out like they do with acid?
A. No.
Q. Does the Pennsylvania Department of
Environmental Protection recognize overburden
neutralization as a way to prevent post-mining
pollution?
A. They do.
Q. Now, did you do an overburden analysis relative to
your work on parcel 55?
A. Yes.
Q. Okay, Let’s go to attachment ten to your report,
please. Okay. Can you tell us what attachment ten to
your report is?
A. Attachment ten is a portion of the acid base
accounting spreadsheet developed by the
Department that we used to come up with an
alkaline addition rate of - - to ensure alkaline
post-mining water quality.
Q. Okay. And what did you determine would be
needed in order to neutralize and in turn alkaline the
water quality - - or the overburden in your analysis
here?
A. 2200 tons per acre.
Q. Can you show us where that is, what that does to
the pH of the water then? Or the acidity versus
alkalinity?
A. It gives us a net, a net NP, which is a net
neutralization potential of 0.04, which is slightly
alkaline.
Q. So it takes overburden from acidic to alkaline?
A. Correct.
Q. And then were these numbers for the alkaline
material needed to neutralize the overburden in this
case considered in your mining plan?
A. Yes.

176a
Q. Now, you had done an overburden analysis - - or
I’m sorry, Earthtech prepared and submitted a mining
permit application for the A seam mine, you
previously testified to, applied for in 2010 and issued
in 2013?
A. Yes.
Q. As part of your - - the permit application work, did
you prepare an overburden analysis as well?
A. I did.
Q. Is that Exhibit 10A to you report?
A. It is.
Q. We don’t have that on the - - in the screen here.
But did that yield a positive alkaline material, a
positive pH?
A. We would call it a net NP, yes.
Q. Okay. And was that permit issued by the
Pennsylvania DEP?
A. It was.
Q. Now, did they require more in this case, or in that
case for the A seam than the alkaline addition you
were proposing here?
A. They did.
Q. Have you considered it for this permit if you added
that much alkaline addition, I think it was 7,000 tons
per acre, how that would calculate into your mine
plan?
A. We have.
Q. So overburden analysis you have right here or a
very conservative one which you have on 10A, you
could neutralize and turn alkaline the overburden so
as to prevent mine acid pollution?
A. Yes.
Q. Now, in old mining, pre-1997, was alkaline addition
and special handling done in surface mining?
A. No. Not the way it’s done today. Or since 1997.

177a
Q. And without alkaline addition and special
handling, you could end up with more issues if you
don’t deal with overburden correctly; is that right?
A. Correct.
Q. Now, in the course of your work relative to the
geology and hydrogeology of this property, did you
give consideration to wetlands and streams?
A. We did.
Q. And explain to us how you gave consideration to
wetlands and streams?
A. We looked at the USGS topographic quad to
see if there were streams on the property.
Q. Are there any?
A. There are none.
Q. Okay.
A. The wetlands, we looked at the Federal
Wetlands Inventory Map and there appears to
be a possible wetland, perhaps less than two
acres, on the parcel.
Q. How do you deal with a wetland such as the one
that shows up on the Federal Wetlands Inventory in
the course of mining?
A. We would mitigate it.
Q. What does it mean to mitigate a wetland in the
course of mining?
A. To rebuild it. Rebuild a wetland post-mining.
Q. And have you considered the cost of rebuilding a
wetland in the plan?
A. Yes.
Q. In your opinion based on your work, study,
analysis, education, training and experience, from a
geological and hydrogeological standpoint, is a surface
mine proposed in your report on parcel 55 permitable?
A. It is.

178a
Q. By permitable we mean
Pennsylvania
Department
of
protection so it can go forward?
A. Yes.
***

permitable by
Environmental

Louis Pierce Testimony
1.85 ln 6 – 1.86 ln 14
***
Q. Did I understand correctly that you have worked
on about 40 permits?
A. Yes.
Q. How many of these were surface and how many for
deep mines?
A. The majority of them would have been
surface.
Q. The majority were surface?
A. Yes.
Q. Where were they located?
A. Mostly in Somerset County. Some in Fayette.
Q. How about the deep mine permits?
A. Somerset County.
Q. Can you name some of the surface mining permits
that you’ve worked on in Somerset County?
A. Name some of the surface mining permits?
Let’s see, there’s Mine 78, there’s No. Two
Hill, Sheep Ridge, Action Mining.
***
A. Surface component to the A seam mine.
I don’t have a list of names. I would have
worked on them for 15 years.
Q. Now, were all of these permits granted by DEP?
A. All of them were granted.
Q. All of the surface mine permits?
A. Yes.
Q. And all of the deep mine permits as well?

179a
A. Yes.
Q. Have you ever worked on a permit that wasn’t
granted?
A. I’ve worked on them when they’ve been
limited and not where they were denied
outright.
Q. Which ones have you worked on that have been
limited?
A. Mine 78 was limited. Heckler was limited.
***
Louis Pierce Testimony
1.108 ln 4-24
***
Q. Was there another mine previously - - that’s shown
on parcel 50 and 54 previously opened in the A seam?
A. Yeah. The Black Mountain mine was opened
in the Brookville or A seam coal.
Q. Okay. That’s shown on parcel 50 and 54 by the
various lines, black lines?
A. Yes. Yes. This black outline is the limits of it.
***
Q. That’s closed and reclaimed?
A. It is.
Q. Any acid mine discharges from that mine?
A. There are not.
Q. That had a surface component to that mine as well;
correct?
A. It did. It had a pit.
Q. Are there any private water supplies on parcel No.
55?
A. No.
Q. There aren’t any water supplies close to parcel No.
55, are there?
A. I don’t believe so.
***

180a

Kudlawiec Testimony
1.149 ln 22 – 1.150 ln 5
***
Q. Now, am I correct that you have expressed
confidence that obtaining a permit from - - a surface
mine permit from the Department of Environmental
Protection would not be problematic?
A. I would have successfully obtained [sic] the
permit for the A seam deep mine, which has a
surface mining component, and we were able to
mitigate any issues; so I believe that in my
professional opinion I could obtain a permit for
parcel 55.
***
Kudlawiec Testimony
1.151 ln 2 – 1.152 ln 18
***
Q. How many permits have you obtained?
A. In my career?
Q. (COUNSEL NODS HEAD.)
A. Four dozen.
Q. Four dozen? Is that what you said?
A. Yes.
Q. How many of those were, how many of those 48
were surface?
A. For both coal and non-coal in the various
states - Q. I’m talking about coal.
A. 24, half.
Q. 24 in non-coal - - excuse me, 24 surface mining. And
that would leave 24 underground; correct?
A. No. You had asked about just coal. I also have
non-coal surface mine permits I’ve been
involved with that got completed.

181a
Q. 24 surface mine. How many underground permits?
A. 18.
Q. Now, of those 24 surface mine permits, how many
were in Pennsylvania?
A. 12.
Q. And how many were in Somerset County?
A. 7.
Q. And how many of those were the Brookville A
seam?
A. Surface permits? I have one permit that has
surface activity associated with a deep mine
which was the A seam deep mine.
Q. Would that, would that be the one on parcel 59 or
are you - A. Parcel 58.
Q. 58?
Now, of the 24 surface mine permits that you have
obtained, how many have you had denied?
A. None.
Q. I should say in addition to that - - I should say in
addition to the 24 surface mining permits that you
have obtained, how many have you had denied?
A. None.
Q. And how about the - - in addition to the 18
underground permits, how many have you had
denied?
A. None.
***

182a
Daniel Sammarco Testimony
2.101 ln 10 – 2.104 ln 13
***
Q. *** What is the first step involved in your office
whenever a mining company is looking into or trying
to decide what - - or to mine a piece of property?
A. Typically we are contacted by the applicant
in what we call the prepermit stage, the
preapplication stage.
And that stage has variations of the modules
that I just listed. It’s not all-inclusive to all those
modules, but it has some of the key modules like
the geology, hydrology modules.
There is a preapplication, then, that is
submitted for a peer review [sic] of a formal
application if it’s deemed –
Q. A preapplication is submitted?
A. It’s what we would call a preapplication
process. It’s not the formal application. So it’s a,
if you will, a cursory review of some of the key
components of the full application.
So we would review that in context, and have
a field review done to validate some of the
information in Module 6; some of the
information provided in the hydrology section,
Module 7; and Module 8.
And then make a determination as to any
outlying or concerning issues that the applicant
may need to address before submitting the full
application.
Q. Is there a time period for the preapplication
meeting and the preapplication process?
A. There is a time period. We do meet - - we
arrange a filed meeting with the applicant 45
days after the application; and since we’re not
making a determination on that application, the

183a
responses that we provide are just comments.
So it’s not, you know, a denial and acceptance of
a preapplication.
Q. Now, continuing with the process.
After the preapplication is submitted and a field
view is conducted, what is the next step after that?
A. We will provide a comment letter with
citations associated with regulations that may
be deficient in the preapplication, and provide
that to the applicant.
Generally
speaking,
we
hold
that
preapplication process valid for about a year.
In many cases, within that time period a full
application will be submitted.
Q. So you expect the full application in a year?
A. We do.
Q. Are you able to say with a reasonable degree of
certainty at the time you send out the comment letter
of the potential deficiencies, whether a permit would
be issued?
A. No.
Q. Is that something that has to be wait until the
permit - A. You would have to wait until a full review of
the formal application is made.
Q. So within one year under our usual scenario, the
application, the full application is filed. What happens
to the application at that point?
A. When the application is submitted, it begins a
clock, a review time clock; and we call that PGD,
Permit Decision Guarantee. It’s 130 days for
almost all applicants. So once the application is
received, it’s assigned to a permit chief who
assigns it to a lead reviewer, and components of
the modules of the application get assigned to
other staff.

184a
As an example, the treatment facility erosion
and sedimentation control would be assigned to
our mining engineer.
But the lead reviewer would take that
application and basically begin the module
checklist that I just referred to, and seeing if all
required information is submitted and in
conformity with the regulation.
Q. Is it a given for – is it a given that whenever you
receive a completed application, that a permit will be
issued?
A. It’s not a given until we have completed the
review.
Q. Are applications sometimes rejected?
A. Applications are sometimes withdrawed,
sometimes denied.
Q. Are they sometimes modified?
A. Yes.
***
Daniel Sammarco Testimony
2.125 ln 14-21
***
Q. And you were asked if, of course, Job 21 - - which is
way off to the south, and west - - would be a
consideration; you indicated it would. And the fact
that the Black Mountain mine was closed, very near,
right in the adjacent parcel to 55, it did not have an
acid mine discharge. That would be a consideration as
well, wouldn’t it?
A. It would be.
***

185a
APPENDIX I – MEMORANDUM AND ORDER
RE: EVIDENCE OF “MINEABILITY” AT THE
PRELIMINARY OBJECTIONS STAGE, COURT
OF COMMON PLEAS OF SOMERSET COUNTY,
PENNSYLVANIA, FILED FEBRUARY 13, 2017
IN THE COURT OF COMMON PLEAS OF
SOMERSET COUNTY, PENNSYLVANIA
No. 748 CIVIL 2014
EMINENT DOMAIN PROCEEDINGS
PENNDOT PARCEL NO. 59
PBS COALS, INC., AND PENN POCAHONTAS
COALS, CO.,
Plaintiffs/Condemnees
v.
COMMONWEALTH OF PENNSYLVANIA,
DEPARTMENT OF TRANSPORTATION,
Defendant/Condemnor.
IN THE COURT OF COMMON PLEAS OF
SOMERSET COUNTY, PENNSYLVANIA
No. 98 CIVIL 2015
EMINENT DOMAIN PROCEEDINGS
PENNDOT PARCEL NO. 55
PBS COALS, INC., AND PENN POCAHONTAS
COALS, CO.,
Plaintiffs/Condemnees
v.

186a

COMMONWEALTH OF PENNSYLVANIA,
DEPARTMENT OF TRANSPORTATION,
Defendant/Condemnor.
MEMORANDUM
Before the court are questions raised by
counsel for the Condemnees in an off the record
teleconference requested by counsel and in which
all parties participated. Following the exchange the
court extended to the parties an opportunity to
submit a short memorandum via email the Court.
Both parties have submitted materials to the Court
for consideration.
Generally, the case involves a claim of a de
facto taking of various coal reserves adjacent to the
situs of the currently under construction highway,
Route 219, in southern Somerset County.
***
Counsel for Condemnees have raised
objection to the proposed testimony of Condemnors
which would tend to prove that the coal seams are
not mineable, or not mineable in their entirety, due
to various regulatory and geological factors.
***

187a
IN THE COURT OF COMMON PLEAS OF
SOMERSET COUNTY, PENNSYLVANIA
No. 748 CIVIL 2014
EMINENT DOMAIN PROCEEDINGS
PENNDOT PARCEL NO. 59
PBS COALS, INC., AND PENN POCAHONTAS
COALS, CO.,
Plaintiffs/Condemnees
v.
COMMONWEALTH OF PENNSYLVANIA,
DEPARTMENT OF TRANSPORTATION,
Defendant/Condemnor.
IN THE COURT OF COMMON PLEAS OF
SOMERSET COUNTY, PENNSYLVANIA
No. 98 CIVIL 2015
EMINENT DOMAIN PROCEEDINGS
PENNDOT PARCEL NO. 55
PBS COALS, INC., AND PENN POCAHONTAS
COALS, CO.,
Plaintiffs/Condemnees
v.
COMMONWEALTH OF PENNSYLVANIA,
DEPARTMENT OF TRANSPORTATION,
Defendant/Condemnor.

188a
ORDER
AND NOW, this 7th day of February, 2017,
for the reasons set forth in, and on the rationale of,
the foregoing Memorandum, it is hereby
ORDERED that the Condemnee’s request to limit
the evidentiary hearing on the issue of a de facto
taking to exclude testimony regarding the
geophysical and regulatory potential for mining is
DENIED. The Commonwealth may offer such
testimony in the form of lay and expert witnesses
on the issues of mineability as to rebut the
Condemnee’s claim that a taking has occurred.
BY THE COURT
/s/ David C. Klementik
David C. Klementik, S. J.

189a

APPENDIX J – PETITION FO BOARD OF VIEW
FILED FEBRUARY 19, 2015
IN THE COURT OF COMMON PLEAS OF
SOMERSET COUNTY, PENNSYLVANIA
No. 98 CIVIL 2015
EMINENT DOMAIN PROCEEDINGS
PENNDOT PARCEL NO. 55
PBS COALS, INC., AND PENN POCAHONTAS
COALS, CO.,
Plaintiffs/Condemnees
v.
COMMONWEALTH OF PENNSYLVANIA,
DEPARTMENT OF TRANSPORTATION,
Defendant/Condemnor.
PETITION UNDER 26 PA. C.S.A. SECTION
502(c) FOR THE APPOINTMENT OF BOARD
OF VIEWERS WHERE NO DECLARATION OF
TAKING HAS BEEN FILED
NOW comes the Plaintiffs/Condemnees, PBS
Coals, Inc. (“PBS”) by its attorney Vincent J. Barbera,
Esquire, of the law firm of Barbera, Clapper, Beener,
Rullo & Melvin, LLP, and Penn Pocahontas Coal, Co.
(“Penn Pocahontas”) by its attorney Robert P.
Lightcap, Esquire, and together, Petition this
Honorable Court pursuant to 26 Pa.C.S.A. Section
502(c) of the Eminent Domain Code for the

190a
appointment of viewers and in support thereof aver as
follows:
1.
PBS is a Delaware corporation having a
mailing address at 1576 Stoystown Road, PO Box 260,
Friedens, Pennsylvania 15541.
2.
Penn Pocahontas is a Delaware
corporation which is registered to do business in
Pennsylvania, and has a mailing address at 5 The
Trillium, Pittsburgh, Allegheny County, PA 15238.
3.
The Defendant/Condemnor is the
Commonwealth of Pennsylvania, Department of
Transportation (“PennDOT”), which has a mailing
address at Commonwealth of Pennsylvania
Department of Transportation, Office of Chief
Counsel, 301 5th Avenue, Suite 201, Pittsburgh, PA
15222.
4.
At the time of the events recited herein,
PennDOT was in the process of planning, acquiring
the properties required for and thereafter
commencing the construction of Traffic Route 0219 in
Somerset County, Pennsylvania (the “Route 219
Project”).
5.
On June 14, 2010, Penn Pocahontas was,
and continues to be as of the date of filing of this
Petition, the owner and holder of the fee simple title
in all of the coal underlying the surface of a parcel of
land (the “Coleman Parcel”) located in Brothersvalley
Township, Somerset County, Pennsylvania, as the
same was conveyed to Penn Pocahontas per Deed of
Charles E. Merrill, et al. dated June 29, 1971 and
recorded in the office of the Recorder of Deeds of
Somerset County, at Deed Book 702, pg. 226, Tract
No. 591, and with the aforementioned parcel of coal
being further identified as Somerset County Coal Tax
Map M08-208-018-30 (the “Penn Pocahontas Coal
Estate”).

191a
6.
Prior to June 14, 2010, the surface of the
Coleman Parcel (the “Surface Estate”) was then in the
ownership of Patricia M. Hankinson (1/6 interest),
Sally M. Ancona (1/6 interest), Cynthia M. Coleman
(1/12 interest), Jeanne M. Coleman (1/4 interest),
William A. Merrill (1/12 interest), Michael S. Merrill
(1/12 interest) and Richard L. Merrill (1/6 interest).
7.
On June 14, 2010, PBS was the owner of
a leasehold interest in inter alia all or a portion of the
Penn Pocahontas Coal Estate by virtue of various
leases and agreements, as follows:
(i)
Lease
Agreement between Patricia M. Hankinson (1/6
interest), Sally M. Ancona (1/6 interest), Cynthia M.
Coleman (1/12 interest), Jeanne M. Coleman (1/4
interest), William A. Merrill (1/12 interest), Michael
S. Merrill (1/12 interest) and Richard L. Merrill (1/6
interest) and PBS Coals, Inc., dated May 31, 2006, a
redacted copy of which is attached hereto and made a
part hereof as Exhibit A, and Memorandum of Lease
Agreement dated May 31, 2006, recorded in the office
of the Recorder of Deeds of Somerset County at Record
Book 1944, pg. 598 (together being the “Coleman Coal
Lease”); (ii) Mineral Lease Agreement (A-Seam Deep
Coal) between Penn Pocahontas and PBS dated June
20, 2006, a Memorandum of which dated the same
date was recorded in the Office of the Recorder of
Deeds of Somerset County at Record Book 1954, pg.
466, and amended thereafter by Extension Mineral
Lease Agreement (A-Seam Deep Coal) dated June 20,
2009 (the “A-Seam Deep Coal Lease”); and (iii)
Amended and Restated Mineral Lease Agreement
(surface mining only) dated February 14, 2007, a
Memorandum of which of the same date was recorded
in the Office of the Recorder of Deeds of Somerset
County in Record Book Volume 1954, Page 471 (with
the interest of PBS in the (i) Coleman Coal Lease, (ii)

192a
the A-Seam Deep Coal Lease and (iii) the “Surface
Mining Lease” being together the “PBS Leasehold
Coal Interest”).
8.
Prior to June 14, 2010, the Coleman
Parcel had no frontage on a public road, with the only
access being a private right of way as set forth
hereafter in paragraph 9.
9.
Prior to June 14, 2010, the only access to
and from the Coleman Parcel to a public road was
through an adjoining parcel of land owned by Patricia
M. Hankinson (1/3 interest), Sally M. Ancona (1/3
interest), and Richard L. Merrill (1/3 interest), (the
“Merrill Parcel”) identified as Parcel No. 54 in the
Highway Plans for State Route 0219 by virtue of a
right-of-way excepted and reserved in deed of Charles
A. Merrill, Jr., and Elizabeth L. Merrill to Richard L.
Merrill, Patricia M. Hankinson and Sally M. Ancona
dated the 29th day of October, 1981, and recorded in
Somerset County Deed Book Volume 885, Page 30 (the
“Right-of-Way”).
10.
On June 14, 2010, the owners of the
Merrill Parcel conveyed a fee simple interest in a
portion of the Merrill Parcel to PennDOT by Deed in
Lieu of Condemnation (“PennDOT Deed in Lieu of
Condemnation”) dated June 14, 2010, and recorded in
the Office of Recorder of Deeds of Somerset County on
September 8, 2010, in Record Book Volume 2204, Page
881 (the “PennDOT Deed”), and in which, the property
being conveyed was identified as Parcel 54 in the
Highway Plans for State Traffic Route 0219, and with
a copy of the PennDOT Deed being attached hereto as
Exhibit B.
11.
Prior to the PennDOT Deed in Lieu of
Condemnation, PBS planned to surface mine the
Coleman Parcel which was accessible by the Right-of-

193a
Way. The coal under the Coleman Parcel is not
capable of being deep mined.
COUNT I
DEFACTO CONDEMNATION UNDER 26 PA.
C.S.A. § 502(c)
12.
The Plaintiffs/Condemnees incorporate
herein by reference thereto all of the allegations of
paragraphs No. 1 through No. 11 above, as if more
fully set forth herein at length.
13.
The area of the Coleman Parcel acquired
by PennDOT in the PennDOT Deed in Lieu of
Condemnation traversed and cut off the Right of Way
with the result that the coal underlying the Coleman
Parcel is no longer accessible.
14.
As a result of the PennDOT Deed in Lieu
of Condemnation, the coal under the Coleman Parcel
is now isolated and not capable of being mined.
15.
The total area of the Coleman Parcel that
is isolated is the entire acreage of the Coleman Parcel
being 73 acres.
16.
The seams of coal which are now isolated
and not capable of being mined on the Coleman Parcel
are the Lower Kittanning coal seam and the
Brookville coal seam (together the “Isolated Coal”).
17.
The Isolated Coal is comprised of high
quality seams of coal known as metallurgical coal and
at all times relevant were considered valuable seams
in the marketplace.
18.
Together, the total volume of the
economically recoverable Isolated Coal on June 14,
2010 approximated 1,134,965 tons.
19.
The PennDOT Deed in Lieu of
Condemnation which resulted in the loss of access to
the Coleman Parcel constituted an inverse or de facto
taking of the Penn Pocahontas Coal Estate and the

194a
PBS Leasehold Coal Interest, all within the meaning
of the Pennsylvania Eminent Domain Code and the
cases decided thereunder in general, and with
specificity, 26 Pa. C.S.A. Section 502(c).
20.
The PennDOT Deed in Lieu of
Condemnation constituted an inverse or de facto
taking of the Penn Pocahontas Coal Estate and the
PBS Leasehold Coal interest within the meaning of 26
Pa. C.S.A. Section 201 et. seq. in that the property
interests of PBS and Penn Pocahontas were taken,
injured and otherwise destroyed by authority of law
for a public purpose.
21.
The names and addresses of all
condemnees, displaced persons and mortgagees
known to have an interest in the property acquired in
the nature of their interest are as follows:
Property Owner
Ownership Interest
Penn Pocahontas Coal Co.
***
(Coal Estate)

100% owner of the Penn
Pocahontas

PBS Coals, Inc.
***

100% owner of the PBS
Leasehold
PBS Leasehold Coal
Interest

Mortgagee
Merrill Mortgage
Holdings, LLC
***

None involving PBS
Leasehold Coal Interest
Mortgagee of Penn Pocahontas
Coal Estate only by virtue of
Assignment from Charles A.
Merrill, et al., original Mortgagee

Patricia M. Hankinson
***

1/6 interest in the surface

195a
Sally M. Ancona
***

1/6 interest in the surface

Bryna M. Coleman
***

1/12 interest in the surface

William A. Merrill, III
***

1/4 interest in the surface

William A. Merrill
***

1/12 interest in the surface
1/8 interest in the surface

Michael S. Merrill
***

1/12 interest in the surface

Meredith A. Merrill
***

1/6 interest in the surface
1/8 interest in the surface

22.
By reason of the inverse or de facto
taking, PBS as owner of the PBS Leasehold Coal
Interest has suffered damage and loss, including inter
alia the following: (i) Damages resulting from loss of
the value of the Isolated Coal; (ii) such other damages
as may be allowable under the Eminent Domain Code.
23.
By reason of the inverse or de facto
taking, Penn Pocahontas has been damaged by the
loss of lease royalties that Penn Pocahontas would
have otherwise received under the Surface Mining
Lease for the Isolated Coal.
24.
PBS and Penn Pocahontas respectfully
request that this Court enter an Order (i) appointing
viewers to ascertain just compensation to PBS and
Penn Pocahontas for their losses resulting from the
inverse or de facto condemnation pursuant to the
requirements of Section 7.01, et sec. of the
Pennsylvania Eminent Domain Code and after a

196a
hearing and argument, (ii) determine that an inverse
or de facto condemnation has occurred, (iii) determine
that the date of condemnation is the date of the
conveyance of the surface pursuant to the PennDOT
Deed in Lieu of Condemnation, June 14, 2010, (iv) and
determine that the extent of the taking involved all of
the Isolated Coal.
25.
Since this Petition has been filed
pursuant to 26 Pa.C.S.A. §502(c), PBS and Penn
Pocahontas are each entitled, pursuant to 26
Pa.C.S.A. §709, to not only a judgment awarding
compensation for the taking of the PBS leasehold coal
interest and the Penn Pocahontas Coal Estate, but
also an award for reimbursement for reasonable
appraisal, attorney and engineering fees and other
costs and expenses actually incurred by PBS and Penn
Pocahontas, together with delay damages from the
date of condemnation, April 27, 2010, pursuant to 26
Pa. C.S.A. §713.
WHEREFORE, the Petitioners, PBS and Penn
Pocahontas respectfully request that this Honorable
Court (a) enter an Order in accordance with 26 Pa.
C.S.A. §502(c) appointing three viewers to (i) assess
those damages to which PBS and Penn Pocahontas
are entitled to recover under the provisions of 26 Pa.
C.S.A. §701, §702 and §713, (ii) assess reimbursement
of appraisal, attorney and engineering fees and other
costs and expenses within the meaning of 26 Pa.
C.S.A. §709, and (iii) make determinations as to any
other matters that are properly brought before them;
(b) after an evidentiary hearing and argument enter
an Order under 26 Pa. C.S.A. §502(c)(2) and (3) that
an inverse or de facto condemnation has occurred,
that the condemnation date was June 14, 2010, and
that the extent and nature of the condemnation was

197a
all of the interest of PBS and Penn Pocahontas in their
respective Coal Estates.
COUNT II
CONSEQUENTIAL DAMAGES PURSUANT TO
SECTION 714 OF THE PENNSYLVANIA
EMINENT DOMAIN CODE
26.
The Plaintiffs/Condemnees incorporate
herein by reference thereto all of the allegations of
paragraphs No. 1 through No. 25 above, as if more
fully set forth herein at length.
27.
That part of the Penn Pocahontas Coal
Estate and the PBS Coal Leasehold Coal Interest
identified in Count I above as the Isolated Coal has
been permanently isolated by PennDOT by accepting
the PennDOT Deed in Lieu of Condemnation and the
resulting construction of State Route 0219 by
PennDOT which resulted in taking the only access
PBS and Penn Pocahontas had to and from the
Coleman Parcel from a public road.
28.
As the direct result of the above actions
by PennDOT, PBS is now unable to mine and
otherwise remove coal which PBS had previously
planned to be removed by the surface mining method.
29.
The PennDOT Deed in Lieu of
Condemnation and the construction of State Route
0219 by PennDOT, as stated, resulted in permanent
interference involving the loss of access to the Isolated
Coal, for which Penn Pocahontas and PBS are entitled
to consequential damages under 26 Pa. C.S.A. §714.
30.
The Isolated Coal is comprised of high
quality seams of coal known as metallurgical coal, and
at all relevant times was considered valuable seams
in the marketplace.
31.
By reason of the Condemnation, PBS,
as the owner of the PBS Leasehold Coal Interest,

198a
suffered damage and loss including inter alia the
following: (i) Consequential damages resulting from
loss of the value of the Isolated Coal; and (ii) such
other damages as may be allowable under the
Eminent Domain Code.
32.
By reason of the Condemnation, Penn
Pocahontas has been damaged including the
following: (i) Consequential damages resulting from
the loss of lease royalties that Penn Pocahontas would
have otherwise received under the Surface Mining
Lease; and (ii) such other damages as may be
allowable under the Eminent Domain Code.
33.
PBS and Penn Pocahontas respectfully
request that this Court enter an Order appointing
viewers to ascertain just compensation to PBS and
Penn Pocahontas for their losses resulting from the
PennDOT Deed in Lieu of Condemnation and the
construction of State Route 219 pursuant to the
requirements of Sections 701, 702 and 714 of the
Pennsylvania Eminent Domain Code.
34.
PBS and Penn Pocahontas are entitled to
reimbursement for attorney’s fees, engineering and
other costs pursuant to the provisions of 26 Pa. C.S.A.
§710 together with delay damages pursuant to 26 Pa.
C.S.A. §713.
WHEREFORE, the Petitioners, PBS and Penn
Pocahontas respectfully request that this Honorable
Court enter an Order in accordance with 26 Pa. C.S.A.
§502 appointing three viewers to (i) assess those
damages to which PBS and Penn Pocahontas are
entitled to recover under the provisions of 26 Pa.
C.S.A. §701, §702, and §714, (ii) reimbursement of
appraisal, attorney and engineering fees under 26 Pa.
C.S.A. §710, (iii) assess the commencement of the time
for running of the delay damages under 26 Pa. C.S.A.

199a
§713, and (iv) make determinations as to any other
matters that are properly brought before them.
BARBERA, CLAPPER, BEENER, RULLO
& MELVIN, LLP
By:__/s/ Vincent J. Barbera________________
Vincent J. Barbera, Esq.
Court Adm. Cert. No.: 34441
Attorney for PBS Coals, Inc.
/s/ Robert P. Lightcap________________
Robert P. Lightcap, Esquire
I.D. No. 05787
Attorney for Penn Pocahontas Coal, Co.
Dated: February 19, 2015

200a
APPENDIX K – SUMMARY, SUPPORT COAL
EVALUATION REPORT, AND ORDER, NO. 65
MISCELLANEOUS 2014, COURT OF COMMON
PLEAS OF SOMERSET COUNTY,
PENNSYLVANIA, FILED JULY 23, 2019
IN THE COURT OF COMMON PLEAS OF
SOMERSET COUNTY, PENNSYLVANIA
NO. 65 MISCELLANEOUS 2014
STATE MINING COMMISSION
IN RE: PETITION OF PENN POCAHONTAS COAL
CO., and PBS COALS, INC. to Convene a State
Mining Commission to Determine Underlying and
Adjacent Support Coal to be Left in Place, to Assess
Damages, and Other Matters Under Lands Located
in Brothersvalley and Summit Townships, Somerset
County, Pennsylvania Relative to a Portion of the
Construction of State Traffic Route 219
SUMMARY, SUPPORT COAL EVALUATION
REPORT, AND ORDER
On December 15, 2014, Penn Pocahontas Coal,
Co. and PBS Coals, Inc. (together, "Petitioners"),
pursuant to 52 P.S. § 1501 et seq., filed a petition to
convene a State Mining Commission (hereinafter, the
"Commission) in order to have adjudicated issues
relating to the amount of mineable coal required to
remain in place to provide vertical and lateral
support to the right of way condemned by the
Commonwealth of Pennsylvania, Department of
Transportation (hereinafter, "PennDOT"), for the
purpose of constructing State Route 219.

201a
The State Mining Commission consists of the
Honorable D. Gregory Geary, President Judge of the
Court of Common Pleas, Sixteenth Judicial District
(Somerset County); Ron Clark, representative from
the Pennsylvania Department of Transportation,
Geotechnical Section; Daniel Helfrich, representative
from the Pennsylvania Public Utility Commission,
Bureau of Technical Utility Services, Rail Safety
Division; Sean Isgan, from CME Engineering,
representing Petitioners; and Carl Massini,
representing the Pennsylvania Department of
Environmental Protection.
The Commission bifurcated the proceedings
such that Phase I addressed the amount of support
coal required to be left in place and Phase II
addressed the amount of that support coal that is
mineable, the value of the mineable support coal, and
whether any amount of support may be waived.
Phase I of the proceedings occurred on November 810, 2016; March 7-9, 2017; and June 12-14, 2017, and
we issued our Memorandum and Order regarding the
amount of support coal required to be left in place on
August 24, 2017. Phase II of the proceedings occurred
on April 9-11, 2018; and September 17-21, 2018. We
now issue the attached Support Coal Evaluation
Report (containing the Commission's findings and
award of damages), and offer the following Summary
regarding the Report's contents and the
Commission's calculation of delay damages.
CONCLUSIONS OF LAW
A. Mineability
52 P.S. § 1501 provides in pertinent part that

202a
Whenever the Commonwealth has
heretofore acquired or may hereafter
acquire lands, easements or right of
ways underlaid by mineable coal, the
State Mining Commission .. .is hereby
empowered to determine, authorize,
and direct the underlying or adjacent
coal, if any, to be left in place for the
purpose of furnishing vertical or lateral
support... This Commission shall have
exclusive jurisdiction of the mining of
coal under lands, easements and right
of ways purchased, condemned or
otherwise
acquired
by
the
Commonwealth and judicial powers to
hear and determine all evidence which
may be presented... [and] to determine
and assess damages, if any, for coal
required by the said Commission to be
left in place ... "
52 P.S. § 1501 (emphasis added).
We note that any determination regarding the
amount of coal that must be left in place for the
purpose of furnishing vertical or lateral support for a
highway, as well as the value of such coal, "is one that
requires enormous technical and expert knowledge[.]"
In re Glen Alden Coal Co., 38 A.2d 37, 39 (Pa. 1944). As
a body of experts, the State Mining Commission is
therefore granted wide latitude to make an
"independent determination" regarding damages so

long as it utilizes its own expertise and "acts
upon competent evidence in the record." In re
Appropriation and Taking of Lands of Moffat,

203a

Situated in Lackawanna County, 161 A.2d 352,
355-56 (Pa. 1960). In that spirit, this
Commission
employed
a
three-pronged
analysis to evaluate the mineability of support
coal, relying, in part, upon expert testimony,
and evidence presented during the Phase II
proceedings. According to the Commission, an
award of damages for support coal is contingent
upon a finding that the coal is in fact "mineable"
under the following rubric: (1) whether support
coal is technically mineable; (2) whether
support coal is legally mineable; and (3)
whether support coal is economically mineable.
Technical mineability refers to the
feasibility of mining methods, taking into
account the logistical, technical, and/or
technological
factors
associated
with
extracting proven coal seams. As our report
indicates, we determined that the surface
mining plans offered by Petitioners regarding
the Black Mountain Mine site were not
technically feasible. Nevertheless, we do find
that the Black Mountain Mine contains
surface mineable coal that may be successfully
mined utilizing the alternative surface mining
plan proposed by the Commission. See Support
Coal Evaluation Report, at pp. 3-4.
Consequently, the Commission relied upon the
surface mining plan outlined in its report to
calculate damages awarded to Petitioners in
this matter for mineable support coal.
Legal mineability refers to Petitioners'
possession of the legal right to extract coal from

204a

the support coal area, as well as the likelihood
that the Pennsylvania Department of
Environmental Protection (hereinafter, "DEP")
would have granted a permit for surface mining
therein had one been applied for. With respect
to secondary mine pillar extraction of the
Brookville Coal Seam Deep Mine, or any
Brookville Coal deep mineable coal within the
right of way at issue, we find that it is not
likely the DEP would have granted a permit
for such mining activity. We do find, however,
that it is more likely than not the DEP would
have granted a permit for a surface mining plan
within 100 feet of the existing Black Mountain
Mine site. The likelihood of such a permit being
granted and its effect upon our valuation
methodology in this matter will be discussed in
greater detail infra in Section B.
Economic mineability refers to the rate of
return necessary for a surface mining plan to be
considered economically feasible, taking into
consideration the overall cost of production
versus coal sale prices. As we note in our report,
the support coal at issue is metallurgical coal, a
desirable coal under prevailing industry
standards. Furthermore, we considered the
mining costs, coal quantities, coal values and
sale prices proffered by both Petitioners and
PennDOT related to surface mineable support
coal. While we relied primarily upon the values
provided by Petitioners, we note that the
Parties reached significantly different values
with respect to mining costs and sale price.

205a

Thus, in assessing damages, we utilized an
average of the Parties' values in this regard. In
doing so, we found that the net present value of
the Commission's proposed surface mining plan
for the subject support coal, accounting for all
related mining costs, environmental restorations
costs, and coal values, well-exceeds the acceptable
minimum standards of economic feasibility
within the mining industry.
Consequently, the Commission finds that
the support coal at issue is in fact "mineable," and
we therefore grant Petitioners an award of
damages outlined in greater detail infra in
Section B.
B. Valuation Methodology

The Commission's finding that Petitioners
are entitled to damages for surface mineable coal
within the support area is qualified by the fact
that obtaining a permit from the DEP for
surface mining operations is not a foregone
conclusion. While we find it is more likely than
not that Petitioners would have obtained such a
permit had one been applied for, any award for
mineable support coal must be discounted by 49%,
representing the risk that any requisite permit, or
permits, would not have been issued by the DEP for
such mining activity. Thus, our award of damages to
Petitioners reflects a two-step procedure to determine
the overall value of the mineable support coal: (1)
adjustment of any mineable coal's base value utilizing
the Net Present Value method by accounting for all
mining costs, coal quantities, coal value and sale price;

206a
and (2) a further discount of the mineable coal's net
present value by 49% to account for the risk of a mining
permit not being granted.
Consequently, utilizing the above-mentioned
methodology, we find that PBS Coals, Inc., is entitled
to an award of $3,530,000 for mineable support coal.
Likewise, we find that Penn Pocahontas Coal Co. is
entitled to an award of $500,000 for mineable support
coal.
C. Waiver

As we observed in our Memorandum filed on
August 24, 2017 with respect to the Phase I
proceedings in this matter, 52 P.S. § 1504 establishes
a two-prong test for waiver of support - a "fiscal" or
financial prong, and a "public safety" prong. See
Memorandum, Oct. 3, 2017, at pp. 5-8. Having
previously addressed the "public safety" prong, we
now issue our finding' regarding the fiscal prong.
The State Mining Commission statute provides
in pertinent part:
Except as hereinafter specifically
provided by this act, vertical and
lateral support by underlying coal for
any land, easement or right of way
purchased, condemned or otherwise
acquired by the Commonwealth is
waived, (l)(a) Whenever the State
Mining Commission finds that the cost
of restoring any possible subsidence or
replacing any damage to structures or
other improvements on such land,
easement or right of way is less than the
amount payable for damages for coal

207a
required to be left in place in order to
furnish such vertical or lateral
support...
52 P.S. § 1504. As we note supra in Section B, the total
cost to PennDOT of an award to both PBS Coals, Inc.,
and Penn Pocahontas Coal Co. for mineable support
coal in the instant matter is $4,030,000. During the
Phase II proceedings, PennDOT provided expert
testimony and an exhibit indicating that the cost of
rebuilding State Route 219 due to large-scale
subsidence from mining activities below the 100-foot
support area is approximately $10,000,000. Given
that this figure exceeds the amount awarded to
Petitioners as damages for mineable support coal, we
find waiver to be inapplicable here.
D. Delay Damages

Petitioners are entitled to delay damages. In
re Appropriation and Taking of Lands of Moffat,
Situated in Lackawanna County, 161 A.2d 352 (Pa.
1960). The Commission adopts as a model for
calculating delay damages the method set forth in
Eminent Domain Code§ 713, which provides in
pertinent part that "[c]ompensation for delay in
payment shall be paid at an annual rate equal to the
prime rate as listed in the first edition of the Wall
Street Journal published in the year1, plus 1%, not

See Pa.R.C.P. 238, Addendum to Explanatory Comment
(2019), for a table of the prime rates published in the first
edition of the Wall Street Journal for the years 2010 through
2019.
1

208a
compounded ... " 26 Pa.C.S. 713(a). Delay damages are
to be calculated from April 27, 2010.
Consequently, we issue the following Order:

209a
IN THE COURT OF COMMON PLEAS OF
SOMERSET COUNTY, PENNSYLVANIA
NO. 65 MISCELLANEOUS 2014
STATE MINING COMMISSION
IN RE: PETITION OF PENN POCAHONTAS COAL
CO., and PBS COALS, INC. to Convene a State
Mining Commission to Determine Underlying and
Adjacent Support Coal to be Left in Place, to Assess
Damages, and Other Matters Under Lands Located
in Brothersvalley and Summit Townships, Somerset
County, Pennsylvania Relative to a Portion of the
Construction of State Traffic Route 219
ORDER
AND NOW, this 23 day of July, 2019, the
State Mining Commission having reviewed the
evidence submitted to, and the arguments made
before, it; and the members of the Commission
having come to an unanimous agreement;
pursuant to the Commission's interpretation of
52 P.S. § 1501, as articulated in our Support Coal
Evaluation Report and the above Summary, it is
HEREBY
ORDERED,
ADJUDGED
and
DECREED:
1.
PennDOT is ordered to pay to
Petitioner PBS Coals, Inc., an award
amount of $3,530,000 for mineable support
coal, together with delay damages
calculated from April 27,2010 to the date of
payment, at an annual rate equal to the
prime rate as listed in the first edition of the
Wall Street Journal published in the year,
plus 1%, adjusted annually and not

210a
compounded.
2.
PennDOT is ordered to pay to
Petitioner Penn Pocahontas Coal Co. an
award amount of $500,000 for mineable
support coal, together with delay damages
calculated from April 27, 2010 to the date of
payment, at an annual rate equal to the
prime rate as listed in the first edition of the
Wall Street Journal published in the year,
plus 1%, adjusted annually and not
compounded.
BY THE STATE MINING COMMISSION:
/s/ D. Gregory Geary
D. Gregory Geary, President Judge
Chairman of the State Mining Commission

211a
APPENDIX L – PENNSYLVANIA
CONSTITUTION, PA. CONST. ART 1 § 10
Const. Art. 1, § 10
§ 10. Initiation of criminal proceedings; twice in
jeopardy; eminent domain
Except as hereinafter provided no person shall, for
any indictable offense, be proceeded against
criminally by information, except in cases arising in
the land or naval forces, or in the militia, when in
actual service, in time of war or public danger, or by
leave of the court for oppression or misdemeanor in
office. Each of the several courts of common pleas
may, with the approval of the Supreme Court,
provide for the initiation of criminal proceedings
therein by information filed in the manner provided
by law. No person shall, for the same offense, be
twice put in jeopardy of life or limb; nor shall private
property be taken or applied to public use, without
authority of law and without just compensation
being first made or secured.

212a

APPENDIX M – PENNSYLVANIA EMINENT
DOMAIN CODE 26 Pa.C.S.A. SECTIONS 502(c),
504 and 714
26 Pa.C.S.A. § 502
§ 502. Petition for appointment of viewers
Effective: September 1, 2006
(c) Condemnation where no declaration of
taking has been filed.-(1) An owner of a property interest who asserts that
the owner’s property interest has been condemned
without the filing of a declaration of taking may file
a petition for the appointment of viewers
substantially in the form provided for in subsection
(a) setting forth the factual basis of the petition.
(2) The court shall determine whether a
condemnation has occurred, and, if the court
determines that a condemnation has occurred, the
court shall determine the condemnation date and
the extent and nature of any property interest
condemned.
(3) The court shall enter an order specifying any
property interest which has been condemned and
the date of the condemnation.
(4) A copy of the order and any modification shall be
filed by the condemnor in the office of the recorder
of deeds of the county in which the property is
located and shall be indexed in the deed indices
showing the condemnee as grantor and the
condemnor as grantee.

213a
26 Pa.C.S.A. § 504
§ 504. Appointment of viewers
Effective: September 1, 2006
(a) Court to appoint.-(1) Upon the filing of a petition for the appointment
of viewers, the court, unless preliminary objections
to the validity of the condemnation or jurisdiction
warranting delay are pending, shall promptly
appoint three viewers who shall view the premises,
hold hearings and file a report.
(2) In counties of the first class, the court may
appoint an alternate viewer in addition to the three
viewers specifically appointed.
(3) The prothonotary shall promptly notify the
viewers of their appointment unless a local rule
provides another method of notification.
(4) No viewer shall represent a client or testify as an
expert witness before the board.
(b) Service of petition for the appointment of
viewers and order appointing viewers.--The
petitioners shall promptly send to all other parties by
registered mail, return receipt requested, a certified
true copy of the petition for the appointment of
viewers and a copy of the court order appointing the
viewers if an order has been entered. A copy of the
petition and order, if entered, shall also be mailed to
all mortgagees and other lienholders of record.
(c) Notice of views and hearings.--The viewers
shall give notice of the time and place of all views and

214a
hearings. The notice shall be given to all parties by not
less than 30 days written notice by registered mail,
return receipt requested.
(d) Preliminary objections.-(1) Any objection to the appointment of viewers may
be raised by preliminary objections filed within 30
days after receipt of notice of the appointment of
viewers.
(2) Objections to the form of the petition or the
appointment or the qualifications of the viewers in
any proceeding or to the legal sufficiency or factual
basis of a petition filed under section 502(c) (relating
to petition for appointment of viewers) are waived
unless included in preliminary objections.
(3) An answer with or without new matter may be
filed within 20 days of service of preliminary
objections, and a reply to new matter may be filed
within 20 days of service of the answer.
(4) The court shall determine promptly all
preliminary objections and make any orders and
decrees as justice requires.
(5) If an issue of fact is raised, the court shall
conduct an evidentiary hearing or order that
evidence be taken by deposition or otherwise, but in
no event shall evidence be taken by the viewers on
this issue.

215a
26 Pa.C.S.A. § 714
§ 714. Consequential damages
Effective: September 1, 2006
All condemnors, including the Commonwealth, shall
be liable for damages to property abutting the area of
an improvement resulting from change of grade of a
road or highway, permanent interference with access
or injury to surface support, whether or not any
property is taken.

216a

APPENDIX N – 52 P.S. §1501, AUTHORITY OF
STATE MINING COMMISSION; APPLICATION;
MEMBERS OF COMMISSION; PROCEEDINGS
BEFORE COMMISSION; APPEALS
52 P.S. § 1501
§ 1501. Authority of State Mining Commission;
application; members of commission; proceedings
before commission; appeals
Whenever the Commonwealth has heretofore
acquired or may hereafter acquire lands, easements
or right of ways underlaid by mineable coal, the
State Mining Commission created in accordance
with the provisions of this act upon application of
the Commonwealth, the county or the municipality
within which such lands, easements or right of ways
are situated or the owner of the coal underlying such
lands, or the person entitled to remove the same in
case the assessment of damages is desired, or of the
owner or person entitled to remove the coal only if
the removal of the coal is desired in lieu of damages,
is hereby empowered to determine, authorize, and
direct the underlying or adjacent coal, if any, to be
left in place for the purpose of furnishing vertical or
lateral support to said land, easement or right of
way, the underlying or adjacent coal, if any, which
may be removed, and the material, if any, to be
substituted for the coal so removed, together with
the method and manner of placing such material in
the mine workings, for the purpose of furnishing
both vertical and lateral support to such land,
easement or right of way and the party or parties by
whom the expense thereof shall be paid. The

217a
application on behalf of the Commonwealth shall be
made by the department, board or commission of the
State government having jurisdiction over the
particular land, easement or right of way underlaid
by mineable coal. The president judge of the court of
common pleas of the county in which the land,
easement or right of way is situated, who shall be
the chairman thereof, one member of the Public
Utility Commission or an engineer designated by it,
the Secretary of Mines or his designated
representative, the head of the department, board
or commission of the State government owning the
lands, easements or right of ways in question or his
designated representative, and an engineer
designated by the owner or person entitled to
remove the coal, are hereby constituted a special
commission to be known as the State Mining
Commission. This commission shall have exclusive
jurisdiction of the mining of coal under lands,
easements and right of ways purchased, condemned
or otherwise acquired by the Commonwealth and
judicial powers to hear and determine all evidence
which may be presented; to compel the attendance
of witnesses and the production of books, records,
and other information by subpoena; to conduct such
investigations as it may deem necessary; to make and
enforce such orders, decrees and rules of procedure
as it may deem advisable; to determine and assess
damages, if any, for coal required by the said
Commission to be left in place and benefits, if any,
for improvements or betterments; to allocate among
the parties in interest the cost of its proceedings as
well as any work which it may order performed; and
to enforce its orders and decrees through the court
of common pleas of the county in which the lands,
easements and right of ways purchased, condemned

218a
or otherwise acquired by the Commonwealth is
situated. The proceedings before the Commission,
including all notes of testimony and exhibits, shall
be filed and docketed in the office of the
prothonotary of the said court of common pleas at
the expense of the county. A majority of the
commission, of which the chairman must be one,
may act for and exercise the powers of the
commission. All parties in interest shall have the
same right of appeal from decisions, orders and
decrees of the State Mining Commission, as now or
hereafter provided for appeals from the decisions,
orders and decrees of courts of common pleas:
Provided, That in case of an appeal from an award
by the commission of compensation for damages
resulting from an appropriation of property under
the provisions of this act the appeal shall, in case
any party is entitled to demand a jury trial under
section eight of Article sixteen of the Constitution of
this Commonwealth, be to the courts of the proper
county thereof.

219a
APPENDIX O – 53 PA.C.S.A. §8819

53 Pa.C.S.A. § 8819
§ 8819. Separate assessment of coal and surface
Effective: January 1, 2011
The county assessment office shall assess coal and
surface separately in cases where the owner or life
tenant of land does not have the right to mine the coal
underlying the surface.

220a
APPENDIX P – 61 PA. CODE §91.169
61 Pa. Code § 91.169
§ 91.169. Conveyances of coal, oil, natural gas or
minerals.
Instruments evidencing an interest in all or a fixed
amount of unremoved coal, oil, natural gas or
minerals in place are taxable if the interest conveyed,
transferred, released, demised, vested or confirmed
thereby is an estate in fee simple or approximates an
estate in fee simple.

ia

PETITION APPENDIX TABLE OF CONTENTS
Appendix A - Order Denying Application for
Reargument, Supreme Court of Pennsylvania,
Western District, Filed March 11, 2021..........
.......................................................................... 1a
Appendix B - Applications for Reargument, PBS
Coals and Penn Pocahontas Coal, Co.,
Filed January 29, 2021. .......................................... 2a
Appendix C - Opinion and Dissent, Supreme
Court of Pennsylvania, Western District,
filed January 20, 2021. ......................................... 26a
Appendix D - Opinion, Commonwealth Court of
Pennsylvania, Filed March 28, 2019. ..............
82a
Appendix E - Opinion, Pa.R.A.P. 1925 Opinion,
Court of Common Pleas of Somerset County,
Pennsylvania, filed April 30, 2018. .................
127a
Appendix F - Concise Statement of Errors,
Re: Trial Courts Findings of Fact and
Conclusions of Law, filed February 21, 2018. .

132a

Appendix G - Memorandum, Findings of Fact and
Conclusions of Law, and Order Sustaining
Preliminary Objections and dismissal of Petition
filed, January 23, 2018. ...................................... 147a

iia

Appendix H - Trial Transcript Excerpts, Court of
Common Pleas of Somerset County ............... 171a
Appendix I - Memorandum and Order Re: Evidence
of “mineability” at the Preliminary Objections Stage
Court of Common Pleas of Somerset County,
Pennsylvania Filed February 13, 2017. .......... 185a
Appendix J - Petition for Board of View ........... 189a
Appendix K - Summary, Support Coal Evaluation
Report, and Order, No. 65 Miscellaneous 2014,
Court of Common Pleas of Somerset County,
Pennsylvania, filed July 23, 2019. ..................... 200a
Appendix L - Pennsylvania Constitution,
Pa. Const. Art 1 §10 ............................................ 211a
Appendix M - Pennsylvania Eminent Domain Code
26 Pa.C.S.A. Sections 502(c), 504 and 714 ......... 212a
Appendix N - 52 P.S. §1501 Authority of State
Mining Commission; application; members of
Commission; proceedings before commission;
Appeals ................................................................ 216a
Appendix O - 53 Pa.C.S.A. § 8819 ...................... 219a
Appendix P - 61 Pa. Code § 91.169..................... 220a

